<html>
<title> - THE PRESIDENT'S FOREIGN AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 110-389]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-389
 
                 THE PRESIDENT'S FOREIGN AFFAIRS BUDGET

=======================================================================


                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                            FEBRUARY 8, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                        U.S. GOVERNMENT PRINTING OFFICE

42-473                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director


                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1

Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

Rice, Hon. Condoleezza, Secretary of State, Washington, D.C......     5

    Prepared statement...........................................     9

                                Appendix

Responses to additional questions submitted for the record by 
  members of the committee

Responses to additional questions submitted by Chairman Biden to 
  Secretary Rice.................................................    63

Responses to additional questions submitted by Senator Lugar to 
  Secretary Rice.................................................    86

Responses to additional questions submitted by Senator Boxer to 
  Secretary Rice.................................................   114

                                 (iii)


                 THE PRESIDENT'S FOREIGN AFFAIRS BUDGET

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:19 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, Bill 
Nelson, Obama, Menendez, Cardin, Casey, Webb, Lugar, Hagel, 
Coleman, Corker, Voinovich, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., 
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Madam Secretary, welcome. It's an honor to have you back 
here today.
    Today, the Foreign Relations Committee meets to hear the 
Secretary of State on the budget for foreign affairs for fiscal 
year 2008. A month ago, the Secretary testified before us on 
the President's plan to surge additional United States forces 
into Iraq, and she heard a varying number of opinions from this 
committee. I continue to believe the President's making a 
tragic mistake by inserting thousands of additional troops in 
the middle of a civil war. We need a political solution, and I 
think the better way to get breathing room, as we all are 
talking about, is through that solution, and begin to drawdown 
troops, not escalate them. But that's not the purpose of 
today's hearing.
    Today's hearing is to talk about the State Department 
budget. The budget presented to the Congress this week requests 
$36.2 billion for international affairs for fiscal year 2008. 
It also seeks nearly $6 billion in emergency spending for 
fiscal year 2007, primarily for Iraq, Afghanistan, and the war 
against Islamic extremists, and it requests another $3.3 
billion in emergency spending for fiscal year 2008.
    In seeking these supplemental funds as so-called emergency 
spending, spending not within the normal budget limitations, 
the President continues to be intellectually dishonest in that 
calling on Congress to exercise budget discipline while 
exhibiting not very much discipline at the administration 
level. We've been in Afghanistan for over 5 years, in Iraq for 
nearly 4; spending in either country can hardly be called an 
emergency. Madam Secretary, you have said that we face an 
existential threat to our security since 9/11, and the 
President says the war in Iraq is a central front on terrorism. 
If the very survival of our country is at stake, I'm still 
confused as to why the administration doesn't come out and ask 
the American people to pay for those wars today rather than 
burden the taxpayers of tomorrow.
    Iraq dominates the time, attention, and the resources of 
our national government, and I would like to know how you're 
budgeting your own time, Ms. Secretary, in dealing with Iraq 
and how much time that leaves for you to address the many other 
challenges we confront, specifically the ongoing struggle for 
Afghanistan, the genocide in Darfur, the Middle East peace 
process, the crisis in Lebanon, the nuclear weapons program in 
North Korea, and the nuclear ambitions of Iran. You have your 
hands full.
    I'm particularly interested in our strategy with regard to 
Iran. In recent weeks, we have deployed an additional carrier 
group to the Persian Gulf, we let it be known that Iranian 
agents in Iraq could be targeting U.S. militaries, and, in 
general, we have escalated our rhetoric. The threat posed by 
Iran and its nuclear ambitions is real, and, of course, we 
should use any means necessary to protect our soldiers. But if 
there's a coherent strategy in place to deal with Iran, I'd 
like to hear more about it. Perhaps the strategy is this, by 
increasing pressure on Iran from across the board, we put 
Tehran on the defensive and strengthen our hands in any future 
negotiation. That makes sense, provided we are serious about 
talking. If we are, I would urge you to make it clear to the 
Iranians, our allies, and to the American people, that we 
intend to talk.
    The subject to start with would be Iraq, where we have 
shared interest in preventing a total breakdown. It should go 
beyond Iraq and encompass a full range of issues that divide 
us--the nuclear program, Iran's support for terrorism, and its 
opposition to an Arab-Israeli peace.
    I do not agree with your statement, Madam Secretary, that 
negotiations with Iran and Syria would be extortion, nor did 
most of the witnesses we heard in this committee during the 
last month. The proper term, I believe, and they believe, is 
``diplomacy,'' which is not about paying a price, but finding a 
way to protect our interests without engaging in a military 
conflict. It is, I might add, the fundamental responsibility of 
the Department of State to engage in such diplomacy, as you 
well know.
    As Lee Hamilton said, ``Do we have so little confidence in 
our diplomats that we are not willing to let them talk to 
somebody we disagree with?'' The rhetoric coming from the 
administration about Iran is starting to sound a little like a 
runup that we heard in the fall of 2002. If the President 
believes that the threat posed by Iran requires military 
action, he should come to the Congress, and, by extension, the 
American people, and seek legal authority from Congress to 
undertake it. He has, in my view, no such authority to wage war 
against Iran today.
    Before I turn to Senator Lugar, let me note, for the rest 
of the committee, that if we're able to get a quorum of 11 
Senators present, we will briefly interrupt the hearing and 
vote on the nomination of Ambassador Negroponte to be the 
Deputy Secretary. I'm confident the Secretary will not object 
to such an interruption, if we could do that.
    I yield now to my colleague Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming Secretary Rice.
    We understand the magnitude of the task that confronts the 
State Department. We look forward to this opportunity to engage 
you in dialog on the administration's foreign policy activities 
and budget priorities.
    In January, you undertook an important trip to the Middle 
East. I believe that your efforts and the changing 
circumstances of the region are opening new opportunities to 
advance stability. The United States is attempting to organize 
regional players--Saudi Arabia, Jordan, Egypt, Turkey, the Gulf 
States, and others--for a discussion of how to address Iran's 
stated aspirations and how to make progress on stalled 
negotiations, including the Arab-Israeli conflict. Such an 
agenda has relevance for stabilizing Iraq and bringing security 
to other areas of conflict in the region, such as Lebanon and 
the Palestinian territories.
    Many states in the Middle East are concerned by Iran's 
apparent program and by the possibility of sectarian conflict 
beyond Iraq's borders. They recognize the United States is an 
indispensable counterweight to Iran and a source of stability 
in the region. The United States has leverage to enlist greater 
support for our objectives inside Iraq and throughout the 
region. It's important that Congress and the public fully 
understand any strategic shift in our policy. The President 
should be reaching out to the Congress in an effort to 
construct a consensus on how we will protect our broader 
strategic interests, regardless of what happens in Baghdad 
during the next several months. The worst outcome would be a 
wholesale exit from vital areas and missions in the Middle East 
precipitated by U.S. domestic political conflict and fatigue 
over an unsustainable Iraq policy.
    As we think with you on how to achieve our goals in the 
Middle East and elsewhere, we also must consider how to 
strengthen our diplomatic instruments. The Bush administration 
deserves praise for its international affairs budget 
submissions, which have attempted to reverse the downward 
spiral in U.S. foreign policy capabilities imposed during the 
1990s. In that decade, both Congress and the executive branch 
rushed to cash in on the peace dividend. But by the time we 
confronted the tragedy of September 11, 2001, many of our 
foreign policy capabilities were in disrepair. In 2001, the 
share of the U.S. budget devoted to the international affairs 
account was barely above its post- World War II low, and only 
about half of its share in the mid-1980s. Embassy security 
upgrades were behind schedule. We lacked adequate numbers of 
diplomats with key language skills. Many important overseas 
posts were filled by junior Foreign Service officers. And our 
public diplomacy was completely inadequate for the mission and 
era of global terrorism.
    Our diplomatic capabilities have made progress under 
President Bush, but much work is left to be done. 
Unfortunately, despite two wars and multiple diplomatic crises, 
Congress has routinely cut the President's request for the 150 
account. In 2005 and 2006, Congress reduced the President's 
regular request by about $2 billion each year. In the current 
fiscal year, we are still awaiting a final outcome, but the 
President's fiscal year 2007 request may suffer what amounts to 
a $2.5 billion reduction. We seemed barely to notice that, in a 
time of war, we are telling the Commander in Chief we will not 
fund his regular request for the civilian side of our national 
security budget. And we also barely noticed that the foreign 
affairs account is a relative bargain, at one-fourteenth the 
size of the defense budget. In fact, the budget for fiscal year 
2008 seeks an increase in defense spending over 2006 
appropriated levels of approximately $71 billion. This 2-year 
increase alone is roughly twice the size of the entire foreign 
affairs 150 account.
    Though the State Department has numerous underfunded 
priorities, I would mention several that are especially 
critical. First, there is still no rapidly deployable civilian 
corps that is trained to work with the military on 
stabilization and reconstruction missions in hostile 
environments. The President's call for such a corps in his 
State of the Union Address was a breakthrough for a concept 
that was developed by this committee 3 years ago. Presidential 
interest must be accompanied by robust funding requests that, 
so far, have not appeared.
    On Tuesday, Secretary Gates and General Pace testified 
before the Senate Armed Services Committee about the urgent 
need for civilian expertise in the Iraq stabilization effort. 
The New York Times reported that, ``Mr. Gates said Ms. Rice has 
told him that her department needed 6 months to locate and 
prepare civil servants and contractors to send abroad.'' The 
paper also reported that Secretary Rice's office has made a 
request of the Defense Department that, ``military personnel 
temporarily fill more than one-third of the new 350 new State 
Department jobs in Iraq that are to be created under the new 
strategy.''
    General Pace asserted that civilians were needed, ``to be 
able to help with judiciary systems, to be able to help with 
engineering, be able to help with electricity and the like 
before a country dissolves--or, rather, devolves--into a state 
where the terrorists can find a home.''
    But creating and sustaining this civilian capacity is 
precisely the intent of Lugar-Biden-Hagel legislation that 
passed the Senate last year. The State Department's creation of 
an Office of Reconstruction and Stabilization was a step 
forward, but much more is required if the Department is to play 
its proper role in stabilization efforts that are increasingly 
critical to our national security. We want to help the State 
Department make this happen as soon as possible. In addition to 
meeting contingencies in Iraq and Afghanistan, we must be ready 
for the next post-conflict mission.
    Second, State Department positions in key countries are 
still going unfilled or are being filled by junior officers 
without adequate language skills. Our public diplomacy, in 
particular, is encumbered by a lack of experience and 
resources. We cannot afford second-tier embassies when we are 
in the midst of a worldwide campaign against terror. Defense 
agencies increasingly have been granted authority to fill gaps 
in foreign assistance and public information programs, but the 
military is ill-suited to run such programs. A far more 
rational approach would be to give the State Department the 
resources it should have to achieve what clearly are civilian 
missions.
    Third, the much-needed training rotation that Secretary 
Powell attempted to organize in the Department has not been 
implemented, as personnel and resources have been devoted to 
Iraq and Afghanistan. Congress should grant your request for 
104 more positions to enhance language training and regional 
expertise.
    And finally, I would note that Senator Obama and I have 
offered legislation last year to improve counterproliferation 
assistance and U.S. capabilities to eliminate conventional 
weapons, including MANPADS. The Lugar-Obama bill was passed 
overwhelmingly and signed into law. The State Department's 
budget request proposes a $36 million increase for conventional 
weapons dismantlement. This represents a dramatic step forward. 
I visited a number of weapons facilities in Eastern Europe and 
the former Soviet Union in dire need of dismantlement 
assistance. This funding increase will allow the United States 
to get to work destroying those weapons.
    Unfortunately, the request for counterproliferation efforts 
through the export control and related Border Security Program 
is $4 million less than the request from a year ago. Senator 
Obama and I look forward to working with you to enhance U.S. 
counterproliferation efforts, including increasing funding for 
proliferation interdiction assistance.
    Foreign Service officers and USAID professionals who are 
risking their lives to pursue U.S. objectives must have the 
tools they need to succeed. We must continue our investments in 
diplomats, embassy security, foreign assistance, and other 
tools of foreign policy. If a greater commitment of resources 
can prevent the bombing of one of our embassies, enhance 
alliance participation and peacekeeping efforts, secure 
vulnerable weapons stockpiles, prevent a failed state, or 
improve detection of terrorists seeking visas, the investment 
will have yielded dividends far beyond its cost.
    Madam Secretary, it is always a pleasure to have you with 
us, and we are honored by your presence today, and we look 
forward to your insights on these matters.
    I thank the Chair.
    The Chairman. Thank you, Senator.
    We have a quorum, and if the Secretary wouldn't mind, we 
have 11 Senators, I'd like to interrupt.
    [Recess.]
    The Chairman. The floor is yours, Madam Secretary.

    STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, 
                         WASHINGTON, DC

    Secretary Rice. Thank you very much, Mr. Chairman. Thank 
you, Senator Lugar. Thank you, members of the committee. And, 
very much, thank you for that vote. It is going to be very 
good, should he be confirmed by the full Senate, to have John 
Negroponte return to his home at the State Department after 
many years of service to our Government. So, thank you for 
that.
    I appreciate the opportunity to address the committee about 
the challenges and opportunities that we face today and the 
budgetary resources that are necessary to meet those 
challenges. I want to assure you that I look forward to 
continuing to work with you across party lines to make certain 
that our men and women who are serving so admirably abroad are 
able to carry out the task of U.S. foreign policy in this 
critical time.
    Mr. Chairman, I have a longer statement, but I would 
suggest that if you--if the committee will allow, I will just 
make a few comments and then enter the full statement into the 
record.
    The Chairman. Your entire statement will be entered into 
the record as if read.
    Secretary Rice. Thank you.
    President Bush's fiscal year 2008 international affairs 
budget for the Department of State, USAID, and other foreign 
affairs agencies totals $36.2 billion. The President's budget 
also requests $6 billion in supplemental funding for FY 2007 to 
support urgent requirements that are not funded in the annual 
budget. The supplemental request includes $1.18 billion for 
additional operating costs of the Department of State and other 
agencies, and $4.8 billion to meet urgent new foreign 
assistance needs in Afghanistan, Iraq, and Lebanon, as well as 
peacekeeping and humanitarian needs in Sudan, Somalia, and 
other countries in need.
    In addition, the administration is requesting $3.3 billion 
in war supplemental funding for fiscal year 2008, $1.37 for 
foreign assistance, and $1.93 for State Department operations 
to support emergency requirements in Iraq and Afghanistan. And 
this is to try and be responsive to the Congress's wish to know 
how we project costs for those two wars into fiscal year 2008.
    I just want to underscore that this is money--these are 
resources that are fundamental to our national security. Over 
the 5 years since the attacks of September 11, we remain 
engaged in a global war on terror. We are engaged in wars that 
are different kinds of wars. And to be successful, the force of 
arms is necessary, but not sufficient. We must mobilize our 
democratic principles, our development assistance, our 
compassion, and our multilateral diplomacy, as well as the 
power of our ideas. This means, members of the committee, that 
the Department of State is playing, in many ways, a different 
role, a transforming role during this period of national crisis 
that is, in some ways, unaccustomed, but a role that we believe 
is critical to success in our policies.
    President Bush has recognized this and has designated the 
State Department, this year, as a national security agency 
alongside the Department of Defense and the Department of 
Homeland Security. We have most--the lead on most of the tasks, 
as well, under the National Counterterrorism Strategy.
    What I would submit to you today is that this has caused us 
to relook at, and rethink, a lot of the ways that the 
Department does its work. We are very actively redeploying our 
diplomats out of posts, for instance, in Europe, to posts in 
places like India and places in Latin America, places that, 
frankly, have been understaffed by American diplomatic 
personnel. At one point, we had as many people in Germany as we 
had in India. We're trying to right some of those balances.
    We are restructured. We have restructured our foreign 
assistance efforts so that our foreign assistance dollars are 
going to high-priority tasks and are matched up with the 
objectives that we are trying to achieve. We have put a great 
effort into restructuring public diplomacy. And, of course, as 
Senator Lugar mentioned, we are putting a great effort into 
language development for our diplomats. I might just note that 
this is something that takes a while to remedy. The truth of 
the matter is that this country has been underinvested in the 
study of critical languages, like Arabic, Farsi, even Chinese, 
for a very long time. When I was a young student, growing up--
graduate student--it was the patriotic thing to do to learn to 
speak Russian. And I picked up a little Czech along the way, 
because those were considered critical languages. The National 
Defense Languages Act funded people to take on those critical 
languages. But we're trying catch up. And two things that would 
help very much that are in this budget is, one, that we do need 
a training float--it was mentioned by Senator Lugar--so that we 
can keep people in language training to get true proficiency; 
and, second, we have quadrupled the number of people that are 
taking, for instance, Arabic, but we are looking for more 
language specialists, and, indeed, will look at some of our 
Foreign Service hiring practices to see if we can even hire, at 
mid-career, people who may have those language skills.
    We also are asking our diplomats to go to more and more 
unaccompanied posts. I think it's sometimes not recognized that 
when we ask diplomats to serve in Baghdad or Kabul or Riyadh or 
Islamabad or Beirut, they, like the military, go without their 
families. They go for unaccompanied posts. And it's difficult 
on families. It is also the case that they are going to 
evermore dangerous places.
    And here, Mr. Chairman, I really want to say a word about 
the people who are serving in some of these most dangerous 
places. I know that the President really appreciates the fact 
that we do have diplomats serving in places like Anbar 
province, we do have people serving in the neighborhoods of 
Baghdad, in the Provincial Reconstruction Teams. These 
Reconstruction Teams were the idea of the State Department to 
get our diplomats out of the center of the city and into 
contact with local officials, with provincial officials. And 
they, too, are serving in places where they take mortar attack. 
They are, too, serving in places where convoys are attacked as 
they go from place to place. We're doing everything that we can 
to secure them. But I want it to be understood, civilians are 
taking tremendous risks in these places, and their service 
needs to be honored, and it needs to be recognized by everyone, 
just as the service of our men and women in uniform is 
recognized.
    We, indeed, are looking for ways to improve our ability to 
deploy civilians, but it is--it's interesting, when we look at 
posts like Baghdad or posts like Kabul, I was concerned, at one 
point, that in order to get the right mix of people, to get 
Foreign Service officers to go to these difficult posts, that 
we might have to direct service. We have not had to do that. In 
fact, we've had volunteers for those posts. We are at 98 
percent filled right now, and we are at 87 percent subscribed 
for assignments that do not come into being until this summer. 
And so, the State Department, in Baghdad and Kabul and 
Islamabad and Riyadh, we are getting our people to those posts.
    I'd like to note, too, that we are doing so with people who 
are appropriate to the task, in terms of training and 
experience. It is true, as I said, that language is a problem, 
but that's a national problem that we're trying to deal with.
    And if I may, I will just speak to a couple of questions 
that the Chairman and Senator Lugar asked in their opening 
statements.
    On the question of the Civilian Response Corps, Senator 
Lugar, I could not agree more, this is something that we very 
much favor. We have filled, for instance, in--for the 
President's surge of civilian personnel, we have filled the 
State Department positions. We know who's going to go. They 
will be ready to go. The problem is, the State Department 
doesn't have agronomists and engineers and city planners. No 
foreign service in the world has those people. And so, we have 
to find that talent elsewhere. We don't have much of that 
talent, frankly, in the U.S. Government as a whole, although 
the President has asked other departments, including domestic 
agencies, to make people available.
    What we need is the ability to mobilize civilians, from the 
population as a whole, who could take those tasks. Three things 
would be very helpful in being able to do that, and they are 
submitted in various parts of the budget.
    One is that we need the ability to reimburse domestic 
agencies if they send people out to places like Baghdad and 
Kabul for extended periods of time. We have asked for a fund, 
to be held at the State Department, to be able to reimburse 
those agencies, because that kind of money simply does not 
appear in their budgets.
    Second, it would be helpful to have full funding this time 
for the personnel for the SCRS, the stabilization group that 
reports to me and that works now in places like Lebanon and 
Sudan and Afghanistan and Haiti. We need full funding of that. 
We've also requested money in the peacekeeping account for 
emergency deployment, emergency response, because when 
something happens, as happened in Lebanon, what we have to do 
is to search around, try to reprogram funding, and then try to 
come to you in a supplemental to make up the money that we've 
taken someplace else.
    So, those elements would help a great deal in helping us to 
be able to be responsive to these rebuilding tasks, and we want 
to work with you on the Civilian Response Corps. That would be 
very, very good work to do.
    If I may, I would like to respond also to a question that 
Senator Biden asked in his opening remarks, and it's about how 
we are managing the myriad tasks that we have these days. 
Indeed, it is an international system that is remaking itself 
and has a lot going on. But I'll tell you, Senator, while Iraq 
obviously is a major focus for me, it is not, by any means, my 
only focus. Just a couple of weeks ago, I was at NATO to--in a 
meeting that we called--to talk to our allies about 
contributions to Afghanistan and also to engage, through the 
transatlantic dialog that we have there, the Europeans on the 
matter of Kosovo, because I'm watching, very closely, the 
developments in Kosovo. I've had the opportunity to talk to 
Senator Voinovich about this. But this is an issue that we are 
trying to work from start to finish.
    I also, this morning, spoke with the Ambassador to Lebanon. 
I have a weekly SVTS, weekly teleconference, with my team in 
Lebanon to follow, very closely, events there, because progress 
in Lebanon is very important to us.
    We have been using the talent of the country to help us on 
some of these matters help on us some of these matters. I want 
to thank ambassadors-at-large, so to speak--Ambassador--General 
Ralston, who is working for us on the PKK Iraq-Turkey issue; 
Frank Wisner, who is our envoy for Kosovo; and, of course, 
Andrew Natsios, who is working on Sudan. I met with him a 
couple of days ago, and with the group that is working on 
Sudan.
    So, yes; we're keeping very busy. Oh, and I forgot to 
mention, of course, I'm leaving on Friday, a week from today, 
to go back to the Middle East to try and launch the trilateral 
with Prime Minister Olmert and with President Abbas. So, yes; 
it's a busy schedule, but I have to say I think we see these 
all as extremely important, and I feel quite capable of 
spending a lot of time on a lot of these issues.
    So, thank you very much for the question, but thank you 
also for the vote on John Negroponte, which will certainly give 
us a lot more horsepower on these issues.
    Thank you.
    [The prepared statement of Secretary Rice follows:]

   Prepared Statement of Hon. Condoleezza Rice, Secretary of State, 
                             Washington, DC

    Mr. Chairman, members of the committee, thank you for this 
opportunity to address the committee about the many challenges and 
opportunities of our world today. I look forward to continue working 
with Congress, closely and across party lines, to ensure that America's 
diplomacy, and the courageous individuals who undertake it, have the 
necessary resources to protect our national security, advance our 
democratic ideals, and improve people's lives throughout the world. 
With these duties we also reaffirm our responsibility to the American 
people: To be the best possible stewards of their hard-earned dollars.
    President Bush's FY 2008 International Affairs Budget for the 
Department of State, USAID, and other foreign affairs agencies totals 
$36.2 billion. The President's budget also requests $6 billion in 
supplemental funding for FY 2007 to support urgent requirements that 
are not funded in the annual budget. This supplemental request includes 
$1.18 billion for additional operating costs of the Department of State 
and other agencies. It also includes $4.81 billion to meet urgent new 
foreign assistance needs in Afghanistan, Iraq, and Lebanon, as well as 
peacekeeping and humanitarian assistance in Sudan, Somalia, and other 
countries in need. In addition, the administration is requesting $3.3 
billion in war supplemental funding in FY 2008--$1.37 for foreign 
assistance and $1.93 billion for State Department operations--to 
support emergency requirements in Iraq and Afghanistan.
    This money is a fundamental investment in our national security. 
More than 5 years after the September 11 attacks, America remains 
engaged in a global war on terrorism, but it is a war of a totally new 
and different kind. We face a long confrontation, in which military 
strength is important to our success, but is not sufficient. The 
defining feature of our world today is its interdependence. The 
security of the American people depends on the stability and the 
success of foreign societies. If governments cannot, or choose not, to 
meet their responsibilities as sovereign states, then every country in 
the world is threatened. The President believes that, in today's world, 
the defense of our country depends on the close integration of our 
multilateral diplomacy, our development efforts, and our support for 
human rights and democratic institutions. That is why President Bush, 
in his budget, designates the State Department as a national security 
agency.
    We must recognize that our Foreign Service, our Civil Service, and 
our Foreign Service Nationals are performing a vital national security 
role--often in difficult and dangerous posts, far away from their 
friends and families, and in many cases, shoulder to shoulder with our 
men and women in uniform. We are asking our civilians to do far more 
than just manage an existing international order; we are charging them 
with helping foreign citizens and their governments to transform their 
countries--to move them toward peace, freedom, prosperity, and social 
justice.
    This is the national security mission of our State Department 
today, which we have referred to as transformational diplomacy. To 
succeed in this critical work for the American people, we are making 
important changes to our Department's organization--both in terms of 
the roles our people are playing and how we are revolutionizing our 
approach to foreign assistance. This is the foundation of our budget, 
and I would like to briefly review these important changes.
                   transforming the state department
    Faced with new challenges to our country, President Bush has 
initiated major reforms to bring our institutions of national security 
into the 21st century. Now it is the State Department's turn. With the 
support of Congress, we are moving our people off the front lines of 
the last century, in the capitals of Europe and here in Washington, and 
into the critical posts of this new century--in Asia and Africa and the 
Middle East, and here in the Americas. Last year, we reprogrammed 200 
positions for this purpose; we are set to reposition 80 more. At the 
same time, we are moving more of our people out of our embassies and 
into the field, so they can engage and work not only with governments 
but with the people of the nations in which they serve. We are making 
every necessary change--giving our diplomatic corps better training, 
better tools and technology, and more language skills--to empower them 
to meet this challenge.
    We realize that resources are tight, so in all that we do, we seek 
to be good stewards of the taxpayers' money. That is why, last year, I 
created the position of Director of United States Foreign Assistance, 
which Randy Tobias now occupies. He serves concurrently as the 
Administrator of the United States Agency for International 
Development, and in these dual roles, helps to bring unified leadership 
to our foreign assistance resources. Our goal for this budget was 
unprecedented: The strategic alignment of our foreign assistance with 
our foreign policy goals.
    The budget that you have in front of you represents the first joint 
effort of the State Department and USAID, working together, to align 
resources strategically in order to accomplish key national security 
and development goals with maximum efficiency and fiscal 
responsibility. To that end, we allocated our resources on the basis of 
shared goals, established common definitions for our foreign assistance 
programs, and common indicators to evaluate their performance. Six 
strategic principles guided our efforts:

  <bullet> To integrate our planning based on the totality of our 
        government's resources, so we can make the smartest investments 
        possible, without duplicative efforts or wasteful spending;
  <bullet> To assess where each country stands in its course of 
        development, so we can tailor our assistance to the unique 
        demands of each individual country and support its own efforts 
        to combat poverty;
  <bullet> To invest in states critical to regional stability and 
        prosperity, which are often those key to the global war on 
        terror;
  <bullet> To focus our assistance on the most critical impediments to, 
        and catalysts for, long-term country progress;
  <bullet> To empower our ambassadors and missions directors to oversee 
        the complete range of foreign assistance programs in the 
        countries in which they work;
  <bullet> And finally, to align our account structure with the country 
        conditions and goals that they are designed to address.

    The main idea that I want to stress is this: Our new approach to 
foreign assistance ensures an efficient, effective, and strategic use 
of the American taxpayer's money. The adjustments you may see in one 
program are justified by what we have determined is an even greater 
need elsewhere, and for the first time, we are starting to measure the 
tradeoffs in order to make the best use of our limited resources. With 
the performance and accountability measures we are putting in place, we 
will better ensure that we are providing both the necessary tools and 
the right incentives for host governments to secure the conditions 
necessary for their citizens to reach their full human potential. This 
furthers our goal of helping developing nations to ``graduate'' from 
our assistance, not to grow dependent on it.
                         empowering our people
    We are moving ahead on these actions with our existing authority. 
They are steps that need to be taken, and we are taking them. But we 
must do more, and to do it, we need more resources. We need the 
continued, indeed the increased, support of the Congress. That is why 
we are requesting $7.2 billion for State Department administration.
    As we transform our existing positions to serve new purposes, we 
must also create new positions that advance our strategic objective of 
getting more Americans onto the diplomatic front lines of the 21st 
century. This year, we are requesting $125 million to create 254 new 
positions in critical spots like India, China, Indonesia, Venezuela, 
Nigeria, South Africa, and Lebanon. This funding will also enable us to 
establish new American Presence Posts, reflecting our goal of moving 
more of our diplomats into the regions and provinces of our host 
countries. In addition, we request 57 positions and $23 million for the 
Office of the Coordinator for Reconstruction and Stabilization and our 
Active Response Corps. This will strengthen our ability to develop a 
deployable cadre of civilian staff able to respond quickly to crises 
and stabilization missions overseas.
    Our Department's new and evolving mission, which is vital to our 
national security, requires an increased investment in our people. They 
need the latest technology and the best training, both leadership and 
language skills. This budget meets those demands, including $905 
million for information technology. We must also continue to improve 
our security in a dangerous world. This budget allocates $965 million 
to strengthen overall security for our posts, our people, and our 
information systems worldwide, including through the creation of 52 
additional positions for security professionals.
    At the same time, we must continue to modernize and improve our 
buildings across the world. We seek $1.6 billion to address the major 
physical security and rehabilitation needs of our embassies and 
consulates worldwide so we can protect the men and women serving in our 
posts. In the fourth year of Capital Security Cost Sharing, other U.S. 
Government agencies with personnel abroad will contribute $362 million 
for the construction of new, secure diplomatic facilities.
    To continue filling the ranks of the Foreign Service with our 
Nation's best talent, we will continue our efforts to revamp the pay 
scale for our diplomatic corps. State Department personnel are 
increasingly expected to serve in what we call ``hardship posts,'' 
which now comprise nearly 20 percent of all Department positions. We 
must fairly compensate our men and women serving abroad in difficult 
locations, often far away from their families, and we must rectify a 
growing disparity between basic salary levels for employees in the 
United States and overseas. Our budget request includes $35 million to 
begin transition to a performance-based pay system and a global rate of 
pay.
    The State Department mission also extends to defending our borders 
and protecting our homeland. We must strive to remain a welcoming 
nation for tourists, students, and businesspeople, while at the same 
time increasing our security against terrorists and criminals who would 
exploit our open society to do us harm. For this purpose, our budget 
includes $1.3 billion for the Border Security Program, and we seek to 
add 122 consular positions to address rising passport and visa demands. 
As good stewards of taxpayer dollars, we are using revenues from visa, 
passport surcharge, and visa fraud fees to fund improvements in our 
border security. In coordination with the Department of Homeland 
Security, we seek to fulfill the President's vision of secure borders 
and open doors.
    Finally, we are requesting $1.35 billion to meet our commitments to 
international organizations such as the United Nations. Over the past 
year, in particular, we have seen how important it is for the United 
States to provide principled leadership in institutions of multilateral 
diplomacy. Through the United Nations, we helped to negotiate a key 
resolution that ended a month of war in Lebanon and Israel, which was 
launched by the leaders of Hezbollah. We rallied the international 
community to oppose Iran and North Korea's nuclear weapons ambitions 
with tough chapter 7 Security Council resolutions. And we worked to 
ease the suffering of the people of Darfur. International organizations 
are essential to our Nation's key foreign policy goals, and we must 
continue to support them.
                  securing peace, supporting democracy
    I have discussed the steps we are taking to support our people. Let 
me turn now to the purposes of our foreign assistance.
    Our highest priority is to defend the American people and homeland 
by doing our part in the global war on terrorism. To succeed, we need 
the continued support of key partners--our historic allies in places 
like Europe, Asia, and the Americas, but also key developing countries, 
many of which have the will to fight terrorism but need help with the 
means. The FY 2008 request includes, among others, $186 million for 
Indonesia, $2.4 billion for Israel, $540 million for Kenya, and $513 
million for Jordan. Our assistance helps those countries, and many 
others, to enforce their laws, secure their borders, gather and share 
intelligence, and take action against terrorists on their own or with 
us. This request also devotes $90 million to Pakistan, supporting 
President Musharraf's 5-year development plan to lead the country in a 
moderate and modern direction, to gain control of the border areas, and 
to advance prosperity there.
    Across the Broader Middle East, we also look to new partners in 
embattled young democracies, who are working courageously to turn the 
tide against violent extremism in their countries. In the past several 
years, the efforts of reformers and responsible leaders have changed 
the strategic context of the region. Through programs like the Middle 
East Partnership Initiative, we have offered critical support for civil 
society groups seeking political openness, economic opportunity, 
education reform, and the empowerment of women. We will continue to 
support these important reform initiatives.
    Democratic institutions now offer new hope for positive change in 
places like Iraq, Afghanistan, Lebanon, and the Palestinian 
territories. Yet these structures remain weak and fragile. And in many 
cases, they are under siege from violent extremists and their state 
supporters in the region. The Taliban in Afghanistan, Hamas in the 
Palestinian territories, Hezbollah in Lebanon, violent extremists in 
Iraq--both Sunni and Shia--all of these groups struck damaging blows 
last year to the cause of peace and freedom in the Broader Middle East. 
This year we must turn the tide, and we aim to do just that with a 
comprehensive strategy to help reformers and responsible leaders show 
their people that democracy can deliver the security, prosperity, 
opportunity, and dignity that they seek.
    In Afghanistan, we support the efforts of the new democratic 
government in Kabul to lead the nation toward freedom and prosperity. 
To achieve that goal, we have taken a hard look at our overall policy 
and adopted a true counterinsur-
gency strategy--a complete approach that integrates military efforts 
with political support, counternarcotics programs, development 
priorities, and regional diplomacy. If there is to be an ``offensive'' 
this spring, it will be our offensive, and it will be comprehensive.
    Our goal is to help the Afghan Government improve the quality of 
life for its people by extending security, providing good governance, 
and opening up new economic opportunity. Along with these goals, 
President Karzai has demonstrated his determination to lead a serious 
counternarcotics effort, but he needs our assistance. We are increasing 
our funding in this key area, along with additional funding for 
reconstruction, local economic development, and law and order. The 
budget request is $698 million in the FY 2007 supplemental and $1.4 
billion for FY 2008 to stimulate economic growth, establish peace and 
security, create jobs, help provide essential education and health 
care, and extend the reach of the democratic state.
    To achieve these broad objectives, we will build roads and 
electricity grids, and support agricultural development. Working 
through Provincial Reconstruction Teams, or PRTs, and in concert with 
the Afghan Government, we will build government and justice centers at 
the provincial level. We will train government personnel, and we will 
help meet local needs for markets, schools, clinics, and other vital 
services. Most importantly, we will integrate all of these efforts to 
advance our overall strategic objective of empowering Afghanistan's 
democratic government.
    In Iraq, President Bush adopted a new strategy, in recognition that 
the situation was unacceptable. There is a military component to that 
strategy, but success in Iraq depends on more than military efforts 
alone; it also requires robust political, economic, and diplomatic 
progress. Our military operations must be fully integrated with our 
civilian and diplomatic efforts, across the entire U.S. Government, to 
advance the strategy of ``clear, hold, and build.'' The State 
Department is prepared to play its role in this mission. We are ready 
to strengthen, indeed to ``surge,'' our civilian efforts. To do so, we 
are requesting $2.3 billion in the FY 2007 supplemental and $1.4 
billion in FY 2008 to fund our assistance efforts in Iraq.
    The main focus of our support will continue to shift toward helping 
the Iraqi Government expand its reach, its relevance, and its resources 
beyond the International Zone. We will help local leaders improve their 
capacity to govern and deliver public services. Our economic efforts 
will be targeted on local needs with proven strategies of success, like 
microcredit programs. And we will engage with leading private sector 
enterprises and other local businesses, including the more promising 
state-owned firms, to break the obstacles to growth.
    We must continue to get civilians and diplomats out of our Embassy, 
out of the capital, and into the field, all across the country. The 
mechanism to do this is the Provincial Reconstruction Team, or PRT. We 
currently have 10 PRTs deployed across Iraq, 7 American and 3 
coalition. Building on this existing presence, we plan to expand from 
10 to 20 teams. For example, we will have seven PRTs in Baghdad, not 
just one. We will go from one team in Anbar province to four with PRTs 
in Fallujah, Ramadi, and Al Qaim. These PRTs will closely share 
responsibilities and reflect an unprecedented unity of civilian and 
military effort.
    Expanding our PRT presence will also enable us to diversify our 
assistance across Iraq. Iraq has a federal government. Much of the 
street-level authority, and much of the opportunity for positive change 
in Iraq, lies outside Baghdad, in local and provincial governments, 
with party leaders and tribal chiefs. By actively supporting these 
provincial groups and structures, we diversify our chances of success 
in Iraq. Our PRTs have had success working at the local level in towns 
like Mosul, Tikrit, and Tal Afar. Now we will invest in other parts of 
Iraq, like Anbar province, where local leaders are showing their desire 
and building their capacity to confront violent extremists and build 
new sources of hope for their people.
    The importance of these joint teams in Afghanistan and Iraq is 
clear, as is the need to increase our capacity to deploy civilians. The 
President has called on us to work together to develop a ``civilian 
reserve'' to provide the government with outside experts to augment our 
government teams. I look forward to working with you to address this 
challenge.
    In Lebanon, we are requesting $770 million in the FY 2007 
supplemental for a new comprehensive package to support the Lebanese 
people's aspirations for peace, stability, and economic development. I 
made this pledge last month at the Lebanon Donor's Conference, which 
raised $7.6 billion to support the Lebanese people and the democratic 
government of Prime Minister Siniora. Our new package includes both 
economic and security assistance. And let me add, most importantly: Our 
assistance will support the Lebanese Government's own ambitious reform 
program, which demonstrates its commitment to reducing its debt and 
achieving economic and financial stability. In November 2006, we also 
signed a Trade and Investment Framework Agreement to help support 
Lebanon's development through enhanced bilateral economic ties.
    As we take steps forward in the reconstruction and development 
effort, we must not lose sight of the need to continue to implement 
fully all U.N. Security Council resolutions related to Lebanon, in 
particular Resolution 1701. We commend the Lebanese Government for its 
efforts to deploy the Lebanese Armed Forces to the south of its 
country, and we applaud the international community for its successful 
deployment of the enhanced UNIFIL forces to help Lebanon secure its 
sovereignty. Much more work remains to be done, however, and I look 
forward to the report of the U.N. Secretary General on what further 
steps must be taken to continue implementing Resolution 1701, so that 
we can move forward vigorously.
    In the Palestinian territories, President Abbas's desire to support 
a better life for his people and to make peace with Israel is being 
blocked by the radical leaders of Hamas. One year after this group's 
legitimate election, the international community continues to stand 
together in our insistence that Hamas must meet the conditions set out 
by the Quartet: Recognize Israel, renounce violence, and recognize all 
previous agreements between Israel and the Palestinian Authority. The 
leaders of Hamas now find themselves increasingly isolated and unable 
to govern.
    Our goal with the Palestinians this year, working with Israel and 
responsible Arab governments, is to empower President Abbas--to help 
him reform Fatah, provide security in the Palestinian territories, 
provide essential services to his people, and strengthen the political 
and economic institutions of his state. We are requesting $77 million 
for these objectives. At the same time, we seek to facilitate 
discussions between Prime Minister Olmert and President Abbas to meet 
the conditions of the roadmap and to discuss the possible political 
horizon for our ultimate goal: Two democratic states, Israel and 
Palestine, living side by side in peace and security. This purpose will 
take me to the Middle East next week.
    Our support for freedom and democratic reform is critical to our 
efforts in the war on terrorism, and it remains a central pillar of our 
foreign policy worldwide. President Bush remains fully committed to the 
goal he outlined 2 years ago in his Second Inaugural Address: 
Supporting democratic movements and institutions with the goal of 
ending tyranny in the world.
    The hard work of democracy does not end with one free election; 
that is only the beginning. Lasting democratic reform must also 
encompass an independent media, pluralist political parties, legal 
limits on state authority, and protections for human rights. We are 
funding programs in all of these fields of democratic reform, and 
thanks to our new budget process, we are improving the transparency of 
how our democracy funding is spent. To support democratic transitions, 
the budget provides $460 million for programs that foster independent 
media sources, pluralist political parties, voter education, election 
monitoring, and human rights in nondemocratic countries. We also 
request $988 million to promote good governance and the rule of law in 
countries committed to reform.
    As we work to expand freedom and prosperity, we must champion these 
ideals in our public diplomacy, for which we are requesting funding of 
$359 million. Public diplomacy is a vital component of our national 
security strategy. We seek to reach out to the peoples of the world in 
respect and partnership, to explain our policies, and just as 
importantly, to express the power of our ideals--freedom and equality, 
prosperity and justice. That is how we build new partnerships with 
foreign citizens and counter ideological support for terrorism. Public 
diplomacy is no longer the job of our experts alone; it is the 
responsibility of every member of the State Department family, and we 
are mobilizing the private sector and the American people to help. In 
addition, we seek $668 million for the Broadcasting Board of Governors, 
to support radio, television, and Internet broadcasting worldwide, 
including in countries like North Korea, Iran, and Cuba.
    In turn, we recognize that public diplomacy is and must be a 
conversation, not a monologue, and we are eager to welcome foreign 
citizens here to America. People-to-people exchanges are a vital 
component of our national security strategy. Many exchange participants 
report that they are ``forever changed'' by their direct involvement 
with the American people. Last year, the total number of student and 
exchange visas reached an all-time high of 591,000, and we want to 
expand on this progress, working in partnership whenever and however 
possible with the private sector.
    One audience with whom we are particularly eager to continuing 
building relationships is the Iranian people. The President has called 
for expanded people-to-people exchanges with Iran, and our Bureau of 
Educational and Cultural Affairs is assisting in setting up a broad 
range of exchange programs with the Iranian people. The State 
Department is now supporting academic and professional exchange 
programs for Iranians for the first time since 1979. Last year, we 
welcomed to America groups of Iranian teachers, doctors, and wrestlers. 
These visits, like all of our exchanges, help to further understanding 
and foster goodwill among foreign and domestic audiences alike. We are 
eager to do much more this year. So we are requesting $486 million for 
educational and cultural exchanges.
                       meeting global challenges
    Combating violent extremism and supporting democracy are examples 
of the new challenges that we face in today's world: They are global. 
They are transnational. They cannot be resolved by any one nation 
acting alone; they are global responsibilities, requiring global 
partnerships.
    Another such challenge is the proliferation of weapons of mass 
destruction and the materials to produce them. The FY 2008 budget 
supports our key multilateral counterproliferation activities--
including the Proliferation Security Initiative, the G-8 Global 
Partnership, the Global Initiative to Combat Nuclear Terror, and U.N. 
Security Council Resolution 1540. The budget also supports our efforts 
to strengthen the global nonproliferation regime, by rallying the 
international community to hold accountable all who violate their 
responsibilities--governments like that of Iran and North Korea, both 
of which are now under chapter 7 U.N. Security Council sanctions. At 
the same time, we continue to keep open a path to a diplomatic 
solution. With regard to North Korea, the six-party talks will 
reconvene this week. With Iran, if the leaders in Tehran fulfill their 
international obligation to suspend their enrichment and reprocessing 
activities, I have offered to reverse 28 years of U.S. foreign policy 
and meet with my Iranian counterpart anytime, anywhere.
    We are also committed to confronting, as the President said in his 
State of the Union Address, ``the serious challenge of global climate 
change.'' Our approach is rooted both in pragmatism and partnership. 
One of our main initiatives is the Asia-Pacific Partnership on Clean 
Development and Climate, which we launched in concert with Australia, 
South Korea, Japan, India, and China. Together, our countries represent 
more than half of the world's economy, much of the world's emissions, 
and a growing demand for energy that is vital to our economic 
development. The partnership is accelerating investment and opening 
markets for cleaner, more efficient technologies, goods, and services, 
while fostering sustainable economic growth and poverty reduction.
    The FY 2008 budget sustains our effort to combat the illicit 
narcotics trade, particularly in Afghanistan and here in our own 
hemisphere. The Andean Counterdrug Initiative remains a key priority, 
as does our strategic partnership with Colombia. We have had tremendous 
success in helping President Uribe to expand the reach of Colombia's 
democratic state and to confront the country's drug traffickers and 
terrorists. President Uribe has now unveiled his government's strategy 
to build on the achievements thus far, while adjusting to Colombia's 
new realities. This is a crucial time, and we need to help Colombia 
finish the job. At the same time, this budget recognizes key 
opportunities to nationalize eradication efforts, working in 
partnership with Colombia, Bolivia, and Peru.
    Another global challenge is posed by pandemic disease. The FY 2008 
budget request and FY 2007 supplemental supports our global strategy 
and partnership to rapidly address avian influenza outbreaks and 
support prevention strategies worldwide. The FY 2008 budget also 
advances the goals of the President's historic Emergency Plan for AIDS 
Relief. Thanks to the overwhelming support that this program has 
received from Congress, the Emergency Plan has now supported treatment 
for more than 822,000 people in the 15 countries that are home to over 
half of the world's infected population. This year we are requesting a 
total of $5.4 billion for the Emergency Plan, including funds requested 
by the Department of Health and Human Services. This includes $4.2 
billion for prevention, treatment, and care in the 15 focus countries. 
We are also seeking an additional $1.2 billion for bilateral programs 
in other countries: HIV/AIDS research, multilateral programs worldwide, 
and funding for tuberculosis programs.
    No less historic than the Emergency Plan is the President's Malaria 
Initiative, which has supported prevention and treatment for millions 
of people in Angola, Tanzania, and Uganda. Last year, President Bush 
added a total of 12 other sub-Saharan African countries. The FY 2008 
budget dedicates $388 million to fund our commitments under this 
initiative, as well as funding for other ongoing global efforts to 
fight malaria.
    helping developing countries and the most vulnerable populations
    Global partnerships are essential to meeting the global challenges 
that I have just described. But many weak and poorly governed states do 
not have the capacity to fulfill their responsibilities as sovereign 
states--their responsibilities both to the international community and 
to their own people. Our experience on September 11 showed us that, in 
today's world, weak and poorly governed states can pose not just 
humanitarian challenges, but national security threats. Hopelessness 
and oppression contribute to extremism and instability. Thus, helping 
developing states to transform themselves--to govern justly, to advance 
economic freedom, to combat poverty, and to invest in their people--is 
now a strategic imperative.
    This has sparked a revolution in how we think about our foreign 
assistance, which we now view as one of our primary tools for helping 
countries to transform themselves. As a result, President Bush has made 
giant strides to increase our levels of foreign assistance. Since the 
administration took office, we have doubled our assistance to countries 
in the Western Hemisphere. We have tripled our assistance to Africa, 
and if our FY 2008 request for assistance to Africa is enacted, we will 
nearly quadruple it.
    With new money we have also taken new steps to use that money more 
effectively. We created the Office of the Director of Foreign 
Assistance to align our foreign assistance programs and our foreign 
policy goals. We are now approaching foreign assistance with the goal 
of helping to build and sustain democratic, well-governed states that 
respond to the needs of their people, reduce widespread poverty, and 
conduct themselves responsibly in the international system. A new 
Strategic Framework for United States Foreign Assistance ensures that 
resources are targeted to that shared goal. To allocate our assistance 
most effectively, we have grouped every country to which we provide 
assistance by means of its internal characteristics. We have identified 
five main country categories:

  <bullet> Restricted states are those countries with significant 
        freedom and human rights issues, for which our assistance is 
        geared to promote democratic reform and support for civil 
        society.
  <bullet> Rebuilding states are countries in or emerging from 
        conflict, in which establishing security and the foundations 
        for effective governance and economic growth are the highest 
        priorities.
  <bullet> Developing states are low or lower middle-income countries, 
        in which poverty, governance, and investment in people are the 
        greatest barriers to progress.
  <bullet> Transforming states are low or lower middle income, 
        relatively stable and well governed, but for which poverty, 
        disease, and human development remain impediments to progress.
  <bullet> Sustaining partnership states are countries with upper 
        middle levels of income or greater, for which our support is 
        strategically targeted to sustain peace, prosperity, and 
        partnership.

    If a country's characteristics describe its overall demand for 
assistance, we now think of our foreign assistance in terms of supply--
the programs and resources we can supply to help countries advance 
along the path of their own development. In order to allocate our 
resources more strategically, we identified five broad purposes for our 
foreign aid programs.
    First is humanitarian assistance. The United States is a 
compassionate nation, and we will always be moved to action when 
tragedy strikes, and when innocent people are in desperate need. The FY 
2008 budget provides more than $2 billion for the protection of 
refugees and for basic needs like food, water, and medicine for 
vulnerable populations. One of the major recipients is Sudan, for which 
we are requesting a total of $359 million for humanitarian assistance, 
excluding funding for Sudanese refugees in neighboring countries. This 
year we are continuing our support for victims of war and genocide, 
especially the internally displaced people in Darfur and the refugees 
in eastern Chad.
    The second purpose of our foreign assistance is to promote peace 
and security. In addition to humanitarian assistance, this is the other 
major form of support that we are providing in Sudan, because it is a 
major need right now. The same is true in other countries that are 
struggling to emerge from the shadow of conflict: Democratic Republic 
of the Congo, Liberia, Somalia; Haiti, Colombia, and Lebanon. In some 
of these countries, and in many others, U.N. peacekeeping missions are 
playing a vital role, so for FY 2008, $1.1 billion of our peace and 
security assistance will support America's share of the costs of those 
deployments.
    A third purpose is governing justly and democratically. For FY 
2008, we are requesting a significant increase over last year's funding 
level. These resources will go to support programs, in every region of 
the world, to strengthen the rule of law, fight corruption, monitor 
elections, and other such demands. One region in which we are 
increasing our support for governing justly and democratically is here 
in our own hemisphere. The democracies of Latin America are now more 
capable of providing social services to their citizens on their own. As 
a result, we are reducing our direct provision of services and using 
our limited resources to strengthen the institutional capacity of Latin 
American democracies to deliver the benefits of development to their 
people.
    Fourth is investing in people. Human capacity must be strengthened 
and poverty and disease addressed in order to promote and sustain 
development success. Our request for resources to combat disease and 
mitigate its impacts on vulnerable populations, to improve access to 
quality education, and to provide social services and protection to 
vulnerable populations represents a 40-percent increase over FY 2006 
enacted levels. The President's Emergency Plan for AIDS Relief and 
Malaria Initiative are core components of this increase, as these 
diseases claim over 5 million lives annually in the developing world; 
and dramatically impact a country's workforce and development 
trajectory. Poor nations cannot hope to devote necessary resources to 
address the magnitude of these diseases, and development progress is, 
therefore, severely handicapped. Basic education is also necessary for 
progress and establishing a foundation for prosperity. The FY 2008 
request for resources to support basic education programs is $535 
million, the largest request this administration has ever made.
    The final goal of our foreign assistance is alleviating poverty 
through economic growth. On this front, our flagship initiative is the 
Millennium Challenge Corporation, or MCC. Since 2004, the MCC has 
signed development compacts with 11 countries worth a total of $3 
billion. MCC works with transforming countries that meet objective 
standards of progress for governing justly, advancing economic liberty, 
and investing in their people. This money is given in the form of 
grants, not loans, and the compacts are designed and managed by 
recipient countries themselves, reinforcing their ownership of their 
fight against poverty. These resources complement and amplify the 
impact of our investments in other foreign assistance accounts and 
provide a clear trajectory and incentive for countries to continue 
institutional improvement.
    Ultimately, there are limits to what development assistance can 
achieve. For a country to unlock the potential of its people to 
increase economic productivity, create jobs, and combat poverty, it 
must integrate its economy into regional and global networks of free 
trade. The President remains committed to achieving a successful 
outcome to the World Trade Organization's Doha Development Agenda--one 
that opens markets, creates new trade, and strengthens the rules-based 
system. As a part of the President's robust trade agenda, we have 
negotiated 10 free trade agreements (FTAs) with 15 countries worldwide, 
and Congress has already approved agreements with 12 of these 
countries. Most recently, we signed FTAs with Colombia and Peru, and we 
completed negotiations with Panama. We look to Congress to support 
these important agreements.
    Mr. Chairman, members of the committee, the State Department has 
assumed substantial new responsibilities as a national security agency 
in the war on terrorism. We are the lead agency on many of the tasks in 
the administration's National Counterterrorism Strategy. Using our 
existing authority, we are taking dramatic steps to make our foreign 
assistance more effective and to enhance our ability to serve as 
responsible stewards of the American taxpayers' money.
    Our role in advancing peace and security is growing. We need 
increased funding to push this agenda forward, but in recent years 
Congress has significantly reduced the administration's requests for 
International Affairs. Without greater support for our request, we will 
fall short of our goal of protecting America and advancing our vision 
of a better world.
    In this challenging time, the men and women of American diplomacy 
are doing all that we are asking of them--and much more. They are nobly 
answering the call to service and shouldering their national security 
mission. I ask you to provide the resources we need to play our part.

    The Chairman. Thank you, Madam Secretary.
    We'll do 7-minute rounds, if that's OK with my colleagues. 
And there is a vote at, I'm told, at 11:30, or thereabouts.
    I will try to be succinct, and, to the extent you can be as 
precise, would be helpful, in terms of getting through the--our 
short rounds here, if I may, Madam Secretary.
    One thing I'd like to state at the outset, this Civilian 
Response Corps that we've been talking about--I want to make it 
clear that we're not talking, nor are you talking about, a 
military Civilian Response Corps. We're talking about 
nonmilitary expertise to be able to be brought to bear in these 
crises circumstances.
    I give credit to my colleague, the chairman, who has pushed 
this. I've joined him. I think it's very important, and--but I 
want to make it clear, because sometimes when we raise that, 
the press confuses that, understandably, and others do, with 
Blackwater and other contracts for military.
    At a later date, Madam Secretary, I would like very much to 
talk with you and/or the responsible personnel at State to 
explore the area relating to quasimilitary--paramilitary help. 
When we go to Baghdad, when I go to--throughout Iraq or 
Afghanistan, I have, guarding me, as others do, in addition to 
the young marines, usually, who are flying me in their 
helicopters, or Army personnel, there is a group, hired by the 
State Department, who are designed to protect--there to protect 
civilian personnel and to protect our Ambassadors in various 
places. That has grown significantly in the last 10 years. It 
has mushroomed. I'm not taking issue whether it should have or 
shouldn't have, but it does require us to have, in my view, 
more precise oversight as to whether we should be beefing up 
our permanent diplomatic security force instead of relying so 
heavily on contractors. I happen to think we should be beefing 
it up permanently, as opposed to relying on contractors. But 
that'll be another--that's an area I just would say to the 
Secretary, I, as chairman, am going to ask my subcommittees to 
spend some time going into. I haven't had a chance to speak 
with Senator Nelson, but I hope that he will pursue that 
through his subcommittee.
    Madam Secretary, let me move to Iraq. You indicated, in--
and the President mentioned in his speech last month, signs of 
progress in Iraq that he would look to would be the oil law, 
de-Baathification, provincial elections, and amendments to the 
constitution. Can you give us a status report on the oil law, 
if it's finalized, and the progress toward de-Baathification?
    Secretary Rice. Certainly. On the oil law, the Ambassador 
reports that they have done the subcabinet work on this. They 
are looking to submit it to the Cabinet. Zal himself has been 
helping with a few details about the oil law, but we expect 
that they are going to be able to pass an oil law, the draft of 
which, as I understand it, looks like one that will truly show 
that this is going to be a national oil law. I can't give you 
an exact date, but I can tell you that the process is moving 
forward and that they are making last arrangements to try and 
submit it to the Cabinet.
    The Chairman. Well, if you could keep us contemporaneously 
informed--the information I'm getting is, the Kurds have a very 
different view on this than the Sunnis, at this point. And----
    Secretary Rice. I think the Ambassador has been working on 
exactly that issue.
    The Chairman. Let me move to Iran, if I may. If Iran 
suspends enrichment of uranium, if it were to do that tomorrow, 
are we prepared to sit down and discuss all issues that divide 
us, or do we want to limit the discussion just to their nuclear 
program?
    Secretary Rice. Let me repeat that I have said that if they 
suspend, verifiably, as is demanded by the U.N. Security 
Council Resolution, I'm prepared to meet a counterpart at any 
time, anyplace, to talk about all issues.
    The Chairman. Do you support the Saudi Arabian dialog with 
Iran over Lebanon?
    Secretary Rice. We have been supportive of anything that 
would help bring about a conclusion to the crisis in Lebanon on 
the basis of principles that can be accepted by its 
democratically elected government, and that includes respect 
for the need for an international tribunal and respect for the 
legislative outcome from the election.
    The Chairman. But do you support the Saudi's dialog? I 
mean----
    Secretary Rice. Yes.
    The Chairman [continuing]. Is that----
    Secretary Rice. We----
    The Chairman. That's not--they're not being extorted----
    Secretary Rice. As long----
    The Chairman [continuing]. The Saudis.
    Secretary Rice. As long as the Lebanese Government is 
supportive of it, we are certainly supportive of it.
    The Chairman. Do you support the Saudi effort to forge a 
national unity government between Hamas and Fatah?
    Secretary Rice. There have been several regional efforts. 
We've made clear what we believe the international requirements 
are for any Palestinian Government. But I think it's perfectly 
natural for regional states to try and help with the 
Palestinian crisis.
    The Chairman. If they pull together--the Saudis--a unity 
government between Hamas and Fatah, but Hamas still refuses to 
recognize Israel as part of that government, is that a good 
outcome?
    Secretary Rice. Well, I don't want to speak hypothetically, 
but I do want to say that we've been very clear, and we've been 
clear to all parties, that, as Abu Mazen has called it, an 
internationally acceptable government would have to accept the 
quartet principle, and Abu Mazen put forward a political 
program on that basis, some time ago.
    The Chairman. Secretary Gates testified, along with the 
Chairman of the Joint Chiefs, indicating that they--
characterizing it, summarizing it--they thought that the 
civilian side of this effort in Iraq was behind the curve, and 
they needed more help. I recall speaking with you and others 
when the Blair government suggested, a couple of years ago, 
that each of the NATO countries, or the European countries, 
adopt an agency. I went to see the President about that, and 
your successor, Stephen Hadley, if I'm not mistaken. And I was 
told that the Defense Department was not at all interested in 
having any European government, ``adopt an agency,'' meaning 
Britain would take the Department of Education, France would 
take the Department of Energy, or whatever the combination 
would be. Why is that still not a good idea?
    Secretary Rice. Well, we have encouraged other countries to 
be involved in reconstruction and ministry support efforts in 
any way that they can. Part of the problem has been that the 
security situation has made it difficult for some to be 
involved in that way. We do think it's best to have a kind of 
unified ministry plan rather than what, frankly, had a mixed 
result in Afghanistan, where you had a kind of adopt-an-agency 
approach. I will tell you, it had very mixed results. But 
getting technical assistance to these ministries, there are 
international--there are other countries who are involved in 
these ministry assistance teams and can lend help to the 
ministries.
    The Chairman. But, as you know, Madam Secretary, they are 
woefully understaffed with competent bureaucrats in all of 
these ministries. I mean, they're----
    Secretary Rice. You mean the Iraqis.
    The Chairman. The Iraqis. The Iraqis.
    Secretary Rice. It is true that building up the civil 
service in Iraq is a challenge. It's variable. There are some 
ministries in which the civil service is actually pretty good--
--
    The Chairman. Well, your----
    Secretary Rice [continuing]. And there are some----
    The Chairman [continuing]. Your State Department----
    Secretary Rice [continuing]. In which the civil service is 
not----
    The Chairman [continuing]. Your Embassy there gave us--my 
last trip--gave us a bar chart as to the capacity of each of 
them, and there wasn't any--there weren't any of them----
    Secretary Rice. Well, I----
    The Chairman [continuing]. None of them were even close.
    Secretary Rice. None of them are where we would want them 
to be, but, for instance, I think the Ministry of Finance has 
even impressed some of the international financial institutions 
with what they're able to do. So, yes; building up the civil 
service, we have a couple of training academies with the 
Iraqis, rebuilding their national training academies and their 
regional training academies. I might just say, Senator, that, 
while it is true that, for this next surge, we need to recruit 
civilian talent, I really don't want it to be thought that 
civilians are not out there risking their lives----
    The Chairman. Oh, they are.
    Secretary Rice [continuing]. And in----
    The Chairman. They are out there risking their lives.
    Secretary Rice [continuing]. In Provincial Reconstruction 
Teams, going out and--going to some of the most dangerous 
places. So, there is a major civilian effort out there. But for 
this next surge, we do need more civilian talent.
    The Chairman. Well, we really do. I know, from my personal 
experience with a family member, that--in Kosovo--was sent, as 
a member of the Federal Government from the Justice 
Department--how far out there they are, and that was a much 
less dangerous situation. So, no; they're out there.
    At any rate, I--my time is up. Let me yield to Senator 
Lugar.
    Senator Lugar. Madam Secretary, you have established a Task 
Force on Iraq Refugee and Internally Displaced Persons, headed 
by Paula Dobriansky. And so, you are sensitive, I am certain, 
to this issue. But it appears to me that we're going to have to 
try to rethink how many Iraqi refugees our country is prepared 
to accept. I note that we've discovered that the administration 
may be considering bringing 7,000 the United States during this 
coming year.
    Now, approximately 2 million people have already left the 
country and Jordan and Syria and other countries have absorbed 
them, some with great reluctance. But it seems to me that 
whatever may be our quotas currently, under law, for how many 
refugees we accept, we'd better begin trying to think through 
how we're going to have to amend that law. I think we have an 
obligation, and I think you share the view, to those who have 
risked their lives on behalf of our troops and our diplomatic 
personnel in Iraq. They may face death themselves because of 
their affiliation with us and their assistance to our people. 
And the numbers right now are totally inadequate, I believe, to 
accommodate what I believe are going to be a number of 
desperate cases. Do you have any further comment on the refugee 
issue?
    Secretary Rice. Senator, the--thank you very much--the 
reason that I put together the task force was that I really 
think that we need a comprehensive policy look at what we're 
doing. We--I've talked, myself, with some of the involved 
countries here. I'm going to see the U.N. High Commissioner for 
Refugees, because we need a better effort with the United 
Nations, and we really do need to look at people who may be in 
danger because of past association with us. And so, that's why 
I've gone to a task force, is to try to get a comprehensive 
recommendation. And I have asked Paula to have that to me in a 
matter of weeks.
    Senator Lugar. Great. Let me raise another issue. Pakistan 
has, this year, elections in November for a Parliament and for 
the Presidency. I mention that because at the Aspen 
congressional meetings, I've heard recommendations from those 
with the crisis group working in Islamabad that it is very, 
very important that the United States take a position for free 
and fair elections in Pakistan.
    Secretary Rice. Yes.
    Senator Lugar They recommend that we, in fact, begin to 
deal with the military, whom we are supporting very, very 
substantially with millions of dollars on the basis that 
Pakistan will support free and fair elections. I mention this 
because it's clearly unacceptable the amount of difficulty 
being created for our troops and for NATO in Afghanistan by the 
lack of Pakistani resolve with the Taliban. As a matter of 
fact, some in the crisis group believe that the Taliban, a very 
small force in Pakistan now, will have abnormal political 
influence if, in fact, the more democratically elected people 
do not come to the fore.
    Now, I simply put that as a benchmark for thought, because 
clearly in the past we have said it has to be President 
Musharraf. That's the only hope for the side. I would say he's 
not the only hope for the side. And I take this hearing to say 
that publicly. I don't ask you to say it, but I think it is a 
crucial year with regard to the Pakistan-Afghanistan situation, 
even while we are abnormally distracted in Iraq. And I would 
just like some initial comment from you.
    Secretary Rice. Well, thank you, Senator. Actually, more 
than a year ago, when I was in Pakistan, I said, standing there 
with the Foreign Minister, they need to have free and fair 
elections. We believe it, and that's what we will stand for.
    Senator Lugar. Great. Let me just ask this question. The 
New York Times, this morning, said that State Department 
sources are quoted as saying that only junior-level officers 
are signing up for Iraq. What is your view on that situation?
    Secretary Rice. Well, Senator, the numbers are as follows. 
We have 57 generalist Foreign Service officers--that's a sort 
of general Foreign Service category: 16 are entry-level 
officers, 6 are senior Foreign Service, and the remaining 35 
are mid-level. So, I just--it's just not correct. And that, by 
the way, is about the average distribution in other large 
posts. So, we've worked very hard to recruit people who have 
appropriate experience for the jobs that they are taking on. 
Language is our big problem. But, beyond that, we do recruit 
people who have appropriate experience. Yes; there are a lot of 
young Foreign Service officers, entry-level people--not really 
entry-level, but perhaps have done one tour someplace else. 
It's a big Embassy. That's the case in a lot of places. Very 
often, they're very enthusiastic. But if you look at, for 
instance, the PRT leaders, they are overwhelmingly--or the PRTs 
themselves are skewed toward midlevel and senior Foreign 
Service officers. And so, we've been, I think--the Foreign 
Service has been responsive. We have done a couple of things. 
We have made incentives for people to go--I'll just give you an 
example. If you were going to Baghdad, and your family was 
currently in the Middle East someplace, or in Europe, you had 
to move them back to the United States. We've said: Let the 
families stay in a position in Europe or in the Middle East, 
because it's hard for midlevel people to keep moving children 
back and forth. We have done those sorts of things.
    We've also--this year, we were only allowing bidding on 
remaining posts--on other posts after the hardship posts are 
filled. So, we've done some things. But I think the response of 
the Service has been very good.
    Senator Lugar. Thank you for that comment.
    Let me just conclude by saying I appreciate your discussion 
today of the Civilian Reserve Corps. The legislation that 
Senators Biden, Hagel, and I put forward, passed the Senate 
last year. This is a tough thing to do, but our policy advisory 
group members, who included your Department, the Department of 
Defense, and others, indicated that we need a host of civilians 
to work on stabilization and reconstruction. This country has 
people who are professionals out there in America whom we can 
call upon. Now, we've all talked about that, but it just hasn't 
happened. And the need for it to happen swiftly is apparent. 
So, we really look forward to helping you flesh that out. 
You've made some excellent suggestions of things we might do 
and authorizations you need to pursue this capability, and we 
will work with you to make sure you have what you need.
    Secretary Rice. Thank you.
    Senator Lugar. I thank you.
    I thank the Chair.
    The Chairman. Madam Secretary, one point, in clarification, 
because it was raised. I meant to ask it. Initially, as I 
understood it, speaking to State Department personnel on site 
at missions, was that diverting to a hotspot like Iraq, 
volunteering, was not viewed as a plus in the career path. Is 
it clear that those who are willing to do that now get the 
little extra star next to their name that it actually is an 
asset in their career path? And could you explain that, very 
briefly. I apologize for the interruption.
    Secretary Rice. No; I'm glad you asked. Without trying to 
change the promotion system or to do something to really throw 
it completely off track, yes; though, we have made clear that 
we expect service in these unaccompanied posts to be considered 
a plus. And it's not just Baghdad and Kabul, it's also places 
like Islamabad. Yes.
    The Chairman. I think that's very important, and I hope 
your staff knows that clearly.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, once again. Appreciate your 
being with us.
    In your opening statement today, you mentioned that the 
President has designated the State Department as a national 
security agency. What are the legal ramifications of that?
    Secretary Rice. I think it's just a budget categorization 
that OMB controls, Senator, and it's simply to send the message 
that, alongside DOD and Homeland Security, we are playing a 
central role in the fight against terrorism.
    Senator Dodd. So, it shouldn't--we shouldn't read anything 
more into that.
    Secretary Rice. No; it's a signal.
    Senator Dodd. All right, great.
    The other day, at a Senate hearing this week, Secretary 
Gates expressed some concerns about a request from your office 
that military personnel temporarily fill more than one-third of 
the 350 new State Department jobs in Iraq under the President's 
strategy. Secretary Gates told Senators--and I'm quoting here--
he said, ``If you were troubled by the memo, that was mild 
compared to my reaction.'' You may have heard--I'm sure you got 
word back. When I was in Iraq last year, I heard similar 
complaints about military personnel having to assume State 
Department responsibilities. And, again, I'm--I just wonder if 
you could respond to this and respond to Secretary Gates's 
concern about it, maybe put some light on all of this.
    Secretary Rice. Well, I wish the New York Times had quoted 
the rest of his statement, which said that he called me 
personally, and we talked about it, and he recognized why we 
needed this bridging talent. They are not State Department 
positions, they are positions that the State Department took 
the responsibility for organizing a civilian response, but they 
include, for instance, Senators, positions like agronomists and 
engineers and city planners. I don't have those people in the 
Foreign Service. The State Department positions have been 
filled. The State Department is then charged with going out and 
finding civilian personnel to fill the additional positions in 
these rather technical areas. And we are looking within the 
rest of the U.S. Government to see where we can get them. We 
need to be able, if possible, to reimburse domestic agencies 
that might send those people out there. For instance, the 
Department of Justice has had 200 people in Iraq during this 
period of time. So, these are people we would either recruit 
from within the U.S. Government, where we don't think we have 
very many of these people, or we will have to contract to bring 
civilians from the general population; and we need money to do 
that--that money is requested in the supplemental--and we need 
time, because these people will have to be vetted, they will 
have to be cleared. We asked the military, asked the--asked 
General Pace--and this was a conversation we had first at the 
end of November and at the beginning of December--If we went to 
this surge strategy on the civilian side, would DOD be able, on 
a temporary basis, to fill positions in these enhanced PRTs 
while we recruit civilian expertise to come in behind them? 
That has always been the plan. We have been working with DOD at 
the working levels to identify precisely, with the brigade 
commander, what positions are needed, and then to go out and 
let contracts to bring these people. But this would--the need 
for this would be obviated by a Civilian Response Corps----
    Senator Dodd. Yeah.
    Secretary Rice [continuing]. Where you would already have 
people cleared, could call them up, they would have been 
trained, they would be ready to go. But the United States 
doesn't have any such civilian response at this point, and so, 
we have to go out and recruit these people. But I want it very 
clearly understood----
    Senator Dodd. Yeah.
    Secretary Rice [continuing]. These are not positions that 
the State Department cannot fill. We have filled our positions. 
We are never going to be able fill positions for agronomists.
    Secretary Rice. I thank you for the completeness of the 
answer.
    Could you, just quickly, just share with us, as a practical 
matter--I was there in December, and again--these are 
anecdotal, so I'm not suggesting this is necessarily totally 
the case--but the concerns just on safety issues--in other 
words, getting people out of the Green Zone into these areas--
as--at least as it was raised to us, the small group--I was 
with Senator Kerry--they talked about the problems associated 
with that. Do you want to share any thoughts on that?
    Secretary Rice. Oh, yes. I'm very concerned about it. And I 
keep--I try to make certain that our diplomatic security chief 
is always looking at the issue of the safety of our people. One 
thing that we've done with the PRTs is, we are going to a model 
by which, in effect, we embed with brigade command teams, which 
we think is a better way to secure our people than the kind of 
security details of large contracts that we've used in the 
past. We still have to rely on a lot of contract personnel for 
security.
    Senator Dodd. Yeah.
    Secretary Rice. But, yes, Senator; there is a risk here.
    Senator Dodd. Yeah.
    Secretary Rice. And I think--I've tried to be clear with 
people that it--that there are risks.
    Senator Dodd. Let me raise an issue. You and I have talked 
about this in the past, on Syria. And you and I have talked on 
the phone and back and forth on--prior to my trip to the 
region. Secretary Baker testified before the committee the 
other day. When asked about the importance of beginning a 
negotiation or a conversation with Syria, he says, ``We've 
missed the boat on Syria.'' You've heard the line, as well, I 
know, in--in terms of this conversation. ABC did an interview 
recently in which Assad said he was willing to play a role 
here, has the leverage in Iraq to do so, he's already dealing 
with border security and influx of refugees and the like. 
Again, I--as I said to you, I'm not suggesting what Assad says 
in English in the privacy of his palace is--ought to be taken 
as absolute truth in all of this, but I raise the issue again. 
And I realize Lebanon is an issue. And I realize the stability 
of the Siniora government is an issue. And I'm not minimizing 
that. But, given the fact that Syria can play such an important 
role here, would you mind explaining why there is still a 
reluctance to engage Syria, at least on these issues, where 
they've offered to be of help?
    Secretary Rice. I would hope, Senator, that they would, 
first of all, go ahead and play a constructive role.
    Senator Dodd. Are they doing that, in some regards? I 
mean----
    Secretary Rice. Well, I--we don't see it. But I would hope 
that they would play a constructive role. I would hope that the 
work that they've done with the Iraqis to establish diplomatic 
relations would lead them to play a constructive role in Iraq.
    I don't have, Senator, an ideological problem with talking 
to people with whom we don't agree. I have no problem with it. 
But I'd like to believe that it has results and that the 
downsides are not great. And, in this case, because we've been 
down this road with Syria before--and, I think, to little 
effect--I am concerned that, given the circumstances of Syrian 
behavior in Lebanon, which was the proximate cause, by the way, 
of our recalling our Ambassador, that discuss--talking with 
Syria now about Iraq would have downsides for us, in terms of 
Lebanon, in terms of what Syria would be looking for, in terms 
of how it would be perceived.
    But I want to be very clear, I don't have a problem talking 
to people that we don't agree with.
    Senator Dodd. Well, I hear you on that. I--again, I just 
politely disagree with that conclusion, but I appreciate your 
answer. I just hope at some point we don't look back and regret 
that we didn't take advantage of it.
    Let me ask you one quick question, if I can, as well. There 
have been some reports that in 2003 the Iranian Government 
proposed direct talks with the United States, and on the table 
was recognition of the State of Israel. I know you were 
raised--this issue was raised in the last day or so. Would you 
be willing to share--obviously, under closed-door circumstances 
with members of the committee--the cable traffic on this 
issue----
    Secretary Rice. I----
    Senator Dodd [continuing]. That was raised?
    Secretary Rice. I would be happy, in closed-door session, 
to----
    Senator Dodd. I understand.
    Secretary Rice [continuing]. Talk about whatever we have. 
I'll just tell you, Senator, I don't personally remember 
reading this fax that has been talked about.
    Senator Dodd. Yeah.
    Secretary Rice. I can't say categorically that I didn't, 
but I don't remember reading it. I would have to say I think if 
it had offered to recognize Israel--the Iranian Government had 
said, ``We will recognize Israel,'' I would have probably taken 
note of that.
    There were, in 2003, lots of people who said, ``The 
Iranians want to talk to you. You should talk to them. You 
should try to do a grand bargain.'' But this proposal from Iran 
for comprehensive talks, leading, for instance, to the 
recognition of Israel, is just something I don't----
    Senator Dodd. Well, I appreciate that.
    Mr. Chairman, I suggest maybe--under the appropriate 
circumstance--I'd be interested in looking to see to what 
extent that may have been the case.
    The Chairman. I agree, and we will follow up on that.
    Senator Dodd. Thanks.
    Thanks, Madam Secretary.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Secretary Rice, 
welcome.
    We are all encouraged by your continued efforts into the 
Middle East, and you, as was noted, will be leaving, next week, 
to, I think, in your words, try and launch the trilateral with 
the Palestinians and the Israelis. And there's no one here on 
this panel, as you know, who believes that this is not a worthy 
and critical focus for you. And I would, once again, say--and 
we've had this discussion--that what's particularly important 
here is followup and follow-through. And I don't believe we've 
had that the last 6 years. And I don't assign all that 
responsibility onto you or the President of the United States. 
But if there is not follow-through--and I don't know if that 
would mean the President and you decide to appoint a special 
envoy or something that continues to bolt this together so that 
we don't lose momentum--we've--not only have we lost momentum, 
but there's now a vacuum of leadership, of very dangerous 
leadership that's spread throughout the Middle East. You all 
know this. And you know it better than most.
    So, I, again, applaud your efforts. They are important. 
With Negroponte over there, that should give you a little more 
flexibility to have his experience in management and knowledge 
with you on this, as well. But I think we have to stay very, 
very focused on this. And, again, the follow-through is going 
to be critical.
    I want to go back to a question that Senator Lugar asked 
you about this dangerous displacement issue, this disastrous 
refugee problem that is occurring now and could really be of 
immense proportions. And you noted that--and I think the 
figures, at least that I've seen from intelligence reports and 
others, that there's general agreement that around 2 million 
Iraqis have left that country, a third of the doctors, at 
least, have left that country. And we could go through an 
entire agenda--inventory of demographics on this. But we also 
have to factor in, as you do, that the realities of the 
security issue in Baghdad and other areas, which we now know 
that ethnic cleansing is occurring.
    Now, I want to get to a point that you made. And your 
comment was that you've talked to involved countries in the 
area. As we know, Iraq shares two major borders with two 
countries--Iran and Syria--as well as other countries. My 
question--the first question is, Have you included in those 
conversations, whether second- or third-party conversations, 
Iran and Syria? Because I don't know how we could come up with 
any kind of a plan or focus, working with the United Nations or 
anyone else, if Iran and Syria are not included in that. So, 
that's my first question.
    Secretary Rice. Senator, the pressure is really Syria and 
Jordan, at this point. And I have authorized the United States 
charge in Syria to discuss this with the Syrians. We obviously 
discuss it with the Jordanians.
    Senator Hagel. So, we are talking to the Syrians.
    Secretary Rice. I have authorized our charge to talk with 
the Syrians. We have a charge there who does have discussions 
with the Syrians about a variety of things. But I have 
authorized him explicitly to talk to the Syrians about the 
issue of refugees.
    Senator Hagel. I would assume----
    Secretary Rice. And, of course, Jordan is--Jordan, we have 
very close contacts with. And the big problems really are 
Jordan and Syria, not Iran, at this point.
    Senator Hagel. Well, I would assume, then, that's 
considered an issue of common interest for both Syria and Iraq 
and the United States, that we're--that we--you can define it 
any way you want, but I--my definition of that is that we're 
working together on something.
    Secretary Rice. I think it's an issue that is a 
humanitarian issue. It's one that we're very concerned about. 
And we've never ruled out--I've said, many times, we have 
diplomatic relations with Syria. And so, when it is--when we 
have something that we wish to talk about, we have a charge who 
is there. And I thought this was a--something that was, to me, 
quite obvious, that he ought to, in fact, go in and talk to the 
Syrians about it.
    Senator Hagel. Thank you. You, of course, have read the 
National Intelligence Estimate, and, obviously, the classified 
as well as the unclassified. I want to read, just briefly, one 
portion of the summary in the NIE. One of the conclusions of 
the recent NIE was that--National Intelligence Estimate--that, 
``Iraq has descended into a self-sustaining intersectarian 
struggle between Shias and Sunnis, including a hardening of 
ethnosectarian divisions.'' It goes on to say that the term 
``civil war'' accurately describes key elements of the Iraqi 
conflict, but the violence in Iraq is also more than a civil 
war and includes extensive Shia-on-Shia violence, al-Qaeda and 
Sunni insurgent attacks on coalition forces, and widespread 
criminality is motivating some of this violence. And one of the 
last points it makes is that, ``even if violence is 
diminished''--and I'm quoting, by the way, from the NIE--
``given the current winner-take-all attitude and sectarian 
animosities infecting the political scene, Iraqi leaders will 
be hard-pressed to achieve sustained political 
reconciliation.'' Do you agree with that conclusion of the 
National Intelligence Estimate?
    Secretary Rice. Well, if all of those things happen, then I 
suppose that would be the case. But, of course, there is an 
alternative path, and that alternative path is that the leaders 
of Iraq, as they have said they will do, work together to 
empower their security forces, with our help, to change the 
sectarian picture in Baghdad, to punish those who are fomenting 
this violence, and then to strike important accords on, for 
instance, the national oil law. And that's what we're working 
toward. And I think that's the alternative path. And, as I 
remember, that alternative path is also noted in the NIE.
    Senator Hagel. Well, I would note that this is not an 
``if,'' Madam Secretary. This report has--is saying that this 
is happening. They use--the NIE is using terms like ``has 
descended,'' so on and so on. There's no ``if'' in what I have 
just read you. These are conclusions as to where they think it 
is now.
    Secretary Rice. Senator, as I said, I think that if that 
remains the path, then the outcomes that are there would 
probably obtain. But they also say that there are other things 
that would lead to an alternative outcome.
    Senator Hagel. Do you agree with their summary?
    Secretary Rice. Well, I don't disagree that there is 
sectarian violence in Iraq. I don't disagree that there is a 
particular problem in Baghdad. I don't disagree that the 
government needs to deal with that problem. And I certainly 
don't disagree that they need national reconciliation. But I 
don't think that there is anything foreordained that they 
cannot still achieve those goals, which is why the President's 
plan is to help them control the sectarian violence, which is 
largely being carried out by people who want to foment that 
violence--death squads and--on both sides of the ledger--and 
national reconciliation. I--we've all said it's very tough in 
Iraq. The situation is not acceptable now. If we don't follow 
the plan that we've got to try and reverse the situation in 
Baghdad and to give them a chance for national reconciliation, 
then the outcomes could be quite dire. But there is an 
alternative, which is to pursue the path of controlling the 
violence in Baghdad and creating a--creating space for the 
government to have national reconciliation.
    Senator Hagel. Is there any major portion of the NIE that 
you disagree with?
    The Chairman. Senator, I--would the police please clear the 
woman in the second row who's speaking up here? The committee 
is going to stand in recess until we have restored order.
    Thank you.
    [Recess.]
    The Chairman. Thank you very much. I would appreciate it if 
the audience--I understand the intensity of feelings--but if 
they would not interrupt the testimony of the witnesses, I'd 
appreciate it.
    I'm sorry. Senator, if you've--finish? I mean, if you're--
--
    Senator Hagel. Just one----
    The Chairman [continuing]. You were finishing----
    Senator Hagel. I am finished, and one last--and I am over 
my time, so I apologize, but----
    Secretary Rice. I'm sorry, Senator. But you asked for--you 
asked----
    Senator Hagel. My question was, Madam Secretary, Is there 
any major portion of the NIE that you disagree with?
    Secretary Rice. Senator, I can't sit here and go through my 
head and what I agreed with and what I disagreed with. I don't 
disagree with the general thrust of the analysis, but it's not 
a policy document. And the role of policy is to take 
circumstances and have policies that make those circumstances 
move the best. So, that's----
    Senator Hagel. Well, it is a statement of reality.
    Thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Madam Secretary, thank you for coming today to talk about 
the--this important budget request. There are a lot of things 
in the budget request that please me. I'm glad that the fiscal 
year 2008 budget request includes a 41-percent increase from 
2006. I'm pleased that more money is being requested to help 
bring about an end to the ongoing humanitarian tragedy in Sudan 
and to help deploy a stabilization force for Somalia. There are 
other positive trends, too. I applaud, as I have many times, 
this administration's efforts to combat HIV/AIDS, and I support 
efforts to strengthen security for our diplomatic personnel 
overseas.
    But I can't help but also view this budget in the tragic 
light of the ongoing failed policy in Iraq. Madam Secretary, 
you and I had a brief debate a few weeks ago, when you 
testified in front of this committee on the subject of Iraq. 
You denied that our ongoing operations in Iraq have had a 
negative impact on our efforts to defeat al-Qaeda or on our 
efforts in Afghanistan. But I think if you look at this budget 
request--and the accompanying supplemental or emergency 
request--that they really show how imbalanced and 
disproportionate our Iraq efforts are in the context of our 
broader national security needs.
    Let me just highlight a few areas that show how off balance 
this administration's foreign policy has become. If we use even 
the most conservative numbers provided by the Congressional 
Research Service or the Congressional Budget Office, we are 
spending between $6 and $8 billion per month in Iraq. So, in 1 
month we are spending more in Iraq than on HIV/AIDS programming 
for the entire continent of Africa. We are spending more per 
month in Iraq right now than this administration requested for 
development assistance, $104 billion; economic support funds, 
$3.319 billion; disaster assistance, $297 million; migration 
assistance, $773 million; food aid, $1.2 billion; and 
peacekeeping money, $221 million; and other accounts 
worldwide--worldwide, for all of 2008.
    But the troubling statistics don't stop here. If you do the 
math even further, you can see that we're spending more in Iraq 
per day than we are spending in places like Chad, Niger, Mali, 
or Somalia in an entire year. You can easily find the impact 
that tours in Iraq are having on our military, on our 
diplomats, and on other posts worldwide.
    Madam Secretary, with the massive level of resources being 
devoted to Iraq, do you still maintain that this war is not 
having an impact on our ability to pursue policies and programs 
around the world that will contribute to our national interest? 
And since the hundreds of billions of dollars that have been 
spend in Iraq to date apparently haven't increased stability, 
or brought about a political solution in Iraq, does it really 
make sense, Madam Secretary, to keep pouring those resources 
into a single country instead of using them to wage a truly 
global fight against a global enemy, al-Qaeda, or further 
address other challenges, such as Iran or HIV/AIDS?
    Madam Secretary.
    Secretary Rice. Well, Senator, of course, the war in Iraq 
is, in fact, a war, and we are supporting military operations 
there with our civilian presence and with our aid programs. And 
we believe that an Iraq that is stable and ultimately 
democratic will be a tremendous benefit for our policies in the 
Middle East.
    But let me just say, Senator, I don't think that we would 
put together a budget on the basis of what we're spending in 
Iraq, and where could we spend it elsewhere. Let me just give 
you some examples. We are the largest food-aid donor in the 
world. More than 62 percent of all food aid comes from the 
United States. So, we're not slighting food aid. We are 
spending 14--we have spent, since 2001, $14 billion on 
reconstruction in Afghanistan. And the President is poised to 
spend another $2 billion on reconstruction, and another $8.6 
billion on Afghan security forces. We are launching a major new 
initiative to eradicate 50 percent of the malaria cases in the 
world. And you've already mentioned the substantial money that 
we've spent on HIV/AIDS.
    Foreign assistance under this administration has doubled; 
for Africa, tripled; and quadrupled in certain parts of the 
world. So, yes; we are spending the resources necessary, 
because we believe that Iraq is important to our national 
interests. But I think----
    Senator Feingold. No; I think----
    Secretary Rice [continuing]. I think it would be a mistake 
to think that we are not spending large amounts of money where 
they're----
    Senator Feingold. And I----
    Secretary Rice [continuing]. Needed.
    Senator Feingold. And I have conceded that there are 
significant amounts being spent in those areas. I think you'd 
be the first to admit they're not adequate. And the question is 
the balance. And I would say, with regard to your first 
statement, to sort of somehow distinguish Iraq because it's a 
war--well, so is the fight against al-Qaeda----
    Secretary Rice. Well, and----
    Senator Feingold [continuing]. So is Afghanistan----
    Secretary Rice [continuing]. Afghanistan.
    Senator Feingold [continuing]. And they do not have 
adequate resources, according to many experts, in part, because 
of the enormous drain of the Iraqi war. I mean, that's just, 
sort of, obvious.
    But let me ask you this general question. Given the 
troubling statistics about security and political conditions in 
Iraq--sectarian violence, the number of displaced persons, the 
strength of the insurgency, strength of the militias, the 
attack on coalition forces--are you confident that the funding 
contained in the three requests we've received in the last few 
days would improve any of these critical indicators? And, if 
so, and because the indicators suggest that the conditions in 
Iraq continue to deteriorate, what are we going to do 
differently with this money than was done in the past?
    Secretary Rice. Well, thank you, Senator. I do think that 
the moneys, particularly in the way that we are planning now to 
support the Iraqis as they move to a new phase, that there is a 
considerable difference. If I could do one thing differently, I 
think the decentralization--from the past--the decentralization 
of efforts and the diversification of efforts out of Baghdad 
and into the provinces and into the localities, I think, has 
proven to be a very effective strategy. And so, you will see 
that there is far further diversification and decentralization 
of our efforts. For instance, rather than the rather large-
scale centralized reconstruction projects that characterized 
the IRF over the last couple of years, these are projects that 
are much closer to the people, much closer to local 
governments, intended to help leverage Iraqi resources. They 
have about $10 billion that they have allocated to 
reconstruction, to infrastructure development, to jobs 
development. And I think it's a model that is likely to help us 
have multiple places for----
    Senator Feingold. Thank you----
    Secretary Rice [continuing]. Success.
    Senator Feingold [continuing]. Madam Secretary. In my 
remaining seconds, I wanted to talk a little bit about the 
special inspector general for Iraq. Let me just ask you--how 
many State Department auditors are currently stationed in Iraq?
    Secretary Rice. I'll have to get you the number, but I'm 
supportive of SIGIR continuing.
    Senator Feingold. Yeah, because I'm concerned that there 
aren't----
    Secretary Rice. I----
    Senator Feingold [continuing]. Any State Department----
    Secretary Rice. I met----
    Senator Feingold [continuing]. People. And I'm very pleased 
that you are----
    Secretary Rice. Yeah, met with----
    Senator Feingold [continuing]. Supportive, because I think 
SIGIR----
    Secretary Rice [continuing]. Stuart Bowen 2 days ago. I'm 
very supportive of it.
    Senator Feingold. Thank you, Madam Secretary.
    The Chairman. Thank you.
    Madam Secretary, I would argue that decentralization of 
local Iraqi control is equally as compelling.
    But--Senator----
    Senator Coleman. Thank you, Mr. Chairman.
    Let me just start off with a brief statement/comment about 
Iran before I get on to my question, because there was some 
discussion here as to whether, before this committee, we heard 
some hue and cry for negotiation. I didn't hear that. I heard 
that if we talked to Iran--and, by the way, I think we should 
be having discussion with Iran within the context of others 
within the region. But I think what we heard clearly is--be 
realistic as to your expectations that Iran plays a major role 
in fomenting instability in the region, they're funding 
Hezbollah in Lebanon, and pressuring us there, supplying them 
with weaponry, funding Hamas in the Gaza, that they're funding 
the Shia extreme elements in Iraq, that they are supplying 
high-tech weaponry to the most extreme elements, that are 
killing coalition forces, that there are late--more recent 
reports that they perhaps are supplying not just the Shias, but 
also Sunni elements in Iraq, to, again, foment instability. So, 
I would hope that we would have discussion with the Iranians, 
but first start by telling them that we're not abandoning the 
region, that we're concerned--and we do that with others in the 
region who have an interest, the other neighbors in the region 
who have an interest in stability. And the Iranians have not 
been a constructive element. And so, tell them that we'll work 
with the neighbors to deal with their attempts at supporting 
extremists.
    And the last comment was Dr. Kissinger's comment, who I 
think made it very, very clear that perhaps the worst thing 
that could happen in the Middle East right now would be for 
Iran to get a nuclear weapon. And he was very, very clear about 
the consequences of that.
    So, as we talk about negotiation, let us be realistic as to 
what the expectation of--but I do hope we have discussion. I do 
hope we are discussing things through--either directly, with, 
perhaps, others at the table. But I do think we have to be very 
clear about that.
    Let me turn to North Korea for a second. There have been 
reports that say this six-party talks may be at their final 
stage. If we don't get progress right now, that perhaps they've 
run their course. Would you comment on that? And, if those 
reports are true, is there a plan B?
    Secretary Rice. Well, the six-party talks have reconvened 
in Beijing, just--as we speak. And I think we are cautiously 
optimistic that there may be some movement forward. A lot has 
happened since the last six-party talks. But, most importantly, 
because the coalition that represents the other five came 
together after the missile test and then especially after the 
nuclear test, we have a chapter 7 resolution in place, 1718. We 
have cooperation on making that resolution work. There have 
been some fairly tough measures taken by other parties 
concerning North Korea. And I--we had good talks with each of 
the parties, including talks that Chris Hill held in Berlin 
with the North Koreans. And so, I think there may be--I have--
I'm cautiously optimistic that we may be able to begin again to 
implement the joint statement of 2005 toward the 
denuclearization of the Korean Peninsula.
    Senator Coleman. Is there a plan B, or do we have all our 
eggs in that six-party talks? And, again, if we're still 
hopeful, then----
    Secretary Rice. Yeah.
    Senator Coleman [continuing]. Obviously, we stick with 
that, but----
    Secretary Rice. Well----
    Senator Coleman [continuing]. Are there other options?
    Secretary Rice. I think the way to think about the six-
party talks is, it's not just the talks, but it actually is a 
coalition of states that's managing the North Korean nuclear 
problem. And so, even when there are not talks, you have the 
possibility of getting a 15-0 vote on a chapter 7 resolution. 
You have the possibility of working groups that we are 
conducting with other parties about how to have sensor 
technology at ports of entry to deal with potential 
proliferation of nuclear material out of North Korea.
    So, the--in a sense, when--even when they're not talks, it 
has provided a kind of coalition to manage the problem. And I 
think that's what you would see if the talks are not active. 
But I--I'm, as I said, cautiously optimistic, but I don't count 
my chickens until they hatch.
    Senator Coleman. I appreciate that, in your statement, you 
recognize the importance of the humanitarian assistance, and 
you specifically say Sudan and Somalia. Sudan, we have a 
special envoy, Natsios, and he's doing important work. There 
are many of us concerned about Somalia. It--these are, kind of, 
very dangerous moments right now. Senator Feingold and I have 
introduced some legislation to push the concept of a special 
envoy. We--and we know that you are very, very busy with many 
things, and on top of many things, but the idea of putting the 
special effort into Somalia now is something that some of us 
think would be very critical. Would you comment on that?
    Secretary Rice. I will. Let me say that the Assistant 
Secretary for Africa has spent an awful lot of time recently on 
Somalia.
    Senator Coleman. She's doing an extraordinary job.
    Secretary Rice. And she's been out for a contact group, 
she's been out in Kenya. Our Ambassador in Kenya is, in fact, 
our charge on the ground responsible--we also have, for the 
first time, in AU--a U.S. Ambassador to the AU who's been very 
involved in this area. So, I feel that we have the right level 
attention to Somalia. We've provided humanitarian assistance, 
we're providing back for our peacekeeping force, we're prepared 
to try to get the Ugandans in as the first force. So, I 
understand the desire for a special envoy, but I think we're 
spending the appropriate time on Somalia now to try to deal 
with what could be an opportunity.
    Senator Coleman. I don't have time to delve deeply into the 
issue of U.N. reform. I appreciate, by the way, the efforts of 
Secretary General Ban. I think he's moving forward in the right 
direction, he's saying the right things, he's doing the right 
things--the food program with North Korea, he's put the 
auditors in there. I would hope, though, that we continue to 
push very hard for greater transparency, greater 
accountability. The failures of Oil-for-Food have not been 
corrected, and the concerns are out there. So, I would hope 
that that is still on our agenda.
    Secretary Rice. Absolutely.
    Senator Coleman. And, last comment, you talked about 
language. And it's interesting, it shifts. Russian was 
important when you were a student. Arabic today--when I was in 
Dubai, it was fascinating to--talking to the Embassy folks, 
that Farsi is becoming of greater importance. So, I would hope 
we would continue to put efforts in--I would just remind you 
that there is a wonderful program in Northern Minnesota. It's 
in Concordia Village, up in, I think, the Bemidji area. They're 
doing some great things with Arabic now. So, there are little 
gems around the country, and I do hope that they are part of 
our national effort to deal with this language deficiency that 
we have, which really does hamper our efforts to greater 
understand the challenges and the opportunities in the Middle 
East and other places.
    Secretary Rice. Thank you. I--we'll try to use every asset 
out there, because we do have a--we do have a national deficit.
    If I could just mention, I--we do have good language 
speakers in Baghdad. I don't want to leave that impression. If 
2/2 is the grading for basic proficiency speaking and reading, 
but 3/3 is professional proficiency, we have eight people who 
have--in Baghdad--who have the basic skills; 11 in the PRTs, 
with the basic skills; four with 3/3 or above, which is 
considered professional; and five with 3/3 or--and above. But 
we've had to work awfully hard to get them there, and I still 
need language speakers of Arabic in Beirut and in Cairo and 
around the world. So, thank you for your----
    Senator Coleman. We'll support----
    Secretary Rice [continuing]. Interest in that.
    Senator Coleman [continuing]. Those efforts.
    Secretary Rice. Thank you.
    Senator Coleman. Thank you, Mr. Chairman.
    Senator Lugar [presiding]. Well, thank you very much, 
Senator Coleman. The Chair is absent temporarily. He's asked me 
to recognize Senators in order.
    Senator Kerry would be----
    Senator Kerry. I'm going to let Senator Boxer go, because 
she was----
    Senator Lugar [continuing]. Next in order. Kerry yields to 
Senator Boxer.
    Senator Boxer.
    Senator Boxer. Thank you, Senator Kerry. Thank you, Senator 
Lugar.
    Secretary Rice, it was just 4 weeks ago that you appeared 
before the committee to testify on the President's plan to 
escalate the war in Iraq. And, like then, I want to focus on 
our men and women in the military, those who are paying the 
price for this war.
    Since the President announced his escalation plan, on 
January 10, 101 additional American military men and women have 
lost their lives in Iraq, 583 Americans have been wounded. 
That's just since January 10th. And maybe six--we know for sure 
five--helicopters, U.S. helicopters have been shot down--and 
another 1,648 Iraqis have been killed. In the 4 weeks, we have 
spent another $7.8 billion in Iraq.
    So, colleagues, I think it's important to see, since 
January 10, 101 additional dead.
    So, I would ask unanimous consent to place in the record, 
Mr. Chairman, this article that appeared today in the 
Philadelphia Inquirer, ``Combat Death Toll at a High, Worst 4 
months for U.S. shift to urban fight cited'' It says, ``More 
American troops were killed in combat in Iraq over the last 4 
months than in any comparable stretch since the war began,'' an 
Associated Press analysis shows.
    Senator Lugar. The article will be placed in the record.
    Senator Boxer. Thank you.
    [The information previously referred to follows:]


                      Combat Death Toll at a High

          worst 4 months for u.s.; shift to urban fight cited

                   by Robert Burns, Associated Press

    Washington.--More American troops were killed in combat in Iraq 
over the last four months--at least 334 through Jan. 31--than in any 
comparable stretch since the war began, an Associated Press analysis of 
casualty records shows.
    Not since the bloody battle for Fallujah in 2004 has the death toll 
spiked so high.
    The reason is that U.S. soldiers and Marines are fighting more 
battles in the streets of the Iraqi capital, Baghdad, and other cities. 
The top killer is the roadside bomb, but hostile forces also have had 
more success lately shooting down U.S. helicopters. Pentagon officials 
said initial indications from the crash of a Marine CH-46 helicopter 
yesterday, killing all seven aboard, were that it was caused by 
mechanical trouble, not hostile fire.
    And with President Bush now sending thousands more U.S. troops to 
Baghdad and western Anbar province, the prospect looms of even higher 
casualities.
    The shadowy insurgency has managed to counter or compensate for 
every new U.S. military technique for defeating roadside bombs, which 
over time have proliferated and grown increasingly powerful.
    The United States has spent billions trying to counter that threat, 
and the Bush administration in its 2008 budget request to Congress this 
week asked for an additional $6.4 billion to find more-effective 
defenses against it.
    The increasingly urban nature of the war is reflected in the fact 
that a higher percentage of U.S. deaths lately has been in Baghdad. 
Over the course of the war, through Tuesday, at least 1,142 U.S. troops 
have died in Anbar province, the heart of the Sunni Arab insurgency, 
according to an AP count. That compares with 713 in Baghdad. but since 
Dec. 28, there were more in Baghdad than in Anbar--33 to 31.
    The increase in combat deaths comes as the Pentagon begins adding 
21,500 troops in Iraq as part of Bush's new strategy for stabilizing 
the country. Most are going to Baghdad.
    With the buildup, U.S. forces will be operating more aggressively 
in the capital, a tactical shift that senior military officials say 
raises the prospect of even higher U.S. casualties.
    ``There's clearly going to be an increased rish in this area, '' 
Adm. William Fallon, bushi's choice to be the next commander of U.S. 
forces in the Middle East, told his Senate confirmation hearing last 
week.
    The risk is already extraordinarily high from roadside bombs.
    Here's one frustration: The Americans have improved their ability 
to find and disarm these bombs before they detonate, and they have 
outfitted troops in better body armor.
    But the insurgents still manage to adjust; new tactics in planting 
the bombs; new, more powerful explosives; different means of detonating 
them; and a seemingly endless supply of materials.
    Defense Secretary Robert Gates said Friday that 70 percent of U.S. 
casualties were caused by such bombs. he said that, lately, Iran--
allegedly in league with renegade Shiite groups in southern Iraq--has 
supplied a more lethal version so powerful that it could destroy a U.S. 
Abrams battle tank, which is shielded with heavy armor.
    On Jan. 22, Army National Guard Spec. Brandon L. Stout, 23, of 
Grand Rapids, Mich., was killed in Baghdad by one of those more 
powerful bombs known as an explosively formed projectile.
    Hostile forces also have had more success lately shooting down U.S. 
helicopters, Gen. Peter Pace, chairman of the Joint Chiefs of Staff, 
acknowledged Tuesday. He said four U.S. helicopters in recent weeks 
have been shot down by small-arms fire, including a Black Hawk in which 
all 12 National Guard soldiers aboard were killed.
    There have also been troubling new twists to some other attacks, 
including the sneak attack in Karbala that killed five U.S. soldiers; 
four of them were abducted and executed by unknown gunmen. U.S. 
officials say they are probing whether Iranian agents planned or 
executed that Jan. 20 attack.
    Under a new approach announced Jan. 10 by Bush, U.S. troops willnow 
be paired with Iraqi brigades in each of nine districts across Baghdad, 
rather than operating mainly from large U.S. bases.
    ``Our troops are going to be inserted into the most difficult areas 
imaginable--right into neighborhoods, right in the face of the 
Iraqis,'' said Sen. Carl Levin (D., Mich.), who chairs the Senate Armed 
Services Committee. ``How are we going to avoid the inherent risks that 
are created?''


    Senator Boxer. Our troops are brilliant. They've done 
everything asked of them. But nearly 4 years after the 
President proclaimed ``mission accomplished,'' it's clear our 
military is faced with mission impossible. They are asked to 
police a civil war in which they are targeted by all sides.
    As Secretary Albright told this committee last week, and I 
quote, ``If I were a soldier on patrol in Baghdad, I wouldn't 
know whom to shoot at until I was shot at, which is 
untenable.''
    On Tuesday, Secretary of Defense Robert Gates said, no 
matter the level of troops, ``we cannot succeed in Iraq without 
a political settlement.'' The Iraq Study Group reported that 
the key to a political solution in Iraq is a reinvigorated 
diplomatic effort in the region. In fact, the very first 
recommendation of the ISG was to launch a comprehensive new 
diplomatic offensive. They wanted it to happen in December. 
That day has obviously come and gone. More dead. More wounded. 
No diplomacy. No resolution.
    Secretary Rice, the--Time magazine recently described your 
diplomatic efforts in this way, ``Rice has barely begun to 
address the damage to U.S. credibility wrought by Iraq or 
articulate a diplomatic strategy that might shore up U.S. 
influence and coax others to help contain Iraq's violence 
within its borders.''
    Secretary Kissinger was asked to articulate the 
administration's grand strategy to stabilize Iraq. He said, ``I 
don't know anyplace where the administration has articulated 
this particular strategy.''
    Secretary Rice, what is your diplomatic strategy to end 
this war?
    Secretary Rice. Well, Senator Boxer, first of all, 
diplomacy outside of Iraq is not going to solve their national 
reconciliation problem. The Iraqis----
    Senator Boxer. Excuse me.
    Secretary Rice [continuing]. Through their----
    Senator Boxer. I'm sorry. I don't mean outside Iraq. I 
mean, what is your diplomatic plan to end the war--inside, 
outside? What is----
    Secretary Rice. Well----
    Senator Boxer [continuing]. Your strategy?
    Secretary Rice. Well, I'll go through it.
    First of all, diplomacy outside of Iraq is not going to end 
their problems with national reconciliation. And so, we spend a 
good deal of time--our Ambassador and others, as well as I, 
spend a good deal of time trying to help push the Iraqis toward 
acceptance of the national reconciliation strategy that they 
themselves have outlined: A national reconciliation strategy 
based on a national oil law, de-Baathification, provincial 
elections, and, ultimately, constitution reform. And so, the 
first place that our diplomats spend their time is inside.
    Second, our diplomats spend a lot of time with provincial 
and local leaders, trying to make certain that they, too, are a 
part of the national reconciliation effort.
    Third, we spend a good deal of time with the Sunni states 
with which we have close relations--Saudi Arabia, Jordan, the 
UAE--in getting them to support the reconciliation efforts to 
bring Sunnis into the process. That is bearing some fruit, as, 
for instance, in Anbar province the sheikhs have turned against 
al-Qaeda and begun to train their ``sons of Anbar'' in Jordan 
to come back and fight al-Qaeda.
    Finally, we do have an International Compact, which is a 
kind of bargain between the Iraqis and the international 
community, for support as they meet these national 
reconciliation goals. And that International Compact has met. 
It met first in New York. It will continue to meet.
    I don't rule out, Senator Boxer, that, in addition to the 
work that we're doing with the gulf countries and with the 
Egyptians and the Jordanians, that there might be a broader 
neighbors conference when the Iraqis are ready for it.
    Senator Boxer. I'm sorry, I'm----
    Secretary Rice. So----
    Senator Boxer [continuing]. Running----
    Secretary Rice [continuing]. So, there's a lot of----
    Senator Boxer [continuing]. Out of time.
    Secretary Rice [continuing]. Diplomatic--there's a lot of--
--
    Senator Boxer. I wish I had----
    Secretary Rice [continuing]. Diplomatic activity. You 
asked, and I----
    Senator Boxer. I wish I had more----
    Secretary Rice [continuing]. Wanted to----
    Senator Boxer [continuing]. Time, and I think this is an 
interesting answer. And I'm glad you're open to doing something 
different, because, you know, we--everyone seems to agree that 
there's no military solution, at the end of the day. And you 
are the one who should be bringing these great new ideas to the 
table.
    I want to, in my closing minute, ask you about global 
warming. As a Senate delegate to the United Nations, I went to 
the United Nations on Monday to get briefed on the IPCC report 
on global warming by the IPCC chair, Pachauri. I don't know if 
you know him. He's pretty sharp. And we did a conference call 
from Paris, and he explained how important this report is. 
There's a real need, I believe, for American leadership on 
global warming, and I think the world's a bit perplexed at our 
very slow response to this threat. I'm glad the President 
finally mentioned it for the first time in a State of the Union 
Address, but he didn't have much behind it.
    Now, we do produce 25 percent of the world's greenhouse 
gases, which is a huge amount. We're actually the No. 1 emitter 
of carbon. But I believe it's our Secretary of Energy who said 
we were a very small emitter. I don't know where he gets--how 
he's looking at this glass.
    But as chair of the Senate Environment Committee, I have 
suggested to the President in a letter that he convene a 12-
nation summit at the White House to take the largest emitters, 
the 12 largest emitters--nations--and really lead the way 
toward solutions here, because time is running out.
    This idea actually came to me, and several other Senators, 
through Tony Blair, who had thought it would be an excellent 
way for us to move. Rather than with a huge community of 
nations, with the 12 largest emitters. So, I haven't heard back 
from the President yet. And I want to ask you--because, again, 
this is a place where I think we could really reach out to the 
world--do you believe global warming is an issue that America 
should lead on? And do you have any response to this idea of 
convening a summit in the White House?
    Secretary Rice. Well, Senator, I can't respond to the idea 
of convening a summit. I--I'm sure the President will respond. 
But, yes, I believe that global warming is a problem. And I 
believe climate change is something the United States should be 
actively--we spend $5.8 billion a year on this issue. We were 
the ones who partially funded that report, so we are very 
active. We have partnerships around the world that are trying 
to deal with carbon dependency, like the Asia-Pacific 
partnership that we have, which, by the way, includes India and 
China, soon-to-be major emitters of greenhouse gases. We are 
pursuing, with countries around the world, the ability for safe 
nuclear power that doesn't have proliferation risks associated 
with it. We are pursuing, with Brazil, a major biofuels 
initiative. We lead the world in technologies----
    Senator Boxer. OK. I'm----
    Secretary Rice. So, yes; I agree----
    Senator Boxer. Good.
    Secretary Rice [continuing]. It's a problem, and we ought 
to be very active----
    Senator Boxer. Good, and I----
    Secretary Rice [continuing]. And I think we are.
    Senator Boxer. The reason I raise it--and I will finish 
here--is because I know we're doing some things, but I want--
put it into perspective. There was a study done, showed the 56 
largest emitters of carbon. We're No. 1. We're 53 on what we're 
doing about it. So, even though we're doing something about it, 
it is not on the scale--Senator Kerry and I were just 
discussing this--we need to move forward on this. And, you 
know, it's all tied--it's all tied to everything else we do. If 
we can't extricate ourselves from Iraq, and the billions of--
billions of dollars that are being, in my view, thrown away on 
a strategy that is a military strategy without a political 
solution, we going to short our children and our grandchildren, 
and we're not going to be able to take care of business here at 
home and protect our people from threats such as global 
warming.
    I hope you will discuss, maybe, with the President, this 
letter I sent. And I think it would be someplace where we can 
work together.
    Thank you.
    Senator Lugar. Thank you, Senator Boxer.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I'd like to thank you, Secretary Rice, for 
the job that you're doing. I suspect that, in modern times, 
there's no Secretary of State that's had more on their plate 
than you have had. I've mentioned to you I appreciate your 
continuing to be interested in Southeast Europe, Kosovo, in 
Serbia, and your support of the democratic forces in Serbia. 
But that needs to be continued to--watched, because it could be 
another area where we'll get--we would get pinned down.
    I've always felt that one's success has a lot to do with 
the management team that they have in place. And I'm very 
concerned about this GAO report. In fact, we had a hearing on 
this in the--my Subcommittee on the Oversight of Government 
Management, where it says staffing in foreign language 
shortfalls persist, despite initiatives to address gaps, and it 
talked about the 2002 Diplomatic Readiness Initiative. And 
basically--I'm not going to read all of it--but it says that, 
``The states made progress in addressing staff shortages since 
implementing the DRI; however, the initiative did not fully 
meet its goals and mid-level vacancies remain a problem at many 
posts, including some critical to the war on terror. Mid-level 
positions at many posts are staffed by junior officers who lack 
experience, have minimal guidance, and are not as well equipped 
to handle crises as more seasoned officers.'' And then, it goes 
in and says that, ``We've made some progress in terms of the 
language gaps,'' but there's some real problems there. One of 
them, for example, they said, ``Several factors, including the 
perception that spending too much time in one region may hinder 
officers' and specialists' promotion potential, may discourage 
employees from bidding on positions where they could enhance 
and maintain their language skills over time, and limit states' 
ability to take advantage of those skills and the investment it 
makes in training.''
    When Mr. Zoellick was nominated for the position, I shared 
with you that I was very concerned that he would not--did not 
have the management ability to bring management to the 
Department. You're running around all over the world. You need 
somebody in the Department that's going to spend the time and 
doing the management of the Department. And when John 
Negroponte came in to see me, I asked him what his portfolio 
was going to be. And he didn't mention management.
    Now, one of the things that Secretary Powell did--and Dick 
Armitage--was, they paid attention to management in the State 
Department. And I'd like to know just what role--we've just 
approved John today--John Negroponte. I think that part of his 
job, a good part of it, has to be to get back in the Department 
and make sure that these management challenges are taken care 
of, or you're not going to be able to do all the other things 
that we're asking you to do.
    Secretary Rice. Well, thank you, Senator.
    First of all, I do think John recognizes that he will--
obviously, as Deputy, he'll have a strong management role. 
Frankly, I think I have a management role, as well. I actually 
personally spend time on budget issues, on personnel issues. 
The Transformational Diplomacy Initiative is my initiative, to 
try to speak to some of concerns that are raised. The changes 
that we're making on how we recruit Foreign Service officers, 
how we train them, I think those are all issues that I should 
be involved in, the Deputy should be involved in, and, in fact, 
our Under Secretary for Management, Henrietta Fore, should be 
involved in. But I think you will find that the Department 
spends as much time on management as any Secretary in the past. 
I personally spend a great deal of time on that. I consider it 
extremely important, and I think you'll find that we're making 
some major changes. If we weren't spending time on management, 
we wouldn't be making the changes, for instance, to the way the 
Foreign Service exam is going to be given so that we can 
recruit people who will not wait a full year to take the 
Foreign Service exam.
    Senator Voinovich. But, Madam Secretary, you know, the role 
of the Deputy was open for several months. I'm just saying--
I've been there. I've been a Governor, and I've been a mayor, 
and things come along and take your mind off a lot of things. 
You're--you've got so much on your mind, so much on your plate, 
you're probably putting in 14-16 hours a day. And you've got to 
have somebody that gets up early in the morning and stays late 
at night to work on the management problems that you have in 
the Department. And I know you're saying that you're spending 
the time on it. But the stuff I'm getting back, you know, from 
the Department is that there's a real problem there, and that--
--
    Secretary Rice. Well, I'd like to know----
    Senator Voinovich [continuing]. The esprit de corps is 
down, there are people who are leaving the agency. And I think, 
at this stage, someone's got to get back in there. And I would 
ask that--you know--and, as I said, when John came to see me, 
he didn't even mention management as part of the portfolio that 
you asked him to take on. Since that time, he said, ``Yes, 
we've talked about it.'' But I think he needs to spend more 
time there and not be on a plane, flying all over the world 
trying to take care of some of the diplomatic stuff to take 
some of the heat off of you.
    Secretary Rice. I'm certain, Senator, that he will spend 
the time on management that is needed. But I'd like to know 
what people think is not being managed, because I can tell you 
that, in terms of trying to improve----
    Senator Voinovich. It's right here.
    Secretary Rice. I'll--I'm happy----
    Senator Voinovich. It's right here.
    Secretary Rice. I'm happy----
    Senator Voinovich. OK?
    Secretary Rice. I'm happy----
    Senator Voinovich. GAO. We had a hearing on it.
    Secretary Rice. I----
    Senator Voinovich. They say it's not getting done.
    Secretary Rice. I'm happy to read it, Senator. But I think 
that you will find that questions about, for instance language 
competency, are not because we're not paying attention to them, 
it's because we are making an--are making, in this budget, 
funding requests to be able to train language--people who have 
language specialties, ability to recruit people at a mid-career 
level in order to bring them in. We're paying a lot of 
attention to these issues.
    But I can assure you, John Negroponte will spend time--the 
time on management, Henrietta Fore spends the time on 
management, I spend the time on management. We care very deeply 
about the management of this Department, and I care very deeply 
that it's not just managed in the status quo, but that it's 
actually transformed. That's why I've personally overseen the 
transfer of diplomats out of Europe into posts where they're 
needed. That's something that this committee has been calling 
for, for a long time. We finally did it. And so, I think we're 
paying plenty of attention management, and we're paying 
attention to it in a transformative way, not a status-quo way.
    Senator Voinovich. Well, I'd like to know, in the first 6 
months, how much time, Mr. Chairman, Negroponte is going to 
spend on doing the job, because Colin Powell spent time on it, 
and Dick Armitage spent time on it, and it really helped the 
Department.
    And I'm saying, in all fairness to you, you have so much on 
your plate, and you can tell me, ``I'm spending time on 
management,'' but you really don't have the time, with other 
responsibilities that you have, to do that. And someone's got 
to do it.
    Secretary Rice. Senator, I appreciate that. And I--we 
will--I will reiterate to John your comment. But, again, I 
would ask you to look at what we've done on the management 
side. This committee asked, for years, ``Why do you have so 
many diplomats in Europe and not in places where they're 
needed?'' This committee asked, for years, about the 
establishment of American-presence posts. This committee asked, 
for years, about public diplomacy. We're doing those things, 
Senator, not to mention launching language--critical language 
initiatives so that we can fill some of those posts. We're 
changing the way we recruit people in the Foreign Service. 
We're changing the way we administer the exam. I'm very focused 
on how this is going to be a Foreign Service for the future, 
not one that simply manages the status quo. So--but I will----
    Senator Voinovich. I'd ask somebody----
    Secretary Rice [continuing]. Pass your comments----
    Senator Voinovich [continuing]. To read----
    Secretary Rice [continuing]. On to John.
    Senator Voinovich [continuing]. The GAO report, because the 
fact of the matter is that what you're telling me is not 
reflected in this report.
    Secretary Rice. Perhaps I can get a report to you on all 
the things that we've done, Senator, because I think they've 
actually really mattered. And they're not status-quo changes, 
they're transformative changes. Those diplomats who are now 
serving in India instead of in Berlin are going to make a 
difference to our foreign policy, and I think the things we've 
done are going to make a much bigger difference than perhaps 
some of the things that are cited in the GAO report.
    I'll be happy to get you a report on management, and I will 
pass on your comment to John.
    Senator Voinovich. Thank you.
    Senator Lugar. Thank you very much, Senator Voinovich.
    Senator Kerry.
    Senator Kerry. Thank you very much, Senator.
    Madam Secretary, welcome, glad to see you here today. I 
doubt--I'm sure you're putting in longer than 16 hours, so I 
think he shortchanged you there.
    I want to mention one issue, if I can, that Senator Boxer 
talked about, for a moment. It's a diversion from where I 
really want to spend a few moments, but I just think it is so 
important to underscore this issue, which, with all due 
respect, the administration simply has not stepped up on yet.
    Twenty years ago, when I joined the Commerce Committee, 
Senator Gore and I held the first hearings on global climate 
change, in 1987. And after that, we held the first 
interparliamentary conference on it, sometime around 1989 or 
1990, and then we attended, together, as Members of the Senate 
delegation, with Senator Chafee, Senator Lautenberg, Senator 
Pressler, others who went to the Rio Conference, where 
President George Herbert Walker Bush signed on to the Voluntary 
Framework, back in 1992--1990. This is--since then, I--you 
know, I have attended the COP conferences in the Hague, in 
Buenos Aires. I was in Kyoto for the negotiations. I only 
mention that because this has been so much on the international 
agenda for years now, and the IPCC, 1,500 scientists strong, 
and others, have been, since, you know, 2001 report, were 
dramatic in their certitude about what is happening, and the 
human-induced components of it.
    My wife and I have just been--just completed writing a book 
together on a number of environmental issues, and one chapter 
is about global climate change. The more research I did--I 
thought I knew a lot about it--the more research I did, the 
more I sat with Jim Hansen, at NASA, the more we got the 
briefings, the more we met with climatologists, scientists who 
are studying the ocean, truly the more frightening and dramatic 
this challenge became, and becomes.
    And now, the scientists--the best scientists we have in our 
country--people like Dr. John Holdren, at Woods Hole, and 
Harvard, and so forth, Jim Hansen, and others--tell us that 
they have reduced the allowable warming that we think we can 
tolerate from 3 degrees Centigrade down to 2, and that the only 
way you can hold it at 2 is to hold the parts per million of 
greenhouse gas, carbon dioxide, in the atmosphere at 450 parts 
per million, not 550. To achieve the 450, Madam Secretary, it's 
going to take an unbelievable effort by a lot of countries. 
Texas is about to build 16--TXU is going to build 11 of them--
coal-fired powerplants by the old standards, not the new ones. 
China is about to build one per week. We can't do that. We 
simply can't do that, because you blow any scientific curve or 
model that exists.
    The administration, the President--we're all glad to hear 
him mention it in the State of the Union, but it just doesn't 
do it. We have to have a cap on carbon. We have to hold the 
carbon level. We have an allowance of about .4 degrees 
Centigrade between what's already preordained by what's in the 
atmosphere and where they say we get to catastrophe. Point-four 
degrees. And if these powerplants are built, it's ``Katy, bar 
the door.''
    So, I just say to you, I think that this administration is 
avoiding a sort of confrontation with reality and with the 
future and with future generations that is of unbelievable 
consequences. And I urge you, in your role as Secretary of 
State, because there is so much on the international agenda 
that has to be accomplished here--with China, with India, with 
the developing world, with technology transfer, with technical 
assistance--that this has to become a top agenda for you, and I 
urge you to do that.
    Now, I want to, obviously, turn to Iraq. You can comment on 
that, if you want, when we get there. But you've asked for an 
additional $2 billion for Iraq. According to the GAO study that 
was presented to us a few months ago, in Iraq itself, Iraq has 
only spent 8 percent of the annual capital goods budget, and 14 
percent of its annual capital projects budget. The report found 
that the Ministry of Oil had expended only $4 million of a $3.5 
billion capital budget. Now, if the Iraqis aren't spending the 
money that they have that's being banked here, why should the 
American taxpayer lay out an additional $2 billion, 
particularly knowing that the last money spent went to, in many 
cases, swimming pools, VIP trailers, cars that aren't accounted 
for--it just--it's unaccounted--billions of dollars are 
unaccounted for--why, in view of the reluctance of Iraqis to 
spend the money themselves, should the American taxpayer?
    Secretary Rice. Well, Senator, I want to be sure that we're 
talking about the same thing. I know that there were questions 
about the DFI, the Iraqi funds. I don't believe that there is a 
claim that there are billions of dollars misspent in the IRF. I 
do understand that there are some contractor cases that are 
being brought, but I just--I want to make sure that we're on 
the same page about that.
    In terms of the $2 billion additional----
    Senator Kerry. Well, there are--I don't want to interrupt, 
but there are reports of literally billions of dollars that 
have been misspent, or misdirected----
    Secretary Rice. Well, I think----
    Senator Kerry [continuing]. And instances, for instances, 
like the hospital--the First Lady's hospital that was twice 
funded and still not built.
    Secretary Rice. Well, I do think that the SIGIR has 
undertaken to look at some specific cases that mostly relate to 
contractual obligations that were not met. I fully agree with 
that. But I didn't want to leave the impression that SIGIR's 
accounting has said that there have just been billions and 
billions of misspent dollars. I don't think that's what SIGIR 
said, at least when I talked with the head of SIGIR. He talks 
about some specific contracts, yes--on healthcare, in 
particular--that have been very problematic, I agree 
completely.
    Senator Kerry. But you do have two issues here, I agree.
    Secretary Rice. Yes.
    Senator Kerry. There is one issue of the expenditure, there 
is the other issue of the capital funds of the Iraqis.
    Secretary Rice. Yes. And let me address that.
    Senator Kerry. Sure.
    Secretary Rice. The Iraqis have allocated $10 billion that 
they now intend to spend on infrastructure, capital 
improvements, job creation, a number of other activities. The 
money that we are requesting is largely to support PRT 
development, to support community development projects that 
would go alongside the PRT, to support some democracy programs, 
and to support some small reconstruction projects at the local 
level. So, this is all a part of the effort to--to be more 
local and decentralized in what we're doing.
    We're also requesting money to help make the Iraqis more 
capable of actually spending the funding that they are 
allocating--through budget execution, technical assistance, 
through help for the ministries, to be able to get the money 
from Baghdad down to the localities into the provinces.
    But, Senator, if the underlying tone of the question here 
is that the Iraqis ought to start to spend their own money, I 
agree completely, and we're telling them exactly that.
    Senator Kerry. And what--my time's almost up, but what is 
the status of the--really, the specific status of the 
reconciliation? Six months ago, seven months ago, Ambassador 
Khalilzad and General Casey said, ``The Iraqis have about 5 or 
6 months to make critical decisions, or, you know, it's going 
to be deep trouble.'' They haven't made those decisions. The 
reconciliation--I remember when I was there, I met with Prime 
Minister Maliki, who was about to meet with the reconciliation 
group. It didn't meet. It had real problems. It just doesn't 
seem to be gelling in any concrete or serious way. They seem to 
be waiting this out on both sides.
    Secretary Rice. Well, they're working very hard to close 
the oil law. And I can't give you a date, Senator, but I hope 
that the oil law is going to close very soon. That is the piece 
that they're working on. They also have put together a group to 
look at de-Baathification, and drafts are being passed around 
about the de-Baathification law. We agree that these are 
efforts that have to come to a conclusion, and need to come to 
a conclusion very quickly.
    Senator Kerry. Would you put any timeframe on it?
    Secretary Rice. I can't put a timeframe on it, but soon. As 
soon as possible. And Zal is working on this every day with 
them.
    Senator Kerry. Thank you. Thank you, Madam Secretary.
    Thanks, Mr. Chairman.
    The Chairman [presiding]. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    First, an observation. There have been a couple of comments 
about inadequacies in the budget in certain countries and 
places. I wanted to make an observation. From a proportionate 
standpoint, I want to commend your budget, because, by way of 
example, in the Economic Support Fund, which is critical in 
trying to bring about peace and understanding and negotiations 
in these countries, the appropriation in this budget to the 
Sudan is almost equal to Iraq. It's $250 million versus $298, 
and I think that's a significant contribution, and it should be 
noted. And, on the same token, the appropriations to Iraq and 
Afghanistan, this budget portends, are--portends an 
appropriation of $2.8 billion for Iraq and $2 billion for 
Afghanistan, which seem, proportionately, to be significant. 
And I want to commend you on both those, and the detail that's 
in them.
    Second, I want to go to the question that you addressed 
obliquely in addressing Senator Kerry. I think we've got a huge 
stake in this hydrocarbon deal, the oil deal in Iraq. And you 
didn't want to put a date on it, and I'm not asking you to put 
a date on it. But can you tell us what is encumbering the 
finalization of that oil deal?
    Secretary Rice. Yeah. What makes it difficult is that this 
is really--and I think everybody understands that this is 
really the critical piece--about how the regions are going to 
relate to the center, because two of the regions, the Shia 
regions of the south and particularly the Kurdish regions of 
the north, have disproportionate resources compared to the 
center of the country. And so, the unity of the country, in 
many ways, is very critically impacted by whether those who 
have the resources are willing to really share them, and share 
them proportionately, either by population or by need. There 
are also some parts of the country that have greater need, even 
though they don't have the population, because they were 
underinvested in by Saddam Hussein. And so, they've been 
working a very complex set of issues to get people who would 
own the resources in the region--because it is a decentralized 
federal system----
    Senator Isakson. Right.
    Secretary Rice. It's a little bit as if we were having this 
debate between the States and the center about who owns certain 
resources. That's really the--Washington and our States--about 
who owns certain resources. That's really what's going on here.
    Now, I think, when you look at the draft oil law, it's a 
remarkable document, because it really is a national oil law 
that recognizes, for instance, that the center ought to 
disburse the resources, that recognizes that some places are 
going to have to have a kind of special status, because they 
need more resources, because they've been underfunded. But 
there are still questions about: Who will be able to let 
contracts, the regions or the center? That's the kind of issue 
that they've really been struggling with.
    So, it's gone on longer than we would have liked, but it is 
really dealing with some very central issues about the 
relationship of the center to these regions.
    Senator Isakson. Well--and correct me if I'm wrong, but I 
think the oil resources themselves are primarily in Kurdish and 
Sunni areas. Is that correct?
    Secretary Rice. It's Kurdish and Shia.
    Senator Isakson. Shia areas.
    Secretary Rice. And Shia, in the south, yes. Right.
    Senator Isakson. And that if the oil law can be completed 
and ratified and passed, it probably is the hardest 
reconciliation of all to complete, and would be the fundamental 
foundation for all these other decisions to become a lot 
easier.
    Secretary Rice. I think that's absolutely true. And I think 
it's why, in some ways, the questions that are in the oil law 
are really more questions about how Iraq is going to operate 
and deal with the relations between its communities. That's 
really what's here. And I know it's taken a while, but I find 
it remarkable that they agreed, pretty early on, that the 
resources belong to the Iraqi people, or to the center, not to 
the regions. And then, you get into questions of how they're 
distributed. They agreed to that. The final frontier, in a 
sense, being: How are they going to contract for--with private 
entities?
    Senator Isakson. Well, I hope you'll continue----
    The Chairman. Will the officers please remove the party 
from the room so we can have order? We'll suspend.
    [Recess.]
    The Chairman. I thank the Capitol Police.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    My last comment on that, to every extent, diplomatically 
within Iraq--and there is some diplomacy going on, I recognize 
it's a full-time job. Anything that--and everything--that can 
be done to encourage that resolution to come about, that in 
combination with some relative stability in Baghdad in a short 
period of time could do remarkable wonders for reconciliation.
    My last comment is on the border security portion of the 
budget. I have a huge interest in that. I notice you've got a 
doubling of the request for passport operations, which I 
imagine is, in part, because of the----
    Secretary Rice. Yes.
    Senator Isakson [continuing]. New increased passport 
requirements between the United States and the Bahamas and 
Latin America, and places like that. But how are we doing on 
improving our security, vis-a-vis visas--verifiable visas, and 
nonforgeable, and the document problems we've had with 
forgeries? And how are we doing in terms of our access into 
this country, particularly on the southern border?
    Secretary Rice. I think we're doing much better, Senator, 
and thank you very much for noting that we are requesting 
increases in the consular personnel that have to deal with 
visas. The Western Hemisphere Initiative puts an additional 
load on people. But we think----
    Senator Isakson. I'm going to interrupt you for just one 
second----
    Secretary Rice. Yes.
    Senator Isakson [continuing]. Because I am one that makes 
calls on behalf of constituents, myself. And we need more 
people and less answering machines. So, I'm happy to support 
that.
    Secretary Rice. Thank you very much. [Laughter.]
    We appreciate it.
    We're making a lot of progress on the southern border. Of 
course, Homeland Security has the lead on issues of physical 
security and the like, but we have really improved our 
capability to deal with border issues. We have also improved 
our capability to process applicants.
    In terms of documents--I think it's a very important 
point--Mike Chertoff and I have worked very hard. As you know, 
we want a reliable document that is not forgeable. And I think 
we're making some progress on new technologies for passports, 
for a passport card, if we go that way, on the Western 
Hemisphere Initiative. So, it's very much on everybody's radar 
screen. And with--I will meet, on the 23rd of February, with my 
Mexican and Canadian counterparts, and also the Homeland 
Secretaries will be there. We do this regularly to review how 
we're doing on border issues, particularly border security 
issues.
    Senator Isakson. Well, I commend you on your attention to 
the consular corps and the passport issue and the southern 
border, and I thank you very much for your service to our 
country.
    Secretary Rice. Thank you.
    If I may, Senator, I just wanted to comment. You--thank you 
very much for the comment, also, about the distribution of 
resources. I just want to note that one of the other major 
management changes that we've made is that we have completely 
revamped our system for allocation of foreign assistance. By 
bringing together the State Department and the USAID budget, 
for real this time, with one person responsible for both, I 
think we're getting a much truer allocation of resources than 
we've ever gotten, and we've been able to really move resources 
around to highly targeted interests and concerns.
    And I just want to note that Randy Tobias, who oversees 
that effort as a deputy-level person, has done a very good job 
of starting to do that. So, thank you for noticing that we've 
been moving things around.
    Senator Isakson. Thank you for the work you do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Welcome, Madam Secretary, it's good to see you again.
    I want to turn to another part of the world that I believe 
many of our domestic issues derive from, and that's Latin 
America and the Caribbean, where we have growing concerns and 
challenges. In your written testimony, you say that the 
administration has doubled our assistance to countries in the 
Western Hemisphere, but I think the testimony leaves out a key 
phrase from the end of the same sentence in your budget 
summary, which says that this could only be true when you count 
projected funds for the Millennium Challenge Corporation. 
Having looked at the budget, the truth is that the 
administration has actually cut core development funding by 26 
percent, as compared to fiscal year 2006 enacted levels. And 
even if we look at other accounts you're still cutting funding 
to the western hemisphere. If we include Economic Support 
Funds, Andean Counterdrug Initiatives, and all the military and 
law enforcement money, you still cut funds to Latin America and 
the Caribbean. The only way you get to any kind of an increase, 
based upon your written testimony, is if you include MCC 2008 
disbursements, which I find fascinating, since the President 
promised that MCC funding would be on top of, not instead of, 
regular funding.
    Now, to put aside for a moment the fact that you're using 
already appropriated funds as part of a justification for a 
future budget, the truth is, we don't know from your budget 
what the MCC disbursements for 2008 will be. There are no 
numbers, so we don't know how you got those numbers or whether 
they're based on real facts. And even if we assume, for 
argument's sake, that the fiscal year 2008 MCC disbursements 
are real, those moneys only benefit, at most, 4 percent of 
Latin America's poor in three countries, leaving 96 percent, 
213 million, of Latin America's poor facing a serious cut in 
U.S. development funding.
    And let me just, in pursuit of that same line of thinking, 
talk briefly about the Economic Support Funds. I'm sure that 
the Department might argue that you didn't cut Development 
Assistance, you just moved Development Assistance to Economic 
Support Funds, where it will do exactly the same thing. I would 
argue quite differently. First of all, Economic Support Funds 
have always been political money to help those countries who we 
see a national interest in helping. Second, those funds have 
not been used in Latin America for Development Assistance; in 
fact, they have been used to promote the trade agenda and some 
other economic issues. And I might note they come with a lot 
less strings attached from the Congress as a result.
    So, Madam Secretary, I just want to bring this to your 
attention, because, as a member of the Budget Committee and as 
the chair of the subcommittee that oversees both the Millennium 
Challenge Corporation and Development Assistance, I plan to 
have a vigorous oversight of this. I believe it is this type of 
continuing policy, as it relates to Latin America and the 
Caribbean, that has given us a major challenge in the 
hemisphere, that lets the Chavezes of the hemisphere fill the 
vacuum and undermine our own national interests. It's a real 
concern to me because much of the issues we debate domestically 
are derived from within the hemisphere. If you want to stem the 
tide of undocumented immigration, you largely try to strengthen 
the economic opportunities in those countries and stop civil 
unrest. If you want to make sure that terrorism doesn't take 
hold within the hemisphere, you make sure that we don't have 
countries in chaos, which is where terrorism can create a firm 
seed. If you want to make sure we address the issue of global 
warming, as Senator Kerry was talking about, you want to ensure 
that we have initiatives that don't continue to destroy the 
rain forest. If you want to have more markets for U.S. goods 
and services, you strengthen the opportunities there.
    We are headed all in the wrong direction in this part of 
the hemisphere. I know we have other challenges in the world, 
but we are headed in the wrong direction.
    So, I urge the Department to look at these issues again. 
And certainly, I will be one of the voices here who will be 
looking to change the course of events of the budget process 
from where the present budget that's offered is to a different 
course.
    And let me just finish with the MCC, which I'd like to ask 
you a couple of questions about. This is probably the 
administration's signature foreign aid initiative, I would say, 
considering the amount of money and the effort. When President 
Bush first talked about the MCA, one of the things he promoted 
was the fact that the program was taking a different approach 
to foreign aid by requiring that countries involved not only be 
in need of assistance, but also that specific guidelines be 
met: Ruling justly, investing in people, fostering economic 
freedom. Is that correct? Are those basically----
    Secretary Rice. That's correct.
    Senator Menendez. And even after countries are designated 
as eligible for MCA assistance, they have to continue to 
fulfill those standards set by the MCC or they face 
consequences; specifically, suspension. And the case of the 
Gambia is an example of that. Is that not correct?
    Secretary Rice. That's correct.
    Senator Menendez. And when Ambassador Danilovich testified 
before the House's appropriations subcommittee last year, he 
said, ``At first, our partner countries must adopt and adhere 
to polices that promote growth, reduce poverty, make assistance 
more effective. If they don't, we say no. If they stop, we say 
no more.'' And he went on to explain that explicitly tying 
disbursements of money to the attainment of predetermined 
performance benchmarks allows us to ensure that our assistance 
delivers results for the expected beneficiaries and the 
American taxpayers, alike. Is that basically the Department's 
view?
    Secretary Rice. Correct.
    Senator Menendez. So, my question is--the administration 
believes that by setting performance benchmarks with 
consequences, we achieve results in benefiting not only the 
country who we're trying to help, but the American taxpayer. 
So, why is it that when, Madam Secretary, you came before the 
committee a few weeks ago--I asked you about performance 
benchmarks, beneficial and necessary, as it relates to Iraq--
why is it OK for the MCC and not for Iraq? Why is our 
philosophy changed in that respect? Why--when the President 
requests only $3 billion for MCC, but it requests $245 billion 
for the war in Iraq, why can benchmarks without consequences be 
important enough to include in the MCC, but not to include as 
it relates to Iraq?
    Secretary Rice. Well, Senator, I just see them as 
fundamentally different issues. I mean, in Iraq you're dealing 
with a country that is coming out of years of tyranny, you're 
in a war zone, American forces are fighting there. We're doing 
this as a part of a counterinsurgency strategy. We're pushing 
the Iraqis to meet certain benchmarks. But nobody would suggest 
that Iraq is in the circumstances that, for instance, that 
would have, at this point, even qualified for an MCC account. 
What we're doing----
    Senator Menendez. No; obviously--the question--the 
question, is, Madam Secretary, even the Iraq Study Group said 
that there should be benchmarks with consequences, because, if 
not benchmarks with consequences, they're merely aspirations.
    Secretary Rice. There are benchmarks. And I don't think 
they're aspirations. I really do think that these are 
benchmarks the Iraqis themselves know that they have to meet.
    Senator Menendez. So, the administration continues to 
pursue a course in which benchmarks that it sets have no 
consequences, if not met.
    Secretary Rice. I think the Iraqis know that the 
consequence of not meeting their benchmarks is that, first of 
all, they're not going to be able to govern their own country; 
second, they're not going to have the endless commitment of the 
United States to a plan that isn't going to work if they don't 
meet the benchmarks. That's quite different, I think, Senator, 
than saying to, for instance, a Ghana or a Georgia, which has 
been determined to be governing in particular way, now this 
money needs to be used in a way that is measurable against 
certain benchmarks. I think the situations are very different.
    But if I may respond on Latin America, just very briefly?
    Senator Menendez. Sure.
    Secretary Rice. The non-MCC foreign assistance for Latin 
America has risen, since this administration came in, from $862 
million to $1.4 billion. So, there's a significant increase in 
non-MCC funding.
    Then, if you add the MCC compacts, you are talking about 
large compacts in places like Central America. Some of the 
cuts, Senator, have come in places like Brazil, not for 
environmental issues, but because we believe Brazil is now more 
capable, in terms of its own delivery systems; in Mexico, where 
we believe the same is the case. You have countries that are 
really graduating from foreign assistance. And we have 
continued, by the way, to have active programs in development 
assistance in some of the poorest countries. But, for some 
countries, we believe that ESF is better funding for the kinds 
of challenges that they face, so what we've try to do is to 
match up the funding with the actual challenges that countries 
face, and to be fairly rigorous about whether or not we think 
development assistance or ESF is actually the kind of funding--
--
    Senator Menendez. Well----
    Secretary Rice [continuing]. That is needed by----
    Senator Menendez. Let me just--my time is over--let me just 
end by saying we had the Congressional Research Service, when I 
was in the House as the ranking Democrat on the Western 
Hemisphere, look at this, and the reality is, they came, did an 
analysis of every one of the Department's programs as it 
related to Latin America and Caribbean, and clearly the 
direction we are headed is to cut funds overall in that part of 
the world for several consecutive years. It is not in the 
national interests of the United States to do so. I urge you to 
reconsider it. But I appreciate your answers.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Madam Secretary, it's a pleasure to have you again before 
our committee.
    Earlier this week, in the Budget Committee, we were going 
over the cost of the Iraq war, and there was disagreement with 
the Congressional Budget Office and the administration's 
submission on the budget in the Department of Defense as it 
related to the war in Iraq. The surge, I think, was submitted 
by the administration at a little over $5 billion; whereas, the 
Congressional Budget Office has estimated it at five times that 
amount. And I'm trying to get a handle, in your budget, how 
much is involved with Iraq.
    Your 2008 submission has, I believe, $2.8 billion, but yet, 
we're going to be asked to approve a supplemental budget that 
has money in it for money in it for the Iraq mission. And I 
understand that's--about $1.9 billion of the supplemental 
budget deals with the Iraq diplomatic mission. And I'm 
concerned as to whether the $2.8 billion is a realistic number, 
or whether we're going to be coming back, looking at another 
supplemental to supplement that amount. And then, we have 
emergency funds that are not subject to that cap, in addition 
to the funds that are being submitted in the 2008 request, as I 
understand it. So, I think it would be helpful to us if we had, 
on one page or one sheet of paper, all the funds that are being 
requested through your agency as it relates to Iraq, both the 
supplemental, the 2008 submission, including the emergency 
categories of funds.
    Secretary Rice. I can provide that to you, Senator.
    Senator Cardin. I appreciate that.
    I had three concerns I would like you to address as it 
relates to the funds you're requesting. Some have already been 
touched upon by my colleagues. And that is, What impact is this 
having on the other missions? Your Department has critical 
missions in--around the globe as it relates to economic and 
environmental and security issues and human rights issues. And 
when I visit your representatives in other countries--who do a 
superb job for our country--they're stressed, and it seems to 
me that they're going to be--one of the effects of our 
concentration in Iraq is that it's going to have an impact on 
the other missions.
    Two, this is a major burden to U.S. taxpayers, and I would 
like to know what our coalition partners are contributing and 
what other countries are contributing, outside of Iraq, to 
these efforts. And if we could have some comparable numbers, I 
think that would be helpful to us to have that.
    And then, the last point, which has been mentioned by 
several of my colleagues, none of us are satisfied on the 
accountability on the use of these funds, and we need to have 
much stricter accountability on the use of taxpayer dollars. 
And I welcome you either submitting this to us or telling us, 
on all three of these points, the impact that it's having.
    Secretary Rice. Thank you, Senator. I can respond briefly, 
and then I'm happy to respond in greater detail.
    Obviously, Iraq, Afghanistan, are big efforts. But so, too, 
are efforts that we're undertaking, for instance, in Lebanon. 
We are requesting $770 million for Lebanon in the supplement. 
So, yes; we are requesting a lot that we see as critical to the 
war on terror. These are frontline states in the war on terror.
    I don't think that it is having a negative impact on our 
missions around the world, although, obviously, we have had to 
try to reallocate--sometimes funding and sometimes personnel. 
I've mentioned, a couple of times, that I've moved 200 
diplomats out of Europe. It's not because I don't think Europe 
is important, but because as American interests grow other 
places, it's important to reallocate people.
    Senator Cardin. Those 200 diplomats that you're referring 
to have been redeployed to----
    Secretary Rice. To places like India, China. They're--it's 
not just to Iraq or--to places in the Middle East, other than 
Iraq and Lebanon.
    Senator Cardin. If you could just supply to us specifically 
where those redeployments have been done.
    Secretary Rice. I'm happy to do that.
    In terms of the moneys that we're spending, though, I just 
gave a kind of recitation--of course, we're still the largest 
supplier of food aid. More than 62 percent is American. We are 
the largest supplier in health, in terms of large health 
initiatives, of any country in the world, both the HIV/AIDS 
program and the malaria initiative that the President has 
announced. Girls' education and women's education, has been an 
enormous--we've had enormous impact on those. We've been 
working very hard to increase our foreign assistance, overall. 
In Africa, our foreign assistance has actually trebled.
    So, I think you can see that we have a program, diplomatic 
and foreign assistance, that is really quite broad. It's not 
all being taken up in Iraq and Afghanistan, although, 
admittedly, Iraq and Afghanistan are very large and major 
efforts.
    Senator Cardin. And could you comment as to what the other 
major powers in the world----
    Secretary Rice. Oh, certainly,
    Senator Cardin [continuing]. Contributing----
    Secretary Rice. Let me give you the numbers----
    Senator Cardin [continuing]. Comparable to----
    Secretary Rice. Yes.
    Senator Cardin [continuing]. In these comparable areas? I 
know--they all have diplomatic--most have diplomatic efforts--
--
    Secretary Rice. Yes.
    Senator Cardin [continuing]. But comparable to the dollars 
that are asking our taxpayers to contribute on reconstruction 
and----
    Secretary Rice. Yes.
    Senator Cardin [continuing]. Different----
    Secretary Rice. I can--I will give you--I will send you, 
Senator, the numbers on Afghanistan and Iraq for our partners.
    But they are considerable, when you look at Canada, when 
you look at the EU, when you look at Great Britain, for both 
Iraq and Afghanistan; and a country like Germany, for 
Afghanistan. They're considerable.
    The biggest problem with some of this has been 
disbursement. And pledges are considerable. In some cases, 
we've had problems with disbursement; in part, related to the 
security situation. We had a situation, for instance, with 
Japan and Afghanistan, where Japan had allocated moneys to be 
spent on the road that we were building, together with Saudi 
Arabia and the United States and Japan, but where the security 
situation was such that Japan did not wish to participate, with 
its own workers. We have been working with them to make that 
money available, to have the United States, then, oversee that.
    So, we do have considerable pledges. Sometimes the security 
situation gets in the way of disbursement, but I'll get you the 
full numbers on what people are contributing.
    Senator Cardin. It would be useful, if it's comparable, as 
far as its characterization, to the funds that you're seeking 
here, so that we can compare apples to apples.
    Secretary Rice. Yes. There are, for instance, PRTs that are 
manned in Iraq by other countries. They--we are expanding the 
number of PRTs that other countries will man--for instance, 
with Korea--and the PRTs in Afghanistan are almost--there are 
more foreign PRTs than American ones.
    Senator Cardin. If I could stick to Iraq on the PRTs, it 
would be--again, it would be interesting to see the exact 
numbers as it compares to the U.S.-financed efforts there.
    Secretary Rice. Uh-huh.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for your testimony and your 
presence here today.
    I have about three questions. Two of them will center on 
the Middle East, and the first one is a--I guess, a longer term 
budget question, which I'd ask you to respond to. And some of 
it may require that you amplify it for the record.
    But one of the things that struck me about one of our 
hearings was the testimony by former Speaker Gingrich when it 
came to the question of the State Department itself. He--this 
is--I'm reading from page 8 of his testimony, number 14--he had 
a series of recommendations with regard to Iraq and national 
security, I believe, but also--here's what he said with regard 
to the State Department. I'd ask you to respond to this. Some 
of this, I'm sure you'll agree with, some you won't.
    He said, and I quote, ``The State Department is too small, 
too undercapitalized, too untrained for the demands of the 21st 
century. There should be a 50-percent increase in the State 
Department budget''--you may agree with that----
    [Laughter.]
    Senator Casey [continuing]. And a profound rethinking of 
the culture and systems of the State Department, so that it can 
be an operationally effective system,'' unquote.
    And I asked him for examples of that, and I--I'd ask you to 
look at the record to--for his response to that. But I know he 
focused, in a particular way, on technology, that, in his 
judgment, the Defense Department was far ahead of the State 
Department, in terms of technology, ability to communicate 
around the world. And he pointed at some other examples. But I 
wanted to get your reaction to that, and then go to some Middle 
East questions.
    Secretary Rice. I do think that we need to modernize the 
State Department. We're in the process of trying to do that. 
And Speaker Gingrich serves on my Transformational Advisory 
Board. I've got them in working groups, trying to look at, for 
instance, the Embassy of 2020--What would it look like, and how 
can we get there now? We've made a lot of changes. I've 
mentioned the repositioning of diplomats. We also have changed 
the way that we are going to deliver the Foreign Service exam.
    One of the problems we had, Senator, was, we believed that 
if we made people wait a year to take the Foreign Service exam, 
they'd sit around and wait, and then they'd wait another year 
to get a job. And, of course, we were losing some of the best 
talent to any number of places that can recruit those people. 
And so, we're going to give it probably five times a year now. 
We're going to include, in the way that we hire people, not 
just the exam, although the exam remains important, but, 
believe it or not, a full resume of what they're done, which is 
something we haven't been doing in the past. I think that will 
also improve our diversity. One of the problems that--I hate to 
say this, but I think Stanford University was more diverse than 
what I encounter at the State Department. And I think we need 
to improve that. We need to diversify not just in terms of 
ethnicity, but also hiring mid-level people. Some of the skills 
that we need are not going to come in somebody just out of 
college or just out of graduate school. And so, we're looking 
to improve our midcareer hiring, as well, because some of these 
more on-the-ground--the kinds of things people are doing in 
Afghanistan or Iraq require people with different skill sets.
    On technology, Colin Powell made very important changes in 
technology, but it really, frankly, moved the Department from 
Wang to the modern PC, believe it or not, and we're trying to 
increase our activities to improve our IT, to make our people 
really connected. I've had a special task force working on 
issues as--what may seem mundane--our ability to share 
information. Believe it or not, the State Department doesn't 
have a data warehouse system to be able to share information 
between bureaus.
    So, we're very aware that we have a number of challenges to 
modernize the Department. But I think the place that we need to 
make the biggest different is in the people we hire, how we 
train them, what we expect that they're going to do, how they 
are capable of working, for instance, with the military in 
these conflict areas. I just addressed, the other day, the 
first national security executive seminar, where we had people 
from all of the national security agencies.
    So, we have a lot of work to do. We really do. But it's 
something that I'm personally very interested in, because I do 
think we have to transform the Department. What we're doing now 
is going to look more like what we're doing--going to do in the 
future, getting out, working with people to transform their 
lives. Whether it's the kind of thing we're doing in Iraq or 
Afghanistan, or whether we're out working with HIV clinics in 
Mozambique or in Uganda, our diplomats are going to have to 
have different skills and they do different things, and I'm 
fully committed to modernizing the Department.
    Senator Casey. Thank you. And anything you could provide 
the committee so that we can fully and adequately discharge our 
oversight responsibility with regard to this question--in 
particular, I think, on technology, which I think----
    Secretary Rice. Thank you.
    Senator Casey [continuing]. A lot of people are very 
concerned about.
    Let me move, in the remaining 2 minutes I have, to the 
Middle East. I know you've been there recently, and are 
spending a good deal of time on the Middle East. I wanted to 
ask you, in particular--there was a part of the budget that the 
administration recently announced, an $86 million assistance 
package to strengthen the authority of the Palestinian 
President, Mr. Abbas. And I just wanted to get an answer to 
that, in terms of how those funds will be used. And then, I 
have a----
    Secretary Rice. Yes.
    Senator Casey [continuing]. One more question I hope we can 
squeeze in.
    Secretary Rice. Most of that funding is for security-sector 
reform. It was anticipated, in the roadmap, as well as other 
documents. They have to reform their security services, make 
them more professional. They have had--they need to be trained. 
We have an American three-star, General Dayton, who is out, 
running that program. He works very closely, not just with the 
Palestinians, but with the Israelis, on how to make those 
forces capable of not contributing to the violence, but 
actually helping to prevent it. And I think it's one of the 
more important programs that we're going to have.
    Senator Casey. And, last question, under--well under a 
minute--and some of this, of course, if you could amplify this, 
as well, for the record, I'd appreciate it.
    Former Secretary Baker was here before this committee 
recently, and he and Congressman Hamilton spoke directly about 
the Iraq Study Group recommendations. But one part of his 
testimony, I think, was particularly striking, with regard to 
Syria and the role that he believed that Syria can play in the 
Middle East generally, but, in particular, with regard to Iraq. 
He spoke about Syria in the context--and I want--I won't do 
justice to it by quickly summarizing it--he described Syria as 
a--as having a marriage of convenience with Iran, when it comes 
to Iraq. I'd ask you to speak to that--and you may or may not 
have seen his comments on Syria--but if you can speak to that 
question directly with regard to his comments, and if you 
can't, and if you're able to review those comments and then 
respond to the committee in writing----
    Secretary Rice. I've----
    Senator Casey [continuing]. I'd appreciate it.
    Secretary Rice. I've read them. I've also spoken with him 
about it. And we talk--he's a good friend and a--an important 
colleague and advisor.
    I think the question of Iran and Syria may be more of a--
perhaps it's a marriage of convenience, but it's one that is 
severely undermining our interests around the world. Whether 
it's a marriage of convenience or a marriage of love, I don't 
know. I just know that it's undermining our interests. And it 
shows up most dramatically in Lebanon, where Iranian support 
for Hezbollah and Syrian, really, I think, insistence that they 
get back in the game in Lebanon--they had to leave after the 
March 14th revolution--they had to leave, because there was an 
international resolution demanding that they leave. But they've 
never really reconciled to losing their power in Lebanon. 
They're doing everything they can to prevent the international 
tribunal, which would try the perpetrators of the assassination 
of Rafik Hariri. That's really their fundamental issue right 
now. And it makes it difficult to have a way to deal with Syria 
on more discrete issues, like Iraq, because it's very clear 
where Syrian interests lie.
    That said, we have diplomatic relations with Syria. I need 
to remind--keep reminding people--we don't have diplomatic 
relations with Iran, of course, going back 27 years. But with 
Syria, we do. And if there were any evidence, any hint that 
Syria were--was changing its course--and it should just change 
its course--we don't have an ideological problem with talking 
to Syria, we've talked with them in this administration, we 
could do it again--but the problem is, they are not engaging in 
constructive behavior, and we don't see how that would change, 
currently, by talking to them.
    Senator Casey. I know I'm out of time. Thank you.
    Secretary Rice. Thank you.
    The Chairman. Last, but not least, the thing we----
    Senator Webb. Thank you, Mr. Chairman. Again, we reach the 
end. [Laughter.]
    Secretary Rice, I thank you for your testimony. I would 
like to make two quick statements that I'm not going to ask you 
to respond to, in the interest of time. I'm going to talk fast. 
I want to get into a couple of other questions with respect to 
the issues before us here directly today.
    But the first regards the continuing exchange of 
correspondence that we've been having with respect to the 
administration's view of Presidential authority to conduct 
unilateral military actions against other countries, and 
particularly with Iran. I'm still concerned about the--this 
issue and the responses that I have received. And, again, I'm 
going to read a--just a phrase from the Presidential signing 
statement that was given in October 2002, after the 
congressional authorization to go into Iraq. This is a--I think 
this is potentially the most volatile issue in American foreign 
policy today, when the President asserted that he has, ``the 
constitutional authority to use force to deter, prevent, or 
respond to aggression or other threats United States 
interests.'' That's a very vague and troubling phrase, and I 
just want you to know I'm going to continue to try to get some 
clarification as to what that means, for the record.
    The second comment--I want to quote--this is a direct quote 
of something that you said this morning, talking about the 
situation of when it's appropriate to have diplomacy in the 
region to assist us in resolving the situation in Iraq. Your 
quote was that ``diplomacy outside Iraq is not going to solve 
the problem of national reconciliation inside Iraq.'' And I 
would respectfully disagree, to this extent, that I really 
don't see, in the situation that we're facing right now, how 
we're going to solve the problem inside Iraq without some sort 
of diplomacy outside Iraq. This is, sort of, I think, the 
fundamental divide here. And, you know, the--somewhere, there 
has to be a----
    The Chairman. Please.
    Senator Webb [continuing]. Stabilizing pressure point, and 
it's just not going to come from a--right now, a weak central 
government or from the military victories. And God bless our 
troops.
    I just--that needed to be said, from my perspective on 
this, and from the perspective of people who have been 
expressing their concerns with the administration policy.
    The question that--I have two questions for you. The first 
regards the way that these requests for funding are coming 
over. The administration has required $9 billion in so-called 
emergency spending in the supplementals for 2007 and 2008, most 
of that for Iraq and Afghanistan. That's 25 percent of the 
regular foreign affairs budget request that came over for 2008. 
And my concern, and the concern of a lot of people over here, 
is that the consideration of these supplemental appropriations 
bypasses the regular budget process and the scrutiny of the 
authorizing committees. And so, I'm just--I have a question 
about how, at this point, we can still justify these 
expenditures as emergencies rather than folding them into a 
true budget request.
    Secretary Rice. Senator, I don't think that we would want 
to put into base budget things that we expect over time to 
diminish significantly or to go away. I'll give you an example, 
on the PRTs. We've said that we believe that this major effort 
on PRTs is a kind of 2-year effort to support a 
counterinsurgency strategy. I don't particularly want to put 
into base budget, so that I then get into a fight with even 
people in my building about, ``Well, that was once part of my 
base budget, why isn't it, now?'' I think it makes much more 
sense to put into the base budget those funds that you think 
are actually going to remain in base when this war, in its 
intensive stage, concludes. So, for instance, we have begun to 
put into the base budget foreign military financing for Iraq, 
which would be a more normal way of dealing with Iraqi security 
forces. But we don't expect to be building Iraqi security 
forces at the rate and the intensity that we're doing now. So, 
that's----
    Senator Webb. Right. Well----
    Secretary Rice [continuing]. Just an example of the 
difference.
    Senator Webb [continuing]. The difficulty that I have--I 
asked staff to look at the money that's going to--that has been 
appropriated already for reconstruction, and it's basically 
bypassed the committee. They've been into these--in these 
supplementals. So----
    Secretary Rice. Well, there----
    Senator Webb [continuing]. That there hasn't been the 
ability to examine them, like there are other----
    Secretary Rice. Well, there was a large----
    Senator Webb [continuing]. Programs.
    Secretary Rice [continuing]. Reconstruction package at the 
beginning.
    Senator Webb. Right.
    Secretary Rice. We are at the end, really, of that. One-
hundred percent of that has been obligated, 80 percent of it 
has actually been spent. And we don't expect to continue that 
kind of----
    Senator Webb. Right. And we've----
    Secretary Rice [continuing]. Reconstruction----
    Senator Webb [continuing]. We've asked, by the way, when 
Ambassador Satterfield was in front of the committee--we've 
asked to be able to start breaking that down to examine, you 
know, accountability for some of the past expenditures. And I 
have a whole list of questions for him on that.
    To follow on what some other people were asking you, I met 
with the special inspector general yesterday. He indicated that 
there's $12 billion in unspent Iraqi Government funds. And if 
that's an inaccurate figure----
    Secretary Rice. Well----
    Senator Webb [continuing]. It could be correct.
    Secretary Rice [continuing]. It's not----
    Senator Webb. And the difficulty that I'm having with that 
is, you know, given the infrastructure problems here in the 
United States, and the lamentable state of repair in--post-
Katrina, along New Orleans and the gulf coast, and the fact 
that this money hasn't been spent and we have a $2 billion 
request, again, to come from the American taxpayers, how do you 
justify this?
    Secretary Rice. Well, first of all, Senator, let me agree 
with the underlying theme, which is, the Iraqis ought to be 
spending their own money. We agree. And we have pressed them on 
this matter. They have a $10 billion, now--of that $12 billion, 
$10 billion that they are going to allocate to infrastructure, 
to jobs programs, to reconstruction efforts of their own, and 
we think that's appropriate. We've been pressing them, for 
instance, to do more on operation and maintenance of projects 
that we actually funded and have completed. So, this is an 
ongoing discussion with them.
    The moneys that we're requesting are really not traditional 
reconstruction funding, these really relate much more to 
activities that would be carried on in the more decentralized 
PRT structures, ministry support to help them become more 
capable of putting in systems that allow them to take resources 
from Baghdad and actually spend them in the provinces, 
community support efforts that go alongside our 
counterinsurgency efforts with the military. That's really much 
more the character of this $2 billion. I think we believe that 
we're at the end of the kind of large-scale reconstruction 
projects that were funded by that initial IRF funding. And in 
talking with Stuart Bowen--he must have had a busy day, because 
I talked with him yesterday, also--I think that that is how he 
sees that, that this is really a new phase.
    Senator Webb. All right. And, for the record, there are 
other countries in the region who could be contributing, as 
well, and I'm--I won't take up any more time. I'm over.
    The Chairman. No; go ahead----
    Secretary Rice. But, may I----
    The Chairman [continuing]. Senator. If you want to follow 
up----
    Secretary Rice. Yeah.
    The Chairman [continuing]. Please do.
    Senator Webb. Well, I mean, that's just----
    Secretary Rice. Yeah, I----
    Senator Webb [continuing]. Another component of this.
    Secretary Rice. I'd actually like to follow up, if I may, 
Mr. Chairman, on----
    Senator Webb. We should be----
    Secretary Rice [continuing]. On that comment.
    Senator Webb. We should be encouraging investment from 
other countries in the region, rather than going back to the 
well of the American taxpayer.
    Secretary Rice. We are, indeed, asking for further 
investment from other countries in the region. For instance, 
the best thing that Saudi Arabia could do would be to relieve 
the debt, and we've asked them to do that as a part of the 
International Compact.
    And let me just say a word about the diplomacy, because I 
don't want to be misunderstood. I don't believe that it is--
that we're going to solve the problems inside Iraq by outside 
powers solving those problems. But it didn't--it doesn't 
suggest that outside power can't be helpful. And that's why 
we've had very intense discussions, with, particularly, the 
Sunni states, about engaging the Sunnis in the national 
reconciliation process. That's why we have an International 
Compact, and that's why, Senator, I think, with some other 
regional powers and neighbors, we are looking at whether or not 
a neighbors group, augmented, perhaps, by certain international 
actors, might help. We've been listening. We listened to the 
Baker-Hamilton people, we've been listening to the comments, 
and we're exploring that.
    Senator Webb. All right, thank you.
    The Chairman. Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman.
    Secretary Rice, it's good to see you again. I apologize 
that I wasn't here for your previous testimony. I had a 
conflicting committee.
    I recognize that a lot of time has been spent, and 
understandably so, on the Middle East. But I want to, maybe, 
shift gears. I'm trying to figure out whose vibrator that is 
that's causing this havoc.
    The Chairman. I think it's the microphone system.
    Senator Obama. OK.
    The Chairman. I don't think it's anyone's buzzing----
    Senator Obama. I want to broaden the discussion, in the 
brief time that I have, to get a sense from you of how you are 
thinking about the issue of nonproliferation and what we're 
doing to revamp our nonproliferation regime, which I think all 
observers would say is fraying around the edges. Obviously, 
North Korea and Iran are the most disturbing examples. But, you 
know, talks that had taken place earlier last year stalled. We 
haven't seen a clear and bold strategy to forge a new set of 
international agreements. So, I'm wondering, (a) What is your 
strategy, more broadly than just the situation in Iran and 
North Korea, so that we can get some more allies? and (b) Is 
that reflected in some of the budget requests that you've put 
forward?
    Secretary Rice. Well, the nonproliferation side has been 
very important to us ever since the President gave, at the 
National Defense University in 2004, a major nonproliferation 
speech. And we've been pursuing a number of the elements of 
that outline. Obviously, you do have to deal with the bad 
actors, Iran----
    Senator Obama. Right.
    Secretary Rice [continuing]. Iran and North Korea. There's 
a counterproliferation element of that, of course, which means 
that you have to have effective means for detection, effective 
means for interdiction. We have created the Proliferation 
Security Initiative, which I think is one of the most 
interesting international organizations of modern times. It 
doesn't have a secretariat, it doesn't have a building, but 
nearly 80 countries are involved in it and regularly share 
information about dangerous cargos, when there's suspicious 
cargo.
    One of the real successes of that led to a direct 
counterprolifera- tion/nonproliferation success when a shipment 
was detected, on its way to Libya from North Korea, and, in 
fact, taken the--word of that, taken to the Libyans, which I 
think helped us to get the Libyans out of the weapons of mass 
destruction business. So, I think we have to remember we've had 
some nonproliferation successes. We've also taken down the A.Q. 
Khan network, because one of the things that the 
nonproliferation treaty would not have foreseen was black-
market networks of that kind that are not state-based, but 
black-market entrepreneurs. And so, taking down that network 
has been an important goal--and important success.
    But we also have a major effort that we're engaged in right 
now to try to deal with the central problem of fuel cycle. If 
you could give countries--there's a loophole in the NPT which 
says that countries can pursue civil nuclear power, and it 
doesn't say by what means. And the--most of the concern--most 
of the uncertainty, for instance, about an Iranian nuclear 
program, relates to the fuel cycle. That's why having the 
Iranians suspend enrichment and reprocessing would be so 
important. So, the President spoke to this problem and 
suggested that there should be some kind of international or 
fuel suppliers group that could provide fuel to countries that 
wish to pursue civil nuclear power without having the whole 
fuel cycle. We think that the Russian program, Bushehr, at--in 
Iran, is on exactly that model. When President Putin and 
President Bush were together, very recently, they--in Vietnam--
they agreed to have talks about how Russia and the United 
States might move forward a strengthening of the 
nonproliferation regime based around issues of the fuel cycle. 
And Under Secretary Bob Joseph has had a couple of discussions 
with his colleagues about that. So, we think that these are 
important issues.
    You're also aware of some of the work that we've done out 
of the Nunn-Lugar initiative on securing dangerous materials, 
nuclear scientists, making sure that you don't have the minds 
out there to do these things. So, it's----
    Senator Obama. All----
    Secretary Rice [continuing]. A very broad agenda. But I 
think we want to focus our efforts on the fuel-cycle issue.
    Senator Obama. Good. I think it's entirely legitimate for 
us to focus on the fuel cycle. The--I guess I would just make 
two points. One, given the deal that was reached with India, I 
think there is concern that the structure that had been in 
place may not sustain itself over the long term if we don't 
make sure that we're gathering up some sort of international 
consensus about what the rules of the road are.
    Secretary Rice. We can do that.
    Senator Obama. I appreciate the statements that you made, 
and the President's statements made. I know that the 
administration takes this seriously, but I don't think that 
there has been as systematic an approach as I would like to 
see.
    The other point I would make would be that, as I 
understand, at least, this year's budget for 
counterproliferation cuts three programs center to some of the 
work that I did with Senator Lugar and that he mentioned in his 
opening statement. Modest; but cuts, nevertheless. Export 
control and related border security programs, it cuts $4 
million; nonproliferation disarmament fund cuts, $8 million; 
global threat reduction program cuts, $3 million. Now, I 
recognize that budgets are about priorities, but, given how 
important, potentially, interdiction and some of these other 
programs are, you know, I'd like to see us at least stay 
constant----
    Secretary Rice. Well, we've been----
    Senator Obama [continuing]. Not go backward.
    Secretary Rice. Yeah, I think Senator Lugar would say we've 
been very supportive of these programs, going back to my time 
as National Security Advisor. I've personally paid attention to 
them. Some of these are simply that some of these programs have 
less demand now than they once did. It's----
    Senator Obama. Right.
    Secretary Rice [continuing]. Been a long----
    Senator Obama. Which is----
    Secretary Rice [continuing]. Time.
    Senator Obama [continuing]. Good thing.
    Secretary Rice. And it's a good thing.
    Senator Obama. Absolutely.
    Secretary Rice. But I don't think that we want to be 
complacent. And obviously, we'll keep examining it.
    On--just on the India point, because I think it's a very 
important point, I think many people, including Mohamed 
ElBaradei, believed that by finally dealing with the India 
anomaly, if you will, that we've actually broadened the 
proliferation regime to deal--to put India inside the 
nonproliferation regime.
    Senator Obama. Unless India becomes a model and other 
countries determine that, ``Why should India be the anomaly?''
    Secretary Rice. Well, I think that could be the case. But, 
of course, there's a very specific circumstance of the India/
Pakistan/South-Asia context.
    Senator Obama. I understand. I----
    Secretary Rice. I think----
    Senator Obama. I----
    Secretary Rice. I think----
    Senator Obama. I didn't want to relitigate----
    Secretary Rice. Yeah.
    Senator Obama [continuing]. This, because we had full----
    Secretary Rice. Right.
    Senator Obama [continuing]. Hearing, and----
    Secretary Rice. I was just going to say, though, I think 
the most likely problem would come from an Iranian nuclear 
weapon, which I think----
    Senator Obama. We agree.
    Secretary Rice [continuing]. Would----
    Senator Obama. We're obviously paying attention to that.
    Secretary Rice. Yes.
    Senator Obama. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    There's a vote that's been started. With your permission, 
I'd like to ask one concluding question, and maybe my colleague 
has one, as well.
    I want to just--can you bring us up to date quickly on 
Darfur? You know, better than I do, in--last November, the 
Sudanese Government and the African Union reached an agreement, 
and--what's the administration's--plan if Khartoum refuses to 
allow deployment of AU troops?
    Secretary Rice. Well, we have another--number of options, 
including--we have in place U.N. sanctions that could be used 
against leadership there. You would note that the Treasury 
Department has also begun to try and use some of that effort to 
bring pressure on the Sudanese Government. I think it goes 
without saying that we need to put a lot of effort into 
actually getting the Sudanese Government to accept this, 
because a nonpermissive environment to deal with this problem 
would not be one that would be very--probably be very fruitful. 
So, our special envoy, Andrew Natsios, went to China. We then 
did--know that the Chinese raised this issue with the Sudanese.
    But I just want to mention that, you know, we have a phase 
1, phase 2, phase 3 coming out of the Addas talks, which we 
helped to arrange by getting others involved. Phase 1 has gone 
pretty well. Phase two is underway. That's getting heavier 
enablers in with the force. The issue is really phase 3. And we 
have to work on two fronts. We have to keep pressing Khartoum, 
who--Khartoum accepted. So, we are going to take that they 
accepted it, and then move forward. But, frankly, we've also 
got to press the United Nations peacekeeping operation now to 
actually raise the forces so that there's actually a force to 
go in. And the initial read that we got of more than 400 days 
to do it was not acceptable to us, and we've gone back to the 
United Nations to try to get those forces raised more quickly.
    The Chairman. Well, Madam Secretary, I realize this is born 
out of my Bosnia experience, and I had the initial similar 
resistance from the then-President. I really think--I've met 
with our NATO commanders--2,500 troops would do this. We should 
impose a no-fly zone. When I visited the region--we can fly out 
of Chad, we can take out the janjaweed overnight. I really 
think we should not wait on Khartoum. And I think they have 
yielded their sovereignty as a consequence of their 
participation in this genocide. I realize I'm a--maybe a--if 
not lone voice, I'm not the post popular voice on that, but--I 
know you know, and I know--and I mean this sincerely--I know 
how much it probably breaks your heart, but there are still 
tens of thousands of people at risk.
    Anyway, I think we should use force, and we should impose 
it now. And we could, through a no-fly zone out of Chad, end it 
tomorrow, in my view.
    Secretary Rice. Well, Senator, we've tried to keep the 
international community with us on this one. And I think that 
this is a place where unilateral action has considerable 
downsides. But we do have a lot of international friends who 
are trying to help us solve the problem.
    The Chairman. Well, that's the same thing I was told about 
Bosnia. And we finally did move, and others followed.
    At any rate, this is not--I appreciate your answer.
    The committee is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              



 Responses to Additional Questions Submitted for the Record by Members 
                            of the Committee

                              ----------                              


            Responses to Additional Questions Submitted by 
                    Chairman Biden to Secretary Rice

                           foreign assistance


    Question. Why does the FY 2008 budget request reduce funding for 
child survival and health programs?

    Answer. Investing in child survival and health programs for the 
developing world remains a high priority for this Administration. Our 
FY 2008 request for $1.6 billion in child survival and health (CSH) 
funds is 9 percent above our request in FY 2007 and only 1.7 percent 
below the appropriated level of FY 2006. In addition, the 
Administration has requested supplemental CSH funds in FY 2007 for 
avian influenza. Health assistance is also supported by a request of 
$4.1 billion in GHAI funds, more than double their actual level in 
2006.
    To ensure the optimal use of these funds, the foreign assistance 
reform process simultaneously considered a broad array of assistance 
needs in addition to health in preparing the FY 2008 request. This 
process was designed to maximize results for transformational 
development by focusing assistance on the countries with the most need 
and on issues where U.S. assistance can obtain the greatest measurable 
results. Within the health sector, the outcome of this process is an 
increase in assistance in HIV/AIDS, malaria and avian influenza.


    Question. The 25% reduction for bilateral family planning in the 
budget request is justified by successes in family planning efforts in 
other regions except Africa; yet over 500,000 women die each year in 
childbirth and 40% of all married couples lack access to contraception. 
Would you characterize that as a success?

    Answer. Family planning programs have been successful in increasing 
access to and use of modern contraception in all regions of the world. 
Family planning also contributes to reducing maternal mortality by 
helping women better space their pregnancies and avoid unintended 
pregnancy and recourse to abortion. We have successfully graduated 
numerous countries and others with mature programs are on the road 
towards graduation from USG family planning assistance. In addition to 
the overall measures of low fertility and high levels of contraceptive 
use across income groups, successful graduation from family planning 
assistance requires that a number of specific elements are in place, 
including national commitment to family planning, adequate financing 
for programs, contraceptive security, sustainable leadership and 
technical skills, availability of high quality information, appropriate 
engagement of the private sector, and attention to access of 
underserved populations.
    In Asia, Indonesia, Thailand, and Turkey have graduated from family 
planning assistance. Egypt will graduate by 2010. In Latin America, 
Brazil, Mexico, Colombia, and Ecuador are no longer receiving family 
planning assistance. Family planning programs in the Dominican 
Republic, Jamaica, and Paraguay are on track to graduate from USAID 
family planning assistance in the next few years. In Europe and 
Eurasia, programs in Kazakhstan, Kyrgyzstan, Moldova, Romania, Russia, 
and Uzbekistan have successfully increased contraceptive use and 
thereby reduced abortion.
    The remaining need for family planning is greatest in Africa, where 
nearly half of all maternal mortality occurs and only 15 percent, on 
average, of married women use contraceptive methods. We have responded 
to this need by strategically shifting family planning resources 
towards Africa in recent years. The FY 2008 budget request targets 43 
percent of family planning resources to the region. Significant need 
continues to exist in low prevalence countries in Asia, such as 
Afghanistan, Cambodia, northern India, Pakistan, and Yemen, where 
contraceptive prevalence is below 25 percent. In Latin America, USAID 
is concentrating its family planning resources in Guatemala, Bolivia, 
and Haiti where contraceptive use ranges from 22 to 35 percent.
    USAID's maternal health programs, valued at nearly $70 million in 
FY 2006, are also helping to reduce maternal mortality. Skilled 
attendance at delivery, which is a central focus of USAID's maternal 
health program, is closely linked with reductions in maternal 
mortality.


    Question. The Office of the Global AIDS Coordinator, the World 
Health Organization, and many African Ministers of Health have all 
recognized the severity of the global health workforce crisis, and the 
need for many new health workers, including nearly 1.5 million in sub-
Saharan Africa alone. In the coming year, sub-Saharan Africa is 
estimated to need some $2 billion in additional funds to strengthen its 
workforce. Where will U.S. funds come from to support these new 
investments while also increasing other essential health activities? If 
the budget does include funds for these purposes, from which accounts 
do the funds come?

    Answer. The United States firmly supports efforts by African 
countries to improve and enhance the capacity of their health care 
workforce, in both the public and private sectors. At a summit in Abuja 
in 2001, African Union leaders committed to allocate 15 percent of 
their domestic budgets to health, but very few governments have reached 
their target. Recognizing that health systems in Africa will only be 
sustainable if African countries themselves do more to prioritize 
health as an investment in their own people; the United States 
continues to encourage African countries to make greater progress 
toward the Abuja target.
    The United States provides significant resources and technical 
assistance through the President's Emergency Plan for AIDS Relief, the 
U.S. Agency for International Development (USAID), and the U.S. 
Department of Health and Human Services (HHS), and works in partnership 
with host nations as they build and strengthen their health workforces 
and associated systems.
    With respect to HIV/AIDS, investments in the development of health 
workforces and systems in the public and private sectors are integral 
to the whole range of the Emergency Plan's program activities--
prevention, treatment, and care. In nations with limited numbers of 
trained health workers and weak health care institutions, expansion of 
capacity is a prerequisite to meeting the President's ambitious goals 
of supporting and caring for ten million people (including orphans and 
vulnerable children). The Emergency Plan support for increasing the 
quantity and skills of health care workers and investing in health 
infrastructure thus comes from the entire range of budget accounts that 
support the Emergency Plan.
    In the 15 Emergency Plan focus countries , the Office of the Global 
AIDS Coordinator estimates its investment in developing health 
workforces and systems in Fiscal Year 2006 alone (including training, 
capacity development for local organizations, and network development) 
at approximately $350 million. Emergency Plan partners reported that 
approximately 25 percent of programmatic activities had components that 
supported efforts in these areas. These investments provide a base from 
which to further expand institutional and human resource capacity, in 
order to expand prevention, treatment, and care rapidly.


    Emergency Plan supported programs include the following:


   Support for policy reform to promote task-shifting from physicians 
        and nurses to lay community health workers;

   Development of information systems;

   Assessments of human resources;

   Training support for health workers, including lay community health 
        workers;

   Training or re-training for health service providers;

   Retention strategies; and

   Twinning partnerships.


    USAID supports African Governments to develop and implement 
policies that enable `task shifting' of health service activities. Many 
health services tasks currently performed by highly trained doctors and 
nurses can be safely and efficiently performed by health workers with 
lesser training, freeing the limited numbers of doctors and nurses to 
focus on the tasks that require their skills. As these changes are 
implemented, the current and future health workforce can provide much 
greater health services for their citizens. Training by USAID of the 
health workforce occurs in virtually all health programs, varying in 
proportion of funding depending on the specific health program.
    The United States also provides significant additional programs and 
funding through HHS for the training of health care workers and the 
strengthening of the health care infrastructure within Africa. In 
addition the HHS/National Institutes of Health support the 
strengthening of African capacity to conduct biomedical and behavioral 
research through training of African researchers in their home 
countries and in the United States. There is substantial inter-agency 
collaboration in the training of health workers in Africa. For example, 
USAID supports HHS in building capacity in Africa for infectious 
disease laboratories, disease detection and response teams, and field 
epidemiology training programs.


    Question. Will the Director of Foreign Assistance track the 
implementation and disbursement of foreign assistance to ensure that 
the poverty reduction continues to receive due emphasis and attention, 
in keeping with the decision of the Director to incorporate Congress's 
recommendation that poverty reduction serve as a top line strategic 
goal for foreign assistance?

    Answer. Yes, we will continue to track the implementation and 
disbursement of foreign assistance to ensure that our programs 
contribute to poverty reduction. Poverty reduction has always been an 
explicit focus of our development activities. The New Strategic 
Framework for Foreign Assistance seeks to identify and link the 
interventions necessary to achieve sustainable poverty reduction, 
including both service delivery to alleviate the burdens and 
consequences of poverty, and interventions to address the underlying 
causes of poverty. Within the new Strategic Framework for Foreign 
Assistance, poverty reduction is tracked through such overall 
indicators such as declines in poverty rates, growth in per capita 
incomes, and the percentage of the population living on less than $1 a 
day.
    At the same time, recognizing that serious and sustained progress 
in reducing poverty depends on overall development progress, the new 
Strategic Framework for Foreign Assistance promotes and track progress 
across a range of programs that contribute to poverty reduction, such 
as broad-based economic growth through investments in such areas as 
agriculture, micro-enterprise development, and pro-private sector 
policies which are essential to create the opportunities needed to 
raise the living standards of poor households. We also support 
investments in people--especially in basic education and health--to 
ensure that all citizens are in a position to gain access to the 
opportunities created by growth. Within these interventions, we track 
progress to ensure that the poor are benefiting from these programs, 
including through such indicators as the percentage of the poor 
benefiting from social services or assistance.


    Question. Would you support the inclusion of an authorization for 
$100 million in Title II food aid as part of a reauthorization of the 
President's Emergency Plan for AIDS Relief to serve as a nutritional 
complement to ARV treatment for AIDS patients?

    Answer. While addressing the broad issue of food insecurity 
generally is beyond the scope of the President's Emergency Plan for 
AIDS Relief (PEPFAR), we recognize that there are nutrition issues 
facing the communities in which we work. In terms of HIV-positive 
people on treatment, one of our strategies is to address their 
immediate food needs where there is evidence of clinical malnutrition, 
using a ``food for prescription'' approach, where HIV-positive patients 
who meet clearly defined clinical and nutritional criteria are provided 
with a prescription to receive a defined amount of food for a certain 
period of time. The Emergency Plan also prioritizes meeting the 
nutritional needs of malnourished HIV-positive pregnant and lactating 
women. In addition, PEPFAR supports food support to orphans and 
vulnerable children born to HIV-positive parents. This strategy also 
promotes linkages to food security and livelihood assistance activities 
maintained by host governments or other international partners.
    One example of PEPFAR's support for limited food assistance for 
specific, highly vulnerable populations is in a pilot program in Kenya, 
where PEPFAR supports a local food manufacturing company in 
distributing nutrient-dense foods to orphans and vulnerable children, 
clinically malnourished people living with HIV/AIDS, and HIV-positive 
pregnant and lactating women in prevention of mother-to-child 
transmission (PMTCT) programs.
    In order to remain focused on HIV/AIDS, PEPFAR leverages resources 
from other partners that provide food resources and depends on their 
expertise in the area of food security. In Ethiopia, for example, 
PEPFAR Ethiopia contributes to the World Food Program (WFP) and Food 
for Peace supports some HIV/AIDS programs. In fiscal year 2006, PEPFAR 
Ethiopia and the WFP collaborated to provide food resources to more 
than 20,000 beneficiaries, including orphans and vulnerable children, 
adult patients on antiretroviral treatment, and care givers.
    Key partners in our Food and Nutrition Strategy include, among 
others, the USDA's Foreign Agriculture Service, USAID's Food for Peace 
office, and the World Food Program--a key international partner. In 
fiscal year 2006, PEPFAR allocated $2.45 million to World Food Program 
initiatives, and that will increase to $4.27 million in fiscal year 
2007.
                    reconstruction and stabilization


    Question. Why is the request for the Office of Reconstruction and 
Stabilization so low, at $14.5 million? With only a couple dozen staff 
on ``active duty.'' ready to deploy for stabilization emergencies, this 
office and its personnel capacity falls far short of the vision that 
Senator Lugar and I had in our legislation in the 109th Congress. Since 
the creation of this office in 2004, why hasn't the Administration 
given it--and the ability to ``surge'' our civilian efforts--the 
attention, fiscally and otherwise, that it direly needs?

    Answer. The Administration appreciates your leadership, with 
Senator Lugar, to improve U.S. capacity for conflict management. The 
Administration shares your vision and is taking strong steps to realize 
it.
    The President is requesting 57 positions, along with associated 
support and deployment costs, to regularize S/CRS' temporary staff, 
increase the Active Response Corps (ARC) to 33 members, further develop 
the internal surge capacity of civilian agencies and support deployed 
members with S/CRS interagency planning and operations reachback 
expertise. The $14.5 million increase in FY08 would enable the 
Department to undertake additional deployments to conflict zones by S/
CRS' Active Response Corps (ARC) and other staff--generally within 48 
hours. S/CRS currently has experts deployed in Nepal, Chad, Sudan, 
Lebanon, Haiti, Afghanistan and Kosovo. In its largest deployment to 
date, the office fielded three consecutive ARC team deployments to 
Darfur, where they set up the U.S. Government platform in the region.
    As a complement to the internal surge capacity the Department is 
building, the Administration looks forward to working with Congress on 
the development of the Civilian Reserve Corps, as the President 
mentioned in his State of the Union Address.


    Question. What is the size of the Office of Reconstruction and 
Stabilization now? How many of the staff are State Department 
personnel, and how many staff are seconded from other federal agencies? 
What is the ultimate goal for the size of this office, both for core 
staff and a rapidly deployable corps?

    Answer. The Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) is making progress towards building crisis 
response capacity for U.S. civilian agencies. S/CRS currently has 78 
personnel, comprised as follows: 43 State Department Foreign and Civil 
Service officers, 8 non-State detailees, and 27 contractors and others 
on temporary arrangements. Since its creation in 2004, S/CRS personnel 
have been detailed from a wide range of State Department bureaus, 
USAID, Defense, Treasury, Justice, Labor, CIA, and Homeland Security.
    Eleven of the 78 staff are full-time members of the Active Response 
Corps (ARC). ARC members and other S/CRS staff members have deployed to 
Afghanistan, Sudan, Chad, Haiti, Lebanon, Nepal, and Kosovo.
    The President's FY 2008 budget request provides 57 new full time 
equivalent positions for S/CRS, including 33 positions for the Active 
Response Corps (ARC). The budget request also provides for regularizing 
24 key positions, bringing the total core staff to 76. Development of a 
Civilian Reserve Corps (CRC) would require additional personnel beyond 
current core staffing levels.

 
------------------------------------------------------------------------
                                                  FY 08     Total  FY 08
                                    FY 07        Request
------------------------------------------------------------------------
DOS Full-Time Employees (FTE).           19            24            43
Active Response Corps.........           0*            33            33
------------------------------------------------------------------------
  Sub-total Core Staff........           19            57            76
========================================================================
Non-State Detailees...........            8             0             8
Contractors...................           27            -5            22
Other (PMF, Student Programs).            4             0             4
------------------------------------------------------------------------
  Total.......................           58          52**           110
------------------------------------------------------------------------
* For FY 07 all ARC are in temporary positions; No FTE authorized.
** The increase in FTE for S/CRS staffing will allow us to reduce the
  number of Contractors from 27 to 22.



    Question. Last year, the 2007 budget request contained $75 million 
for a Conflict Response Fund to allow the Secretary to respond quickly 
to conflict or crises. This year, the request was reduced to $25 
million. Why?

    Answer. The FY 2007 budget requested $75 million for a Conflict 
Response Fund, but that request was not approved by Congress. $50 
million was intended for use as contingency bridge funding and $25 
million to develop the Civilian Reserve Corps.
    In FY 2008, the Administration is requesting $25 million in the 
Peacekeeping Operations account for rapid reaction deployments, crisis 
response activities. These funds would be used for unanticipated 
reconstruction and stabilization activities, which we historically have 
had to fund by reprogramming resources from other critical programs 
when a crisis occurs. For example, $25 million could support two small 
(e.g., Haiti) 90-day deployments of interagency staff to conflicts in 
permissive or semi-permissive environments, or a 45-day engagement in a 
medium-sized conflict (e.g., Kosovo). These funds would jumpstart U.S. 
Government ability to do assessments of needs for key transitional 
security programs such as policing and rule of law and/or help set the 
stage for rebuilding activities.


    Question. The President, in the State of the Union address, 
proposed the creation of a ``Civilian Reserve Corps'' to allow 
``civilians with critical skills to serve on missions abroad when 
America needs them.'' Does the budget request contain funding for such 
a program? If not, why?

    Answer. With the President's call for creation of the Civilian 
Reserve Corps (CRC) in this year's State of the Union Address, the 
Secretary's reiteration of the need for a CRC in her recent 
Congressional hearings, and our further estimate of the likely costs of 
starting up such a program, the State Department welcomes the inclusion 
of $50 million in H.R. 1591, the House's version of the FY 2007 
Supplemental.
    Building civilian response capacity requires that we both expand 
the pool of rapidly deployable personnel within civilian agencies, as 
well as improve our ability to tap specialized expertise outside the 
U.S. government. To function properly, the two components must 
complement and reinforce one another. On behalf of the Secretary, the 
Office of the Coordinator for Reconstruction and Stabilization (S/CRS) 
is leading a government-wide process to determine requirements for both 
a strengthened internal surge capacity and a Civilian Reserve Corps.
    The FY 2008 request for S/CRS focuses on building the internal 
State Department surge capacity. If approved, it would expand S/CRS' 
Active Response Corps (ARC), whose members are available for immediate 
deployment to conflict zones, provide additional funds for deployments 
and support other S/CRS efforts.
                            african affairs


    Question. What is the Administration doing in response to the 
deteriorating situation in Guinea?

    Answer. Throughout the January and February crises in Guinea, the 
United States actively sought a peaceful, negotiated resolution that 
would move Guinea toward improved democratic governance. We put the 
Guinea Chief of Defense Staff on notice that he and the men under his 
command would be held accountable for their actions during the crisis, 
including grave violations of human rights. In discussions with then-
Prime Minister Eugene Camara, Foreign Minister Mamady Conde, National 
Assembly President Aboubacar Sompare, Supreme Court President Lamine 
Sidime, Chief of Defense Staff Kerfalla Camara, and other generals of 
the military command, we urged these officials to use the 
constitutional means at their disposal to initiate a civilian-led 
democratic transition. We also strongly re-iterated U.S. policy against 
coups and other extra-constitutional changes of government.
    During the crisis, we issued two strongly-worded public statements 
condemning the state of siege, the use of lethal force against the 
civilian population, and the roll-back of the democratic process. Our 
second statement on February 16th called on all Guineans to use 
dialogue and constitutional means to resolve the crisis and to 
establish effective, democratic governance. In the midst of the 12-day 
``state of siege,'' we successfully urged Guinea's military leadership 
to ensure the safety of the union leaders so that negotiations could 
recommence in a secure context. In the end, ECOWAS succeeded in 
mediating a settlement acceptable to the Government of Guinea, the 
unions and the people.
    With the appointment of Lanasa Kouyate as the new consensus prime 
minister and head of government, we are cautiously optimistic that a 
further political crisis has been averted. The Director of Foreign 
Assistance is investigating whether we can supplement our planned 
assistance to Guinea within the parameters of the 2007 Continuing 
Resolution, so that we can support the efforts of the new Kouyate-led 
government. USAID is considering funding the International Committee 
for the Red Cross's new appeal to improve Guinea's trauma preparedness. 
USAID may also consider funding Terre des Hommes and UNICEF for child 
protection activities and assistance for victims of sexual gender-based 
violence. In the unfortunate event that there is a return to violence 
in Guinea, we will continue to work with ECOWAS and Guinea's other 
regional and international partners to support the legitimate 
aspirations of the Guinean people for democratic and transparent 
governance.


    Question. What effect if any, will the African Union's plan to 
deploy to Somalia affect its ability to muster troops to participate in 
the proposed hybrid AU-UN mission to Sudan?

    Answer. In our efforts to resolve conflicts in Darfur and now 
Somalia, the task of generating peacekeeping forces has become 
increasingly difficult because the global pool of readily trained and 
properly equipped African peacekeeping forces is starting to reach its 
limit. While some countries already involved in peacekeeping operations 
have said that they will not be able to provide troops for the African 
Union Mission in Somalia (AMISOM), we are hopeful that there will be 
enough troops for both Somalia and Darfur from other contributors. The 
United States continues to urge the AU to reach out to potential troop 
contributing countries and to galvanize international support for much 
needed external equipment, training assistance, and funding for 
operational sustainment. We are working with the AU and others to 
encourage some currently under-deployed, ACOTA-trained African 
militaries to participate in AMISOM. In this regard, the Africa 
Contingency Operations Training and Assistance (ACOTA) program, a part 
of the Global Peace Operations Initiative (GPOI), is a critical part of 
our strategy to expand the number and capabilities of African 
peacekeepers.
    The deployment of a robust peacekeeping operation to Darfur remains 
a central policy priority for the Department. In Sudan, we continue to 
work with the UN, AU, and international partners to press for a 
transition from an AU mission to a hybrid AU/UN force. As part of a 
hybrid force, countries from outside of the African continent will be 
able to contribute troops, thereby alleviating somewhat the need for 
African troop contributions.


    Question. Please explain the Administration's current strategy to 
support democratic movements and the restoration of the rule of law in 
Zimbabwe.

    Answer. Our strategy for restoring democracy and the rule of law in 
Zimbabwe involves increasing pressure on the Mugabe regime by both the 
international community and the democratic forces within the country.
    To support this, we are working with like-minded countries to 
isolate the Government of Zimbabwe from the international community. 
For example, this month we are working to block restoration of 
Zimbabwe's voting rights in the IMF and to defeat Zimbabwe's candidate 
for vice president of the WFP executive board. We have also been 
working behind the scenes with our allies and other like-minded 
governments to develop a common approach to Zimbabwe's post-Mugabe 
transition. We have broad agreement that any help will only be 
forthcoming provided the next government of Zimbabwe embraces deep and 
meaningful political and economic reforms.
    To assist Zimbabwe's democratic forces, we have strongly condemned 
the Government of Zimbabwe's violent attacks on peaceful protests 
against Mugabe's misrule. Ambassador Dell and the United States Embassy 
in Harare are providing direct support as observers at protest marches 
and court hearings. This presence is a tangible reminder to the Mugabe 
regime that the international community is deeply concerned by the 
tragedy that is unfolding in Zimbabwe. Our Embassy is taking other 
tangible steps to support those individuals and groups standing up for 
rule of law and democratic rights. Longer term, we are providing 
financial assistance to the Zimbabwe Electoral Support Network (ZESN), 
a non-governmental organization (NGO) that is laying the groundwork for 
credible elections in the country by building capacity to counter 
Mugabe's electoral fraud efforts. We are also sponsoring a program that 
is developing parliamentary independence, public debate, and 
transparency in government. This program has established the committee 
system in Parliament, which has been instrumental in the legislature's 
incremental but promising steps to check the executive, including 
exposure of government fraud and mismanagement. We are also providing 
financial assistance to NGOs that are conducting training programs in 
democratic activism and human rights protection for civil society and 
political party leaders. We have recently increased funding for the 
Voice of America's Zimbabwe program, which is the best source of 
objective news for the people of Zimbabwe about the Mugabe regime's 
abuses.
    Finally, our approach to Zimbabwe also includes humanitarian 
assistance to shield the Zimbabwean people from the worst consequences 
of Mugabe's misrule, including hunger and disease.


    Question. What efforts will the Administration undertake to help 
ensure the upcoming Presidential elections in Nigeria are credible and 
acceptable to the Nigerian people? What is the United States doing to 
help the government of Nigeria address ongoing violence in the Delta 
region?

    Answer. The conduct of Nigeria's electoral process in April will be 
an important barometer to evaluate the country's state of good 
governance and transparency. The United States has provided $15 million 
over the past three years to educate voters, professionalize political 
parties, train 350,000 other observers, and facilitate the ability of 
national and state electoral commissions to implement the elections.
    Since autumn 2005, the United States, Nigeria, and its 
international partners have met quarterly to identify holistic 
strategies for overcoming obstacles to efficient and secure energy 
production in the Niger Delta. Our four focus areas are: community 
development (also involving the World Bank and the non-extractive 
private sector); financial crimes/transparency; coastal and maritime 
security; and small arms trafficking. The Government of Nigeria 
continues to review a number of our proposed collaborative projects.
    Although Nigeria's federal government has an important role to play 
in addressing the challenges in the Delta, we believe that the support 
of the powerful and well-resourced state governors is the key to any 
durable solution. We have worked with the governors and legislatures of 
several states to improve coordination, accountability, and funding for 
development and poverty alleviation. If they are to have an impact, 
these initiatives must progress from the stage of mere planning to 
actual implementation and incorporation into a regional strategy.
    The United States will press the incoming elected members of the 
federal and state governments to follow through on these efforts.
                           east asian affairs


    Question. Where will you find the funds for any U.S. activities 
required to implement an agreement that comes out of the Six-Party 
Talks? Do you need a contingency fund to deal with that possibility?

    Answer. Under the February 13 Initial Actions agreement, the 
Democratic People's Republic of Korea's (DPRK) committed to undertake 
important steps toward denuclearization during a 60-day initial phase. 
If the DPRK fulfills those commitments, as a gesture of goodwill and 
humanitarian concern, the United States will consider providing 
electrical generators, related equipment, and technical assistance to 
civilian hospitals and/or other humanitarian institutions in the DPRK 
with a total value of up to $2 million. The source of funding for this 
project would be the International Disaster and Famine Assistance 
account.
    If the DPRK follows through with its ``next phase'' commitment to 
provide a complete declaration of all its nuclear programs and disable 
all existing nuclear facilities, the United States, along with the 
other parties, will contribute to the provision of economic, energy, 
and humanitarian assistance to the DPRK equivalent to up to 950,000 
metric tons of heavy fuel oil (HFO), which at current market prices 
would total about $300 million (not including transport costs). This 
burden would be shared among the other parties to the agreement, 
including China, South Korea and Russia. Japan has said that it will 
not contribute until the issue of abductions of its citizens by the 
DPRK is resolved. The U.S. share could therefore be up to approximately 
$75 million.
    U.S. law prohibits most forms of assistance to the DPRK other than 
for humanitarian purposes, unless provided pursuant to a 
notwithstanding authority or other extraordinary waiver authority. 
Assistance other than food, including medical aid or energy assistance, 
could require Congressional authorization. We would expect to request 
such authorization if and when appropriate, based on progress made in 
the talks and the DPRK's compliance with requirements set forth in the 
February 13 agreement.
    When the costs of denuclearization and other implementation 
activities are able to be determined more accurately, we will consult 
with Congress regarding any additional resource requirements.


    Question. What is the Department's assessment of the food situation 
in North Korea? Is the Administration considering food aid to North 
Korea?

    Answer. The food security situation in the DPRK remains precarious. 
Experts predict a significant shortfall this year due to a poor harvest 
in the wake of severe floods in 2006 and a 8-month suspension of 
assistance from the Republic of Korea in response to the DPRK's July 
2006 missile tests. The ROK, which provides 400,000-500,000 tons of 
grain annually, announced in March that it would resume fertilizer aid 
to the North and restart flood-relief aid. The South Korean Red Cross 
official said that the one-time flood aid package includes rice, 
blankets, and construction material. The ROK may resume large-scale 
food aid, if the DPRK shuts down its Yongbyon reactor in April and 
allows IAEA inspectors back in.
    Consistent with current U.S. policy on food aid, a decision on 
providing food aid to the DPRK would be contingent upon an evaluation 
of the DPRK's needs, an evaluation of competing needs elsewhere, and 
our ability to monitor delivery to ensure that food reaches the 
intended recipients.
    Between 1996 and 2005, the United States contributed over two 
million metric tons of food aid to the DPRK, valued at $714 million, 
mostly through the UN World Food Programme (WFP). The WFP is now 
operating in the DPRK on a greatly-reduced scale through a negotiated 
Protracted Relief and Recovery Operation. The United States has not 
contributed to this program.


    Question. What activities would the requested $2 million in 
Economic Support Fund monies for North Korea cover?

    Answer. The request of $2 million in the Economic Support Fund 
(ESF) for North Korea is to fund programs in the area of ``Governing 
Justly and Democratically'' and reflects the U.S. priority of promoting 
democracy and human rights in North Korea through programs that enhance 
information flows and human rights.
    There are currently very few means for promoting democracy and 
human rights in North Korea, but the United States continues to seek 
human rights reform in the DPRK. The United States also continues to 
promote greater awareness in the international community about the 
North Korean human rights situation and to support efforts to document 
the North's abuses. While continuing existing advocacy programs, we 
hope to find and fund additional new innovative programs, including 
those aimed at empowering independent journalists, democracy activists 
and defectors.
                            european affairs


    Question. What is the Administration's long-term strategy for 
dealing with the domestic situation in Russia (which faces one of the 
world's fastest growing rates of HIV-AIDS, crippling corruption, 
increasing authoritarianism, demographic collapse, and an active Muslim 
insurgency). Why is the $50 million requested for Russia in Freedom 
Support Act funds sufficient, given all these problems in Russia?

    Answer. The U.S. has a vital interest in helping Russia become an 
open, democratic, and stable geopolitical partner. To achieve this, we 
support Russian civil society, independent media, legal and health 
reforms, both through our assistance programs, but also through other 
diplomatic means.
    Over half the Russia budget request of $52.2 million will be 
devoted to supporting efforts to promote democracy and rule of law, 
which remain top USG priorities, with particular focus on helping to 
strengthen civil society, democratic institutions, independent media, 
and the rule of law.
    While the request for Russia has been reduced in recent years, the 
reduction should be taken in the context of a policy decision to focus 
assistance in key areas and to phase out Economic Growth assistance 
given Russia's strengthening economy. In addition to the portion of the 
FY08 FSA assistance requested for democracy programs, support for 
democratic development will be bolstered by over $180 million recovered 
from previous activities: The U.S.-Russia Investment Fund (TUSRIF) will 
transfer its profits into a new foundation that will give grants to 
support entrepreneurship, the rule of law, and the free flow of 
information in Russia. Funds recovered through the settlement of a 
civil lawsuit against a USAID contractor will be programmed to bolster 
Russian civil society groups.
    Combating HIV/AIDS is also a priority. Funding in this area will 
increase slightly to $11 million in FY08. Under Peace and Security, 
U.S. programs support joint efforts with Russia to combat transnational 
threats such as organized crime, drug smuggling, trafficking in 
persons, cyber-crime and terrorist financing. Finally, in the North 
Caucasus, funding will support conflict mitigation programs and 
Humanitarian Assistance (introduced in 2008) to help stem the spread of 
violence and promote health, sanitation, and community development.


    Question. If the President's budget request is granted, foreign 
assistance funding for Europe will decrease by 26% compared to 2006 
levels. This decline includes significant cuts to assistance in the 
``governing justly and democratically'' category despite the fact that 
democratic forces in several important European countries are 
struggling (e.g. Russia, Ukraine, and Bosnia). Given the circumstances 
in the region, why do you believe these cuts are justified? What 
actions is the State Department planning to mitigate their impact?

    Answer. The overall cuts in foreign assistance to Europe and 
Eurasia are due to critical needs in other regions of the world, the 
successful graduation of eleven countries from development assistance, 
and increased reliance on legacy institutions such as enterprise funds 
and foundations to support democracy and free markets. Within the 
region, FREEDOM Support Act (FSA) and SEED Act funding has been 
prioritized for securing the Balkans in the Euro-Atlantic community 
(Bosnia, Serbia, Kosovo), supporting countries at the forefront of 
reform (Georgia, Ukraine, Moldova, Kyrgyzstan), and confronting 
democratic backsliding (Russia, Belarus, Uzbekistan). Combined, over 
$218 million is requested in FY08 in the FSA and SEED accounts for 
Governing Justly and Democratically, making it the largest of the five 
assistance objectives. In addition, other sources of assistance, such 
as legacy foundations and the Millennium Challenge Corporation (MCC)--
which is funding Threshold Plans to combat corruption in Albania, 
Moldova, and Ukraine--will leverage the impact of other USG assistance 
in strengthening democracy and good governance.
    The promotion of democracy and rule of law remains a top U.S. 
priority in Russia. Over half of the FY08 budget request for assistance 
to Russia continues to be devoted to this goal, with particular focus 
on helping to strengthen civil society, democratic institutions, 
independent media and the rule of law. While the request for Russia has 
been reduced, support for democratic development will be bolstered by 
over $180 million recovered from two previous activities: The U.S.-
Russia Investment Fund (TUSRIF) will transfer its profits into a new 
foundation that will give grants to support entrepreneurship, the rule 
of law and the free flow of information in Russia. Funds recovered 
through the settlement of a civil lawsuit against a USAID contractor 
will be programmed to bolster Russian civil society groups.
    The United States is committed to supporting Ukraine's democratic 
transition through assistance to help consolidate and build upon the 
gains of the 2004 Orange Revolution. U.S. security and law enforcement 
programs support democratic reforms essential for Ukraine to meet 
performance-based criteria for Euro-Atlantic integration and build 
professionalism. Support for democratic reforms is also at the core of 
programs that enhance the business environment and promote economic 
growth. Other programs foster increased citizen participation and civil 
society's oversight of government. We will increase funding to support 
justice sector reform to help Ukraine fight corruption and organized 
crime and to improve the performance of its democratically elected 
government. In 2008, Ukraine will be in the second year of implementing 
a nearly $45 million, two-year MCC anti-corruption Threshold Program 
with a focus on judicial reform, government standards, higher 
education, streamlining and enforcement of government regulations, and 
monitoring and advocacy by civil society and the media.
    Our assistance to Bosnia and Herzegovina, of necessity, focuses on 
a range of issues critical to long-term stability and integration into 
Euro-Atlantic institutions. U.S. assistance has helped strengthen the 
rule of law, governance and civil society as well as advance the 
protection of human rights. Progress made on judicial and prosecutorial 
reform, NGO sustainability and public participation in political 
processes allows for a reduction in the overall budgetary request, 
while the U.S. remains committed to helping Bosnia undertake needed 
democratic reforms.


    Question. When you were before us for confirmation in 2005, you 
said that the world should apply to countries the ``town square 
test''--which you described as whether someone can walk into the middle 
of a town square and express their views ``without fear of arrest, 
imprisonment, or physical harm? If they can't they are living in a fear 
society, not a free society.'' How is Russia doing on the ``town square 
test?''

    Answer. The Russian People are incomparably freer and more able to 
express their views, even critical ones, than they were in Soviet 
times.
    Nevertheless, we are concerned about the ability of individuals and 
groups to freely express their opinions in Russia. We have seen 
increased official harassment of peaceful demonstrators like that faced 
by the opposition organization Other Russia during a peaceful rally in 
Moscow in December, a similar rally in St. Petersburg last month, and 
another rally in Nizhniy Novgorod this past Saturday. There are also 
new limits on election campaigning, including making it a crime to 
criticize incumbent elected officials. These developments raise serious 
concerns about the trajectory of democracy in Russia, particularly in 
light of the Duma and Presidential elections that will be conducted 
over the next year.
    We also continue to be concerned about the safety of journalists. 
It appears that the murders of a number of journalists are not being 
effectively investigated or prosecuted. Among these are the murders of 
investigative journalist Anna Politikovskaya and Forbes Russia 
journalist Paul Klebnikov.
                             latin america


    Question. Initially, Plan Colombia (now the Andean Counterdrug 
Initiative, ACI) was intended to be a five-year initiative, yet it 
continues with large U.S. support. What is anticipated for the future 
of the program? What is the Colombian government doing to seek 
additional sources of funding from the international community? What is 
the Administration doing to support Colombia raise funds from other 
sources?

    Answer. Colombia's ``Strategy to Strengthen Democracy and Promote 
Social Development'' follows the now completed Plan Colombia and was 
announced by President Uribe in late January 2007. It reflects 
Colombia's new realities, based in large part on the success of the 
original Plan Colombia, and seeks to continue those successful counter-
terror, counter-drug, democracy, human rights, alternative development, 
and humanitarian policies.
    At the same time, the new plan places increased emphasis on 
consolidating state presence and on development through sustainable 
growth and trade. The strategy recognizes the need to expand programs 
in remote rural areas, especially those emerging from conflict. It 
emphasizes increased security, social services, and assistance to 
especially vulnerable groups, such as the Afro-Colombian population on 
Colombia's Pacific coast, indigenous groups, and displaced persons. It 
also places more attention on building the capacity of the Colombian 
government so it can sustain programs that were begun with U.S. 
support.
    Although the United States is providing support with about the same 
mix of counternarcotics/counter-terrorism and economic/social/human 
rights assistance, it is noteworthy that the Colombian government is 
greatly expanding its own spending on such economic and social 
programs. It can do this, in large measure, because of increased 
security and confidence in the country, a direct result of U.S. 
support. Over the next few years, we expect to increase the proportion 
of U.S. assistance that goes to social, economic, and human rights 
programs. However, Colombian government officials have clearly told us 
that continued U.S. support to counternarcotics and counter-terrorism 
programs remains critical and that the Administration's proposed mix of 
U.S. assistance reflects their needs.
    House Committee Report 109-486 directed the Secretary of State, in 
consultation with the Secretary of Defense, to provide a report on all 
aspects of the future multi-year strategy for United States assistance 
to Colombia. We are in the process of preparing this report, which we 
intend to provide to the Congress before April 15. It will provide 
additional, more detailed information on plans for the future of this 
program.
    The Colombian government has always made obtaining additional 
sources of funding a high priority. It co-sponsored three donors' 
conferences with the Inter-American Development Bank during 2000 and 
2001 in Madrid, Brussels, and Bogota. Additional meetings with the 
international community were held in London and Cartagena in 2003 and 
2005. As a result of these meetings, an informal group known as the G-
24 and including both donor countries and international financial 
institutions was established in Bogota to coordinate and encourage 
assistance to Colombia. Most recently, Colombia has undertaken what it 
calls a ``shared responsibility'' campaign, with both Vice President 
Santos and then-Foreign Minister Maria Claudia Araujo traveling to 
Europe to seek additional European support, in view of growing 
consumption there.
    The United States has strongly supported Colombia's efforts to 
attract additional contributions. Our initiatives range from senior 
level demarches to working level approaches in Washington and European 
capitals, as well as in other donor countries such as Japan and Canada. 
Support for Colombia is also sought in direct talks with the European 
Commission (EC) in Brussels and at the Major Donors Meeting of the UN 
Office on Drugs and Crime (UNDOC) and the Inter-American Drug Abuse 
Commission (CICAD) of the Organization of American States.
    The Department of State's May 2005 report to Congress on this 
subject concluded that Europe is providing significant assistance and 
that our efforts to encourage this were increasingly successful. That 
report contained information on aid levels through 2003 from a variety 
of sources, including the Colombian Agency for International 
Cooperation (ACCI), which has perhaps the most complete figures for 
actual disbursements.
    ACCI figures through 2005 are now available and show that this 
support has continued at similar levels. For 2005, Colombia received 
$332.7 million in total official development assistance. This includes 
aid from the United States of $126.9 million, but does not include 
assistance to the Colombian National Police for certain Rule of Law 
programs, and does not include our eradication, interdiction, and 
counter-terror programs. The European countries provided $104.4 
million; the EU $31.6 million; and Canada and Japan $20.2 million. The 
remaining $49.6 million came from international organizations including 
the World Bank, the Inter-American Development Bank, the United Nations 
Development Program, the United Nations Office of Drug Control, UNICEF, 
and others.
    European assistance, both bilateral and through the EU, is 
primarily designed to support alternative development, justice sector 
reform, human rights, humanitarian assistance, and good governance. As 
such, it is a welcome addition to our programs and those funded by 
Colombia, and reflecting all donors' shared goals for these programs.


    Question. In the 2008 request, $139.5 million was shifted from 
alternative development program funding to the Economic Support Fund 
(ESF) account. What does this shift mean for the future of alternative 
development programs in Colombia? Why was the shift proposed? If the 
appropriations law for FY 2008 retains the Nethercutt amendment related 
to the International Criminal Court and Article 98 agreements, what 
alternative use will be made of these funds?

    Answer. Following a recommendation in Conference Report 109-486 on 
the FY 2006 budget, OMB directed a shift in FY 2008 of $192.5 million 
in alternative development programs in the Andes from the ACI account 
to ESF. While ESF funds do not have the flexibility of ACI funds, the 
shift of these funds will not affect the level of funding for 
alternative development programs in Colombia, and will make it easier 
to identify funding directed towards alternative development. As 
Colombia has signed an Article 98 agreement with us, the Nethercutt 
amendment will not impact any proposed use of ESF there.


    Question. Prominent U.S. and international human rights groups 
continue to raise concerns about the effectiveness of President Uribe's 
program to demobilize paramilitary groups. Do you believe the 
demobilization program is achieving its objective of reducing 
paramilitary violence, reducing drug trafficking by paramilitary 
leaders, and ensuring accountability for past crimes? What percentage 
of demobilized paramilitaries are still involved in drug trafficking or 
criminal activity?

    Answer. Colombia's demobilization process is an effort to bring 
peace and justice to the country by holding the leaders and members of 
an illegal armed group who have committed extortion, kidnapping, 
murders, massacres and human rights violations responsible for their 
violent crimes. Other conflicts in Latin America have generally ended 
either with a general amnesty or with only a small number of persons 
being brought before tribunals to answer for alleged crimes. Colombia 
is therefore attempting what is an exceptional process and one that is 
still underway, in the midst of continuing conflict with other illegal 
armed groups.
    Unfortunately, not all paramilitary members demobilized with their 
organizations, and an indeterminate number are returning to crime, 
mostly in association with emerging criminal groups. The Organization 
of American States Mission to Assist the Peace Process, known by its 
Spanish acronym as OAS/MAPP, has identified 22 new criminal 
organizations, with some 3000 members, that are increasingly active in 
Colombia. The OAS/MAPP reports that they include persons formerly 
belonging to the paramilitary forces, who either never demobilized or 
who have returned to criminal activity, as well as others who have not 
been members.
    As the OAS/MAPP also notes, the Colombian government has reacted 
strongly against these new illegal organizations, establishing special 
units to pursue them. According to the Colombian National Police, 982 
persons accused of belonging to these groups were captured between June 
2006 and February 2007. Of these, 177 were reportedly demobilized 
paramilitary members.
    It is clear that violence has been decreasing over the last several 
years as a result of Colombian government policies. Since 2002, 
violence indicators have been reduced to their lowest levels in 
decades. Homicides have decreased by 37 percent, kidnappings by 78 
percent, and terrorist attacks by 63 percent. This improvement is 
attributable in part to the peace process with the paramilitary groups.
    It is more difficult to determine the extent to which 
demobilization has reduced drug trafficking by paramilitary leaders. 
Some demobilized paramilitary leaders remain involved, while others 
have seemingly renounced their trafficking past. The United States has 
urged the Colombian government to monitor this situation carefully and 
to take action if there is sufficient evidence.
    As for accountability for past crimes, prosecution under the 
Justice and Peace Law, which provides the legal framework for the 
demobilization process, after many legal, procedural and resource-
related delays, is only just beginning with the taking of statements 
from paramilitary leaders.
    The Eighth Quarterly Report of the OAS/MAPP, which was released 
February 14, 2007, provides additional information and detail on this 
complex demobilization process. It describes a very mixed picture. In 
some places, the OAS/MAPP reports that there has not been a true 
demobilization, with some paramilitary forces maintaining their 
influence. In other areas, it confirms that the process appears to be 
working as designed. The OAS/MAPP concludes that the process, 
``although imperfect and with foreseeable and considerable difficulty 
constitutes the possibility of building, step by step, new peace 
scenarios for Colombia; central and unavoidable issues exist in 
processes of this nature, especially reparations for the victims, truth 
and justice. Colombians face these challenges today and also have the 
tools that they built themselves to make progress meeting them.'' We 
would concur with that assessment.
    We share the concerns expressed by U.S. and international human 
rights groups, as well as some Members of Congress, over the 
effectiveness of the demobilization process. Nevertheless, in our view, 
only vigorous implementation of the Justice and Peace Law will make the 
process successful.
    To that end, the United States continues to support the process 
through assistance to a wide range of demobilization activities, 
including: training and equipping the Justice and Peace Unit of the 
Prosecutor General's Office in its investigation and prosecution of ex-
militants (including training prosecutors, public defenders, police, 
forensic technicians and judges); monitoring and verification of the 
reintegration process by the OAS/MAPP; tracking and monitoring of the 
demobilized throughout the country; support to victims' civil society 
organizations and mechanisms that will facilitate reconciliation and 
reparations; and working with the private sector and Colombian 
government to provide the education and job training necessary to 
reintegrate former militants back into productive civilian society.
                                  iraq


    Question. You testified on January 11 that we'll know quickly if 
the escalation in Baghdad is effective: ``We're going to know very 
early, because they have to act very quickly. Their forces will start 
to come in February 1.''
    How would you gauge the Iraqi's performance to this point? How 
successful have we been in reducing the level of violence?

    Answer. It will take several more months to deploy all of the 
additional Iraqi and Coalition forces required to implement fully the 
President's ``New Way Forward'' strategy. As of February 8, over 2,000 
Iraqi troops had arrived in Baghdad; and we anticipate that by the end 
of March, the last of nine additional Iraqi Battalions and the second 
of five U.S. surge brigades will be operating in Iraq. While 
deployments are beginning, the operation to secure Baghdad is going to 
take time, and the full effects will not be seen in days or weeks, but 
over the course of months. The additional security forces may produce 
some short term effects, but ultimate success is up to the people and 
government of Iraq. Therefore, we are pursuing a multi-pronged 
political, economic, military and diplomatic strategy to help the Iraqi 
people find political solutions and assume responsibility for their own 
security.


    Question. You also said at that hearing: ``The most important thing 
that the Iraqi government has to do right now is to reestablish the 
confidence of its population that it's going to be even-handed in 
defending it.'' Last week, Prime Minister Maliki, said this about the 
failure to implement the new security plan: ``I feel that we are late. 
This delay is giving a negative impression and has led some people to 
say that we have already failed.''
          a. Do you agree with Prime Minister Maliki's assessment?
          b. How much time do we have to turn around the situation in 
        Baghdad?
          c. When will the surge be completed?

    Answer. a. Prime Minister Maliki's statement reflected a leader's 
understandable concern about the levels of violence in his nation ahead 
of Operation Fardh al-Qanun (Operation Law Enforcement also known as 
the Baghdad Security Plan). His statement also indicated his level of 
motivation and understanding that, while it is very important to the 
United States to continue helping Iraq, our commitment is not open-
ended. Unlike past security operations, Operation Fardh al-Qanun is 
Iraqi-created and Iraqi-led. Thus, responsibility for executing the 
plan in a timely fashion rests with the Iraqis themselves.
    b. Iraqi and Coalition leaders have been careful not to place a 
deadline on security operations in Baghdad. Although plans already are 
being implemented, the operation to secure the city is going to take 
time. Its effects will not be seen in days or weeks, but over the 
course of months.
    We will be closely monitoring Iraq's progress. Factors to be 
assessed include trends in violence, whether Iraqi army units are 
showing up and performing in a non-sectarian manner, whether or not 
there is Iraqi political interference in military decisions, and 
whether or not Iraq is making progress on key political issues, such as 
passage of a national hydrocarbon law and reform of de-Ba'athification 
laws.
    We also will examine the extent to which Iraq is investing its 
resources in its own economic future and taking the steps necessary to 
effectively execute its budget. As noted previously, we have made it 
clear to the Iraqi government that our commitment is not open-ended. 
That said, while we expect to see progress in the aforementioned areas, 
we are not setting deadlines. To do so would in some cases give a veto 
power to political forces in Iraq that are opposed to progress in some 
of these areas.
    c. While some initial results from Operation Fardh al-Qanun have 
been favorable as of mid-March, it would not be prudent to assess or 
extrapolate a timeline to announce a completion of the surge. It will 
take several more months to deploy all of the additional Iraqi and 
Coalition forces required to fully implement the President's ``New Way 
Forward'' strategy. As MNF-I Commanding General Petraeus noted, ``It 
will take time for the additional forces to flow to Iraq, time for them 
to gain an understanding of the areas in which they will operate, time 
to plan with and get to know their Iraqi partners, time to set 
conditions for the successful conduct of security operations, and, of 
course, time to conduct those operations and build on what they 
achieve.''


    Question. Several political benchmarks were specifically mentioned 
by the President in his presentation to the nation of the ``New Way 
Forward in Iraq'' on January 10, 2007--the new oil law, provincial 
elections, amendments to the Constitution, and De-Ba'thification 
reform. Please provide an update of progress in each of these areas.

    Answer. Hydrocarbon Law


   The Council of Ministers (Iraqi Cabinet) approved the draft 
        hydrocarbon framework law on February 26. When a draft revenue 
        sharing law is also approved by the Council of Ministers, the 
        two laws will be submitted as part of a package to the Council 
        of Representatives (CoR) (the Iraqi Parliament).

   A cover letter accompanying the hydrocarbon framework law 
        stipulates that the hydrocarbon framework law and the revenue 
        sharing law must be passed by the parliament by May 31. If both 
        laws are not passed by that time, the Kurdistan Regional 
        Government will be allowed to sign new exploration and 
        production contracts, consistent with the constitution. 
        However, Kurdish and GOI leaders agreed to consider negotiating 
        a new deadline before taking such actions.

    We understand the current version of the framework law contains 
        the following elements:

                  1. A framework for developing Iraq's oil and gas 
                sector, based upon free market principles and 
                encouragement of private sector investment;

                  2. A set of governing principles and broad 
                organization of the sector;

                  3. Key principles for revenue sharing, including that 
                after funding of its national responsibilities the 
                central government will collect and distribute revenue 
                to local authorities according to a specific formula.

   The law also stipulates that separate, complementary laws will 
        follow the main hydrocarbon framework law that contain the 
        following elements:

                  1. Specific implementation details on revenue sharing 
                (Revenue Sharing Law, as mentioned above).

                  2. Definition of the roles of the Iraqi National Oil 
                Company and the Ministry of Oil.

                  3. There could also be subsequent legislation on a 
                number of issues, including petroleum taxation and 
                refining.
Provincial Elections
   On February 27, the CoR passed and President Talabani signed the 
        law to establish the new Independent High Electoral Commission 
        (IHEC). Based on this law, we understand that the CoR has 60 
        days to approve new commissioners, and the CoR is debating this 
        issue.

   A law drafted to determine the authority of the provincial and 
        regional governments in relation to the central government in 
        Baghdad has gone through two (of three) readings in the CoR. 
        The CoR has not yet passed a law that sets a date for 
        provincial elections, but the provincial powers law gives this 
        authority to the provincial councils. This may change before 
        the law is finally approved, and the CoR may establish a 
        different procedure to set a date for provincial elections.
Constitutional Review
   The Constitutional Review Committee, the parliamentary committee 
        charged with reviewing Iraq's constitution, first convened on 
        November 15, 2006. The Committee continues to meet and review 
        possible amendments. Proposals transmitted to the Council of 
        Representatives would then be voted on and, if approved, 
        ultimately subjected to a referendum.

   It is too early in the process to speculate on likely proposals. 
        That said, it is vital that any future Iraqi constitutional 
        arrangement has broad support and that it promotes national 
        unity.
De-Ba'thification Reform
   On March 26, Iraqi Prime Minister Maliki and President Talabani 
        announced agreement on a draft law to for De-Ba'thification 
        reform, called the Accountability and Reconciliation Law. Other 
        Iraqis are now studying this law, as is the Administration.

   Most Iraqis recognize that a successful reform package would be a 
        concrete step towards national reconciliation. A credible 
        reform package would have the potential to allow tens of 
        thousands of former members of the Baath party to return to 
        government employment.


    Question. Please describe efforts being made by the U.S. government 
to address the plight of Iraqi refugees. How much assistance is the 
United States providing to these refugees?

    Answer. The USG is responding both diplomatically and financially 
to the needs of Iraqi refugees. First, the Secretary formed a high-
level interagency Task Force on Iraqi refugees in early February to 
ensure a coordinated, government-wide response to the issue. At the 
Secretary's request, we have demarched the governments of Jordan and 
Syria to continue allowing Iraqis to enter and remain in these 
countries, to extend social services to Iraqis in need, to accept 
international assistance and facilitate the work of United Nations 
agencies and non-governmental organizations (NGOs) and to permit the 
United States to resettle the most vulnerable Iraqi refugees from their 
countries. A/S Sauerbrey visited Egypt, Syria and Jordan in mid-March 
to further assess the situation and to meet with hosting governments to 
ensure that humanitarian space for refugees is secured. Assistant 
Secretary Sauerbrey received assurances from the respective governments 
that they would continue to offer asylum and assistance to Iraqis and 
that they were open to facilitating and receiving international 
assistance to expand essential services to Iraqis.
    We are also working with our partners and regional governments to 
better assess needs and target resources to the most vulnerable. The 
Revised Continuing Appropriations Resolution for FY 2007 (P.L. 110-5) 
includes $20 million in the Migration and Refugee Assistance (MRA) 
account to support Iraq refugees and conflict victims. We have already 
pledged $18 million of this amount which covers 30 percent of the 
United Nations High Commissioner for Refugees' (UNHCR) $60 million 
appeal and we intend to contribute generously to the appeal of the 
International Committee of the Red Cross (ICRC) as well as to 
significantly increase funding to NGOs assisting vulnerable Iraqis in 
the region. We are working closely with UNHCR to expand its ability to 
make resettlement referrals to the United States and to other 
countries' resettlement programs this fiscal year. UNHCR will refer at 
least 7,000 Iraqis to the U.S. Refugee Admissions Program (USRAP) this 
year and we are considering options for possible resettlement of more 
Iraqi refugees, including group designations.
    The President's FY 2007 Supplemental request includes $60 million 
to meet the needs of displaced Iraqis both inside and outside Iraq. Of 
the President's request, $15 million would be for MRA to support the 
protection and assistance of Iraqi refugees in neighboring countries 
and conflict victims inside Iraq, while $45 million would support the 
International Disaster and Famine Assistance (IDFA) account targeting 
internally displaced Iraqis. The FY 2007 Supplemental also includes $30 
million in Emergency Refugee and Migration Assistance (ERMA) funds 
which, if approved, could be drawn upon to meet unanticipated needs for 
Iraqis.
    The President's FY 2008 budget request includes $35 million in MRA 
funds for Iraq.


    Question. You testified that you have authorized your charge 
d'affairs in Damascus to speak ``explicitly to talk to the Syrians 
about the issue of refugees.'' A February 12 press release from the 
Syrian Embassy in Washington said there ``had been no communication 
between any U.S. and Syrian officials regarding the Iraqi refugees' 
situation in Syria.'' Please describe the discussions the U.S. 
government has had with the Syrian and Jordanian governments to 
coordinate on the refugee issue.

    Answer. Charge Corbin delivered demarches outlining our 
humanitarian concern for Iraqi refugees were delivered in Damascus on 
February 11th to the SARG MFA Director of Protocol while Ambassador 
David Hale delivered demarches in Amman between February 11and 13th to 
King Abdullah, his Office Director and the Jordanian Director of 
Intelligence. Assistant Secretary for Population, Refugees, and 
Migration Ellen Sauerbrey also traveled to the region from March 10-15 
during her visit she met with the SARG Deputy Foreign Minister Faisal 
Mikdaad in Damascus and with Jordanian government officials to discuss 
our concern regarding the need to provide protection and humanitarian 
assistance to Iraqi refugees until they could return home or a durable 
solution could be identified. Ambassador Hale regularly communicates 
with the Government of Jordan on Iraqi refugee matters and Under 
Secretary Paula Dobriansky and A/S Sauerbrey both met with the 
Jordanian representatives at the April 17-18 UNHCR Conference on the 
Humanitarian Needs of Displaced Iraqis to further convey our 
humanitarian concerns. At the request of the SARG, A/S Sauerbrey also 
met with the SARG Deputy Foreign Minister Mikdaad at the same 
conference to continue their discussion on meting the needs of Iraqi 
refugee's needs in Syria.
    During these discussions, we received assurances from both the 
Syrian and the Jordanian government officials that they will respect 
their humanitarian obligations towards Iraqis. This includes allowing 
Iraqis to continue to enter these countries and not to forcibly expel 
them. Both governments said they would welcome funding and assistance 
for Iraqis in their country. However, they acknowledged that the 
increasing number of Iraqi refugees entering Jordan and Syria is 
causing a growing strain on their resources and economies.


    Question. How many Iraqis have worked directly for the United 
States in Iraq? What efforts are you making to provide asylum to those 
who are at risk because they have been or are currently employed by the 
United States? How many Iraqis have been admitted to the United States 
each year since Fiscal Year 2003? How many of these were either 
employed by the U.S. government or family members of employees? How 
many do you plan to admit this year and next?

    Answer. Our Mission in Iraq currently employs approximately 160 
Locally Employed staff country-wide. In addition, the Embassy estimates 
5,000 Iraqi staff work for State and USAID contractors country-wide. 
The Department of Defense should be consulted for specific information 
on the number of its Iraqi employees and contractors.
    The Department continues to focus on how best to identify 
vulnerable Iraqis needing access to the U. S. Refugee Admissions 
Program (USRAP), including those whose vulnerability is a result of 
their association with the U.S. Government. We are working closely with 
UNHCR, especially in the five neighboring countries that host 
significant populations of Iraqis, and we are already receiving 
referrals for Iraqis in Jordan, Syria, Turkey, Lebanon, and Egypt. We 
continue to support the UNHCR referrals effort as the primary route of 
access to the USRAP for vulnerable Iraqi cases. However, we are also 
using Embassy and PRM referrals for those cases deemed most vulnerable 
due to their close association with the U.S. Government.
    Since 1975, the United States has resettled over 37,500 Iraqis. We 
resettled 298 Iraqi refugees in FY03, 66 in FY04, 198 in FY05, 202 in 
FY06, and 60 as of 2/28/07 in FY07. During most of these years, our 
emphasis was on supporting the voluntary repatriation of Iraqi refugees 
who left during the Saddam Hussein era and wanted to return home.
    We do not keep records based on previous employment of refugees 
admitted to the United States.
    By late summer, we expect to have received a first tranche of UNHCR 
referrals of some 7,000 Iraqis in the region, and expect more as the 
year progresses. Of the number approved for U.S. resettlement during 
processing over the next few months, we anticipate that one-third to 
one-half will complete all security, medical and other checks and will 
arrive in the United States before the end of FY 2007. Though it is 
difficult to estimate numbers at this point, we fully expect that the 
number of Iraqi refugee admissions will increase significantly in FY08 
as well.
                                  iran


    Question. You stated that you are prepared to discuss any issue 
with the Iranians once they suspend uranium enrichment activity. Are 
you prepared to meet with Iranian representatives bilaterally for such 
discussions or will you only do so in a multilateral setting with the 
EU-3 or the P-5 plus 1?

    Answer. We made a historic offer on May 31, 2006, to join her P5+1 
colleagues in direct discussions with Iran regarding the nuclear and 
other issues ``at any place and at any time,'' provided Iran fully and 
verifiably suspends its enrichment-related and reprocessing activities. 
We remain committed to pursuing a diplomatic solution to the challenges 
posed by Iran. But that cannot happen without a change in the Iranian 
regime's policies.


    Question. You indicated that reports suggesting an Iranian offer to 
the United States communicated in 2003 are incorrect. Could you 
elaborate? Are you aware of any proposal that was communicated in 2003 
from Iran? Do you know the source of the purported proposal which has 
been recently reported in the Washington Post and other media outlets?

    Answer. In early May 2003, the State Department met with the Swiss 
ambassador to Tehran, Tim Guldimann, who presented an independent 
proposal he had drafted with Sadeq Kharrazi, then Ambassador of Iran to 
France and a former Deputy Prime Minister. The document included a list 
of topics the two men expected the U.S. and Iran could discuss, 
including terrorism, Iraq, WMD, Israel, and sanctions.
    The State Department reviewed the 2003 communication carefully and 
discussed it with Ambassador Guldimann, but Department officials were 
not confident Iran's leadership had endorsed the plan. The Department 
did not at that time, and does not today, characterize the message as a 
serious offer from the Iranian government.
    On May 31, 2006, however, I made a public offer to the Iranian 
regime: suspend uranium enrichment and reprocessing and the U.S.--along 
with the British, French, Germans, Russians and Chinese--will sit down 
with Iranian officials to discuss the nuclear and other issues.
    I have stated numerous times since then that I would be pleased to 
discuss the range of issues confronting our two countries, at any time 
and at any place, but only after Iran suspends enrichment. The ball is 
in Tehran's court. The Department remains confident that the nuclear 
issue will be resolved through diplomatic means.


    Question. Did the Administration break off its dialogue with Iran 
in 2003 over the lack of Iranian cooperation on al-Qaeda suspects? Has 
any progress been made on the issue of al-Qaeda detainees in Iran after 
the dialogue was halted? How many detainees is Iran holding?

    Answer. Over the past couple of years, the U.S. Government has 
authorized Ambassador Khalilzad in Baghdad to maintain an open channel 
to the Iranian Government to discuss Iraq-related security matters. 
During this period, Tehran neglected to take advantage of this channel.
    Iran's failure to comply with the terms of United Nations Security 
Council Resolution (UNSCR) 1267 and successor resolutions through its 
support of and failure to impose sanctions on al-Qaeda is but one of 
several grave concerns we have regarding the regime's long-standing 
support for terrorism. The Iranian regime has also violated the terms 
of UNSCR 1373 by supporting terrorism around the world and by affording 
safe-havens to al-Qaeda terrorists, rather than bringing them to 
justice or transferring them to countries where they would stand trial 
for their deadly deeds.
    We cannot comment in this forum on the scope of Iran's support for 
al-Qaeda, the nature of discussions we may have had with Iran regarding 
this support, or the number of al Qaeda operatives who utilize Iran as 
a safe-haven. However, we are working closely with the international 
community to spotlight Iran's role as the leading state-sponsor of 
terrorism and increase the costs to the regime and its partners for 
their role in terrorist activities. Our goal is to shape a robust 
international consensus regarding the extent of Iran's state 
sponsorship of terrorism.


    Question. Please provide an update on the status of Mujadeen-e-
Khalq (MEK) members in Iraq. How many are in Iraq? Are any of them 
being employed by the United States or otherwise supported financially 
by the United States government or any other government? Please 
describe any diplomatic communications with Iran on the MEK. Is 
consideration being given to remove the MEK from the list of Foreign 
Terrorist Organizations (designated under Section 219 of the 
Immigration and Nationality Act)?

    Answer. There are 3,364 MEK members living at Ashraf under the 
protection of Coalition forces. These individuals were consolidated at 
Ashraf in 2003 following the start of Operation Iraqi Freedom, when 
Coalition forces disarmed MEK of a significant quantity of military 
equipment, including: more than 2,000 tanks; armored personnel 
carriers; artillery pieces; miscellaneous vehicles; and thousands of 
tons of small arms and ammunition. In 2004, the Department of Defense 
designated individuals at Ashraf as ``protected persons'' under Article 
27 of the Fourth Geneva Convention. This designation applies only to 
residents of Ashraf and does not affect the MEK's status as a 
designated Foreign Terrorist Organization (FTO) or as a specially 
designated global terrorist organization (SDGTO) pursuant to Executive 
Order 13224.
    We have encouraged MEK members at Ashraf to make an informed 
decision regarding their personal future. In addition to the 3,364 
residents at Ashraf, approximately 200 have voluntarily disassociated 
themselves from the MEK, disavowed violence, are now living in the 
Temporary Interview and Protection Facility (TIPF) adjoining Ashraf and 
have been granted refugee status by the UNHCR, which is seeking 
countries willing to accept them for resettlement. An additional 360 
former residents of Ashraf disassociated themselves from the MEK, 
accepted an International Committee of the Red Cross (ICRC)-brokered 
amnesty offer from the Government of Iran and voluntarily returned 
there beginning in late 2004. We will continue to work closely with the 
Multi-National Forces-Iraq (MNF-I), the ICRC, UNHCR, and the Government 
of Iraq to determine the future status of residents at Ashraf.
    The U.S. government does not employ or financially support members 
of the MEK, nor are we aware of other governments which do so. MNF-I 
provides protection for Ashraf, and we refer you to DOD for further 
details.
    As you know, the MEK is not just a group of individuals in Iraq, 
but rather a terrorist organization-with cult-like tendencies-that has 
a global reach. We have every reason to believe that the MEK retains 
the intent to carry out terrorist actions and the capability to do so 
using personnel not currently in Iraq. Many of the MEK's leaders and 
operatives remain at large, and the number of at-large MEK operatives 
who received weapons and bomb-making instruction from Saddam Hussein's 
regime remains a concern. We have seen no credible evidence confirming 
that the MEK has disavowed violence; indeed, the MEK refuses to 
acknowledge that dozens of its deadly attacks-including attacks against 
U.S. military personnel in the 1970s-were acts of terrorism. In 2003, 
French authorities arrested 160 MEK members at operational bases they 
believe the MEK was using to coordinate financing and planning for 
future terrorist operations.
    The Administration is not considering removing the MEK and its 
affiliates from the list of Foreign Terrorist Organizations.
    Per the Department's standard FTO designation five-year review 
process, the MEK's status will undergo a regular review in 2008 to 
ensure that the circumstances that justified the original FTO 
designation of MEK and its affiliates still exist. The Iranian regime's 
views of the MEK are not a factor, under U.S. law, that is considered 
when evaluating the MEK's FTO status. Rather, the decision to designate 
MEK as an FTO is based on extensive, compelling evidence of the MEK's 
engagement in terrorist attacks and material support for terrorism, 
including support for the takeover of the U.S. Embassy in Tehran in 
1979; terrorist attacks inside Iran during the 1970s that killed 
several U.S. military personnel and civilians; numerous terrorist 
attacks throughout the 1980s and 1990s; and the MEK's close financial 
and operational relationship with Saddam Hussein's regime-a U.S. 
designated state-sponsor of terrorism. We continue to believe that MEK 
members responsible for terrorist or other criminal activity should 
face justice, along with those who provide material support to the MEK 
and its aliases.


    Question. Given the President's authorization to use deadly force 
against Iranian agents in Iraq, what do you consider the most likely 
response from Shi'a Muslims worldwide? If Iranian agents are targeted 
and killed, will this increase or decrease the threat of retaliatory 
terrorism against U.S. citizens?

    Answer. In Iraq, Iran continues to provide lethal support to select 
groups of militants who target and kill U.S. and British troops, as 
well as innocent Iraqis. We have made clear to Tehran that this is 
unacceptable. As President Bush announced in January, our troops on the 
ground in Iraq will act to disrupt networks in Iraq-regardless of 
nationality-which provide deadly weapons to Iraqi groups. These actions 
are consistent with the mandate granted to the Multi-National Forces in 
Iraq by both the United Nations Security Council and the Iraqi 
Government to take all necessary measures to contribute to the 
maintenance of Iraq's security and stability. Any action taken under 
this mandate is not aimed at any particular national, religious or 
ethnic group, but rather at a narrow category of militants based on 
their activities against coalition troops and Iraqi civilians.
    We have an absolute and indisputable obligation to defend our 
soldiers from such attacks. While terrorists and their sponsors may 
seek to retaliate against us for doing so, they will not sway us from 
meeting this obligation.
                                lebanon


    Question. At last month's Donor's Meeting in Paris, the United 
States pledged $770 million for the reconstruction of Lebanon.
          a. What do we expect to accomplish with these funds?
          b. What benchmarks for political reform is associated with 
        them?

    Answer. a. With Congress's approval, the $769.5 million that the 
United States pledged at the donors' meeting in Paris would be divided 
as follows:

          $300 million--Economic Support Funds (ESF). Of this, $250 
        million would be for budget support, helping to reduce 
        Lebanon's most pressing economic problem--one of the world's 
        highest debt-to-GDP ratios. We are examining possible 
        disbursement mechanisms that would have maximum transparency 
        for where the money goes and how it is used, while at the same 
        time addressing the debt problem. We would also encourage 
        progress on economic reform by tying payments to specific 
        benchmarks. The remaining $50 million of ESF would go towards 
        project assistance, to contribute to Lebanon's recovery from 
        last year's war and to improve the country's political and 
        economic stability.
          $220 million--Foreign Military Financing (FMF). This will go 
        for training and equipment to help the Lebanese Armed Forces 
        (LAF) in their deployments of 8,600 troops to the Syrian border 
        and 15,000 troops to south Lebanon, to secure the borders and 
        to restore the Lebanese Government's sovereignty in areas which 
        in recent decades had come under de facto control by a 
        Hizballah state-within-a-state.
          $60 million--International Narcotics and Law Enforcement 
        (INCLE) and 5.5 million Nonproliferation, Anti-terrorism, 
        Demining and Related programs (NADR). For the Internal Security 
        Forces (ISF), the U.S. assistance program provides urgently 
        needed training and personal equipment to enable the ISF to 
        carry out its responsibilities for guarding Lebanon's ports, 
        airports, and borders as well as fulfilling traditional 
        policing and anti-terrorism roles. Assistance will also go 
        toward strengthening the customs service's monitoring and 
        interdiction capabilities, especially at ports of entry and 
        land border crossings.
          $184 million--Contributions for International Peacekeeping 
        Activities (CIPA). This would enable UNIFIL to carry out its 
        responsibilities under UN Security Council Resolution 1701, 
        including its support to the LAF, maintaining peace and 
        creating the conditions necessary for the Lebanese Government 
        to exercise its sovereignty over its entire territory.

    b. We are still in the process of determining the benchmarks to be 
used for the cash transfer, in consultation with the Government of 
Lebanon (GOL), the World Bank, and the International Monetary Fund 
(IMF). The benchmarks will be keyed to significant elements in the 
GOL's economic reform plan which will help ease the country's current 
economic problems as well as reduce or prevent the recurrence of its 
difficulties. The funding will be provided in tranches dependent upon 
the achievement of the benchmarks.
                         palestinian authority


    Question. Do you support Saudi Arabia's efforts to forge a national 
unity government between Hamas and Fatah? Why? If Hamas refuses to 
explicitly recognize Israel in such a government, what will be our 
policy toward that government? What do you expect the policy of the 
Arab states and the European Union would be toward that government?

    Answer. We welcome Saudi Arabia's effort to end factional 
Palestinian violence. The goal of such efforts ultimately must be the 
creation of a responsible Palestinian government that is committed by 
word and deed to the Quartet principles: recognition of Israel, 
renunciation of violence and acceptance of all previous agreements, 
including the Roadmap.
    We remain committed to the vision of two democratic states--Israel 
and Palestine--living side by side in peace and security. Progress 
towards the creation of a Palestinian state can only take place with a 
Palestinian government that governs its people responsibly and that is 
committed to the basic principles of peace--the Quartet principles. We 
urge the international community use caution in dealing with any 
Palestinian government and stress that the Quartet principles must be 
the measure of the new government.
                                 egypt


    Question. When you were before us for confirmation in 2005, you 
said that the world should apply to countries the ``town square 
test''--which you described as whether someone can walk into the middle 
of a town square and express their views ``without fear of arrest, 
imprisonment, or physical harm. If they can't, they are living in a 
fear society, not a free society.'' How is Egypt doing on the ``town 
square test"?

    Answer. Freedom of expression is an issue of concern in Egypt, and 
the country does not yet pass the ``town square test.'' While we have 
seen members of the opposition, judges, journalists and others express 
their views on a wide range of political and social issues, including 
vigorous criticism of the government and direct criticism of the 
president, we have also seen Egyptians--including parliamentarian Talat 
Sadaat and blogger Abdel Karim Soliman--face prosecution and prison 
sentences for the things they write or say.
    Again in 2006, authorities used force to disperse peaceful 
demonstrations and arrested and detained hundreds of peaceful 
demonstrators, including 500 activists in April and May for 
demonstrating in support of an independent judiciary. Many arrests in 
fact occurred in or near Cairo's ``town square'' of Midaan Tahreer 
(Freedom Square). Egypt has further to go on its reform path before it 
could be accurately described as a free society. The internal debate 
that surrounded the recent constitutional referendum, for instance, 
suggests a need for much greater progress in democratic reforms.


    Question. The FY08 budget request for Egypt includes $415 million 
to be used for, among other things, ``the justice sector, civil society 
and independent media."
          a. How would you characterize Egypt's human rights record the 
        past two years?
          b. Are there any benchmarks attached to these funds in terms 
        of Egypt civil and human rights practices?
          c. What efforts are being made to procure the release of 
        Egyptian political prisoners, such as Ayman Nour, Talat Sadat 
        and Abdelkareem Nabil Soliman?
          d. To what extent was human rights in Egypt a part of the 
        discussion during your meeting with Egyptian Foreign Minister 
        Ahmed Aboul-Gheit last week?

    Answer. Egypt has more work ahead of it to meet the reforms it has 
set for itself in the areas of the judiciary, civil society, and the 
media. We have characterized the Egyptian Government's respect for 
human rights as poor in 2005 and 2006. Significant abuses have 
continued in many areas, including executive branch limits on an 
independent judiciary; denial of fair public trials and lack of due 
process; restrictions on civil liberties--freedoms of speech and press, 
including Internet freedom; and restrictions on NGOs. The Economic 
Support Funds (ESF) and assistance we provide through the U.S. Agency 
for International Development (USAID) and the Middle East Partnership 
Initiative (MEPI) are aimed at encouraging and advancing political and 
economic reform in these and other areas. We closely follow Egypt's 
progress in these areas and have had numerous discussions with the GOE 
on this topic. At this point, our FY08 ESF request for $415 million is 
not directly linked to formal benchmarks in these areas; however, we 
are discussing--both internally and with the GOE--ways to leverage this 
assistance to most effectively promote political and economic freedom.
    We are concerned over the detentions of Ayman Nour, Talat Sadat, 
and Abdel Karim Soliman and have raised those concerns publicly and 
privately with the Egyptian Government. We are pressing Egypt for their 
release. We routinely raise issues of human rights and democratic 
reform in our conversations with senior Egyptian leaders, including in 
my conversations with Foreign Minister Aboul Gheit.
                          south asian affairs
Afghanistan


    Question. The Administration has proposed $2 billion in 
reconstruction funds and $8.6 billion in security funds for 
Afghanistan. Given that Gen Karl Eikenberry and Gen James Jones have 
both requested significantly increased reconstruction funding ($2 
billion spread over two years would not represent a significant 
increase) and significantly improved use of security funding (according 
to the Inspectors General of State and DOD, current police training has 
already cost $ 1.1 billion dollars, yet resulted in a non-functional 
police force), in what way does this proposal represent a true change 
of course?

    Answer. Since 2001, the United States has provided over $14.2 
billion in aid: nearly $9 billion in security assistance; $5.2 billion 
in reconstruction, humanitarian, and governance assistance. Because 
this is such a critical year for Afghanistan, the President has 
requested from Congress an additional $10.6 billion in assistance over 
the next two years. The Fiscal Year 2008 request and the Fiscal Year 
2008 Global War on Terror Emergency request represent a 41% increase 
from the Fiscal Year 2006 budget and supplemental levels of $1.01 
billion. Not only does the $2 billion in reconstruction funds represent 
a significant increase, but it represents a significant shift in 
strategy. The funding in the Fiscal Year 2007 Supplemental and the 
Fiscal Year 2008 Global War on Terror Emergency Fund reflects a shift 
in strategy by increasing funding for critical infrastructure 
requirements, enhancing rural development and providing alternative 
livelihoods, bolstering Provincial Reconstruction Teams, and 
strengthening governance in the southern and eastern regions. 
Accelerating reconstruction efforts in these key sectors is a critical 
component of the strategy to stabilize the country against the Taliban 
and other insurgents. Specifically, roads, electric power, and rural 
development are our top priorities for jump-starting the economy, 
extending the reach of the Afghan government, and knitting the country 
together.
    The reconstruction portion of the preliminary Fiscal Year 2007 
budget levels represents a 66% increase over 2006 for roads, especially 
at the district level; electricity grids and generating capacity; rural 
development, irrigation, and agriculture; government centers, training 
personnel, and meeting local needs through Provincial Reconstruction 
Teams; and strengthening all five pillars of the Afghan counter-
narcotics strategy: public information, interdiction, eradication, law 
enforcement, and rural development. The Administration intends to 
sustain these efforts in 2008.
    The $8.6 billion requested for security assistance will be used to 
further train and equip the Afghan National Security Forces. Our plans 
for using these funds reflect an urgent need to augment our work to 
train effective and legitimate security forces that can protect the 
Afghan people from extremists and insurgents.
    For the police, the course is well-charted regarding training, and 
we expect it to remain the same. We expect, however, to increase 
emphasis on police equipment and infrastructure. Training and equipping 
efforts augment and reinforce each other. We must look comprehensively 
at all the factors that will lead to success for the Afghan police. It 
will take a sustained effort over several years to institutionalize the 
police force and establish a self-sustaining program, let alone 
adequately assess the program.
    We also intend to boost our efforts to train and equip the Afghan 
National Army. In Fiscal Year 2007, we plan to intensify our efforts to 
train this force so the Afghan Government can address security 
concerns. The Afghan army is currently fighting alongside NATO 
International Security Assistance Forces, and is an integral component 
of our efforts to take on the Taliban and extend the reach of the 
Government of Afghanistan's authority. At the moment, the army is in 
need of more soldiers and more equipment to meet the current security 
challenges. The $8.6 billion in requested security assistance funds 
will help us reach our goal of a well-trained and effective Afghan 
army.
Nepal


    Question. Although the Communist Party of Nepal--Maoist has reached 
a peace accord with the political parties, placed its weapons under 
international monitoring, and joined the transitional assembly, the 
U.S. Government has not yet taken the Maoists off the Specially 
Designated Nationals list. What specific benchmarks would the Maoists 
need to meet in order to be taken off the Specially Designated 
Nationals list? What restrictions on U.S. aid to Nepal are legally 
mandated by the inclusion of the Maoists in the transitional 
government?

    Answer. The United States strongly supports the peace process in 
Nepal. We will do all we can to help this process succeed, so that the 
people of Nepal can choose their government through a democratic 
process. While the Maoists have cooperated to some extent, their 
cooperation is not yet full or complete. Despite commitments to abandon 
violent pursuit of a one-party authoritarian state in favor of peaceful 
participation in a multi-party democratic system, the Communist Party 
of Nepal--Maoist continues to use violence, extortion, and intimidation 
in pursuit of its political aims.
    With specific regard to the submission of Maoist arms to 
international monitoring, Maoist leader Prachanda has boasted in recent 
weeks that many Maoists weapons and combatants remain outside the 
designated cantonment areas, in violation of the Comprehensive Peace 
Agreement.
    The Maoists' persistent violations of commitments they have made in 
the peace process call into question the depth and seriousness of their 
commitment to peaceful, multi-party politics. At a minimum, the 
Communist Party of Nepal--Maoist must submit to the rule of law, 
participate in free and fair elections to a constituent assembly, and 
accept the results of those elections to prompt a review of the 
Communist Party of Nepal--Maoist's Specially Designated Global 
Terrorist status.
    The designation of the Communist Party of Nepal--Maoist as a 
Specially Designated Global Terrorist organization, among other things, 
prohibits the provision of goods, funds, or services to the Maoists by 
U.S. persons, including the U.S. Government. The Department of State 
and USAID obtained a license from the Department of Treasury's Office 
of Foreign Assets Control to continue our assistance to the Government 
of Nepal even if the Maoists join the cabinet, which they are expected 
to do prior to constituent assembly elections. This action reflects our 
strong support for the peace process in Nepal and our dedication to do 
everything we can to help it succeed, despite our continued 
reservations about Maoist motives and intentions.
                            un peacekeeping


    Question. The FY 2008 request to pay assessed dues to UN 
Peacekeeping, (the CIPA account) is slightly less than that of last 
year ($1.11 billion, from $1.14 billion in 2007). Why isn't the request 
higher, given that UN Peacekeeping Operations have grown markedly in 
the past few years, and that troop levels will likely increase this 
year with the anticipated large mission in Darfur? How will this amount 
fully cover our dues for these missions?

    Answer. The President's budget includes a request for $1.107 
billion for contributions to UN peacekeeping activities in FY 2008. The 
exact requirements for UN peacekeeping funds for future years cannot be 
predicted, because the size and cost of UN peacekeeping missions depend 
on UN Security Council decisions based on conditions on the ground and 
UN General Assembly review of the financial implications associated 
with those decisions. Within the amount of the President's overall 
budget, our FY 2008 request is based on our estimate of the 
requirements that takes into account such relevant factors as 
uncertainties about the future size of missions as well as the UN 
assessment rate and the 25% rate cap consistent with current law. The 
request for FY 2008 reflects assumptions that we will be able to reduce 
costs of missions while maintaining the UN's essential role in 
peacekeeping activities.
     We will constantly reassess and manage resources within the 
account for Contributions for International Peacekeeping Activities 
(CIPA) to ensure that UN peacekeeping operations are adequately funded.


    Question. Did the United States pay its dues to the United Nations, 
the International Atomic Energy Association (IAEA), and the other 40-
some international organizations to which we belong, in full and on 
time last year?
          a. Are we in arrears in any of these organizations right now 
        (in addition to current arrears for peacekeeping)? Please be 
        specific.
          b. Do we anticipate that we will be in arrears in 2007?
          c. Does the FY 2008 budget request provide full funding to 
        pay all of our bills in full and on time to these 
        organizations? If not, why?

    Answer. Since the 1980s, the Department's practice has been to 
defer payment of part or all of the dues owed the United Nations, many 
of its affiliated organizations, and several other large international 
organizations until the end of the calendar year, using subsequent 
fiscal year funds to pay assessed contributions that were due at the 
beginning of the calendar year. In each of the past three years, the 
Department was able to absorb funding shortfalls by extending the 
deferral of payments to additional organizations. However, the 
Department essentially exhausted the capacity to do this when 
addressing the FY 2006 funding shortfall. Thus, going into arrears 
became unavoidable in FY 2007.
    While the Department has paid most of its calendar year 2006 
assessed contributions to these organizations, part of the 
contributions remained unpaid after the end of the calendar year, 
resulting in U.S. arrears at the following organizations: the United 
Nations, the United Nations War Crimes Tribunals, the Food and 
Agriculture Organization, the International Atomic Energy Agency, the 
International Civil Aviation Organization, the International Labor 
Organization, the International Telecommunication Union, the United 
Nations Educational, Scientific, and Cultural Organization, the 
Universal Postal Union, the World Health Organization, the World 
Intellectual Property Organization, the World Meteorological 
Organization, the Pan American Health Organization, the Inter-American 
Institute for Cooperation on Agriculture, the North Atlantic Treaty 
Organization, the Organization for Economic Cooperation and 
Development, the Secretariat for the Pacific Community, the 
Organization for the Prohibition of Chemical Weapons, the World Trade 
Organization, the International Agency for Research on Cancer, and the 
International Bureau for Weights and Measures.
    The U.S. will remain in arrears at these organizations throughout 
2007, because under the continuing resolution the FY 2007 funding level 
for the Contributions to International Organizations (CIO) account is 
$130 million less than that needed to avoid arrears at these 
organizations. The FY 2008 request of $1.35 billion for the CIO 
account, plus $53 million in the emergency supplemental request, is 
sufficient to pay FY 2008 assessments, but not to pay FY 2008 
assessments plus accumulated arrears.


    Question. A recent Organization for Economic Cooperation and 
Development (OECD) analysis of ``official development assistance,'' 
showed that the share of multilateral funding within U.S. development 
assistance fell from 26 percent in 2000 to 8 percent in 2005. Given the 
benefits burden-sharing, and the expertise of many UN agencies in 
addressing development needs, can you explain this shift and the 
apparent preference for bilateral initiatives over of multilateral 
cooperation?

    Answer. The apparent decrease in Official Development Assistance 
(ODA) to multilateral agencies reflects three factors: permitted 
changes in the reporting of ODA statistics by the United States to the 
Development Assistance Committee (DAC) of the Organization for Economic 
Cooperation and Development (OECD); significantly larger debt 
forgiveness in 2005; and the unique needs for services in recent years 
that lie outside of the expertise of UN agencies. In addition, the USG 
can better track bilateral funding to ensure that each American 
taxpayer dollar is used as effectively and efficiently as possible. In 
fact, U.S. utilization of UN and other international organizations 
(i.e., channels of delivery ``to'' and ``through'' these entities) 
increased significantly, from $2.6 billion in 2000 to $4.2 billion in 
2005.
    Changes in ODA reporting caused much assistance provided to 
international organizations to be reported as bilateral rather than 
multilateral ODA. According to the DAC Statistical Reporting 
Directives, Members should report as bilateral aid any contributions 
they make through multilateral agencies that are earmarked for specific 
countries or purposes, and report as multilateral aid any contributions 
to core operations of multilateral organizations.
    In 2004-2005, the DAC agreed to report donor contributions to UNHCR 
as bilateral aid when the donor's contribution is tied to a specific 
country/region and/or purpose. The United States agreed with this 
change in reporting for its 2004 data onward, and has assigned as 
bilateral aid all contributions from the Bureau of Population, 
Refugees, and Migration (PRM) involving multilateral organizations.
    The other change in ODA presentation involved U.S. food aid through 
the UN's World Food Program (WFP). From 1960 through 2001, the United 
States reported food aid through WFP in DAC statistics as multilateral 
flow. Since commodity and related costs for U.S. food aid through WFP 
can be identified to the recipient country or region, this historical 
multilateral assignment conflicts with the bilateral certainty of these 
flows and the current emphasis on bilateral attribution of aid. 
Accordingly, the United States identified all food aid through WFP as 
bilateral flows and reported them to specific countries and regions 
from 2002 onward.
    Bilateral debt forgiveness increased from $21 million in 2000 to 
$4.2 billion in 2005 which had a significant impact on lowering the 
multilateral portion of total ODA from the United States. The 
multilateral percentage was further lowered by large outlays of 
Economic Support Funds directly to aid recipient countries, and by the 
utilization of U.S., foreign, and indigenous entities to meet very 
large physical and political infrastructure needs in Iraq, Afghanistan, 
and other aid recipient countries that lie outside of the expertise and 
capabilities of UN and international organizations.


    Question. The UN Secretariat building is unsafe and unhealthy--
deficient in many municipal safety, fire, and building codes, energy 
efficiency, and security requirements. Since 2003, the UN Secretariat 
and many member states have been pursuing a ``Capital Master Plan'' 
renovation project to make the necessary health and safety projects. 
Although progress has been made on planning, the project is far behind 
schedule. What is the current status of the project? What is the 
anticipated timeline for groundbreaking and project completion? What is 
the U.S. doing to support the project, and its being completed in an 
efficient manner?

    Answer. The UN headquarters renovation project, or Capital Master 
Plan (CMP), is currently in the final design phase, with construction 
documents being developed and designs underway for project swing space. 
Based on the current project schedule, the construction start is 
planned for early 2008 and project completion for 2014.
    In June 2006, the U.S. joined other Member States in agreeing to a 
project scope, enabling the UN to proceed with project design 
activities. In December 2006, we joined agreement on project schedule, 
budget, and financing methodology, providing the UN with all decisions 
needed to continue executing the project as planned. In addition, 
through our Mission to the UN, the U.S. is offering host country 
support by working with the UN and the City of New York to ensure a 
clear way forward on how the UN renovation project will be treated in 
relation to the City's established review and approval processes for 
construction projects. This will help keep the project progressing as 
planned.
                             climate change


    Question. In a Federal Register notice dated April 8, 2005, the 
Department of State said that the Fourth U.S. Climate Action Report was 
due to the UNFCCC secretariat no later than January 1, 2006 and that a 
draft report would be made available for public comment in the summer 
of 2005. (70 Fed. Reg.18066-67) That report should provide information 
on steps being taken to implement the Convention, an inventory of 
emissions, vulnerability, climate change impacts, estimates of the 
effects of policies, and U.S. domestic and international efforts, among 
other things. Why has the report not been made available for public 
comment? When will the United States comply with its obligation to 
provide that report to the UNFCCC?

    Answer. The submission of this report is important, and we are 
working diligently to complete the process as soon as possible. The 
January 1, 2006, deadline set by the Parties is not legally binding.
    The report was developed and reviewed by a broad range of 
departments and agencies that have significant responsibilities for 
climate-related activities. Such a review can take a substantial amount 
of time. The report includes contributions from the Department of 
Energy, the Department of State, the National Aeronautics and Space 
Administration, the National Atmospheric and Oceanic Administration, 
the Agency for International Development and the Environmental 
Protection Agency, among others. We are finalizing a draft for public 
comment and we expect to be announcing the draft via a Federal Register 
Notice shortly.
    The report focuses on actions the United States is taking to 
address climate change. As required by Framework Convention guidelines, 
it provides information about the impacts of our programs on overall 
U.S. greenhouse gas emission trends. It also identifies actions the 
U.S. is taking to better characterize and respond to these trends.


                               __________


            Responses to Additional Questions Submitted by 
                    Senator Lugar to Secretary Rice


    Question. Meeting in Washington in February, the Quartet 
pledged to ``support efforts to put in place a process with the 
goal of ending the occupation that began in 1967'' and to 
``give active follow-up to these meetings and to remain closely 
engaged.'' Please describe (1) the diplomatic strategy 
envisioned by the Quartet, (2) the role of the U.S. in its 
implementation, and (3) the strategy for countering any efforts 
by Iran and Syria to block progress.

    Answer. The Quartet Principals--Russian Foreign Minister 
Sergei Lavrov, United Nations Secretary-General Ban Ki-moon, 
High Representative for European Foreign and Security Policy 
Javier Solana, German Foreign Minister Frank-Walter Steinmeier, 
European Commissioner for External Relations Benita Ferrero-
Waldner, and I--have pledged to a process aimed at ending the 
occupation that began in 1967 and creating an independent, 
democratic and viable Palestinian state, living side-by-side in 
peace and security with Israel, and reaffirmed their commitment 
to a just, lasting, and comprehensive peace based on UNSCRs 242 
and 338. The Quartet, in its most recent meeting on February 
21, reaffirmed its support for a Palestinian government that 
renounces violence, recognizes Israel, and accepts previous 
peace agreements and obligations, including the Roadmap.
    As for the role of the U.S. in its implementation, the Quartet has 
welcomed recent U.S. efforts to facilitate discussions between the 
parties and the trilateral summit meeting that was held on February 19 
between Prime Minister Olmert, President Abbas and the U.S., that could 
begin to define more clearly the political horizon for the Palestinian 
people, and help engender a sense of partnership. The Quartet has 
affirmed the primacy of the Roadmap and welcomed U.S. efforts to 
accelerate progress in its implementation.
    As for Iran and Syria, we continue to work, in consultation with 
our friends and allies, including our Quartet partners, to strengthen 
responsible parties and states in the Middle East to counter violent 
state-sponsored extremism. We view non-state actors such as Hizballah 
and HAMAS to be aligned with Iran and Syria in attempting to 
destabilize the region.


    Question. The Baker-Hamilton Commission, as well as a number of 
former senior U.S. officials, has advocated opening a dialogue with 
Syria to address U.S. concerns regarding Iraq, Lebanon, and Arab-
Israeli peace. The Commission specifically recommends re-starting talks 
between Syria and Israel on the Golan as a means of obtaining Syrian 
cooperation on these issues. Syrian leaders have publicly stated their 
readiness to engage with the U.S. and Israel. Recent reports in the 
Israeli press indicate that senior Israeli officials might also be 
interested in exploring talks with Syria, but have been dissuaded from 
doing so by Washington. Please explain the basis for the 
Administration's position that isolation is preferable to dialogue as a 
means of achieving U.S. objectives in the region.

    Answer. Syria's on-going activities, which include destabilizing 
actions in Iraq and Lebanon, support for terrorism, and significant 
violations of the human rights of the Syrian people, have undermined 
the prospects for peace and stability throughout the region.
    On numerous occasions U.S. officials have spoken candidly and 
firmly with the Syrian Government about U.S. concerns. Then-Secretary 
of State Powell met with Syrian President Basher al-Asad in Damascus in 
May 2003. Then-Assistant Secretary of State for Near Eastern Affairs 
Burns met with Asad in Damascus in August 2003 and again in September 
2004; Then-Assistant Secretary of Defense Rodman participated in the 
latter meeting. Powell met with Syria's Foreign Minister, Farouk al 
Shara'a, in September 2004, and then again in November 2004. Then 
Deputy Secretary of State Richard Armitage also met with Asad in 
January 2005.
    In each of these efforts, the Syrian Government promised to take 
action against the flow of foreign fighters into Iraq, to end their 
interference in Lebanon, to expel Palestinian terrorist leaders from 
Damascus, and to end Syrian state sponsorship of terrorism. The Syrian 
government has not yet taken any demonstrable action to address these 
longstanding concerns.
    Israel officials, including Foreign Minister Livni, maintain that 
Israel is not seeking negotiations with Syria, as they do not believe 
the current climate would lead to negotiations towards a final peace 
settlement.


    Question. The promotion of democracy has been the stated goal of 
the Administration in Iraq and in the Middle East at large. James 
Madison, in The Federalist Papers, famously warned against the 
``violence of faction'' that occurs in democracies. What specific 
techniques are we employing in our democracy programs to contain, 
control and channel the natural inclination toward destructive 
factionalization? What new lessons have we learned in this regard from 
Iraq and our work in other transitional nations?

    Answer. Factional violence is best controlled and contained by 
strong democratic institutions that are developed over time with proper 
training and mentoring. Through our democracy programs, we are training 
Iraqis who represent various backgrounds to overcome their sectarian, 
ethnic, and religious divisions. These democracy programs are designed 
to promote the development of new multi-ethnic and multi-sectarian 
political parties, which can build effective governing coalitions.
    We also support the creation of diverse civil society organizations 
and institutions of governance through leadership and advocacy training 
programs to both Iraqi men and women so they can fully participate in 
the political process.
    Although increased violence in Baghdad has slowed our democracy 
building projects, our NGO partners remain critical elements of our 
strategy to assist Iraq's transition to self-reliance. Because of 
lessons learned in Iraq and other post-conflict countries, we are 
currently in the process of initiating new programs that will assist 
community leaders from local and provincial communities to reject 
violence and work to isolate extremists who are pursuing this 
``violence of faction.''


    Question. For the past 22 years, the Ronald Reagan-inspired 
National Endowment for Democracy, and its related four institutes, has 
been working to overcome divisions in society at the grass roots levels 
in many transitional nations, especially in the former Soviet Union and 
Warsaw Bloc. Do you think this model, using non-governmental 
organizations funded in part by the U.S. Government to foster 
leadership and inclusiveness across the full range of society, is the 
best approach in the Middle East and among predominantly Muslim 
countries? Or should the U.S. government actively support political 
leaders in these countries who, if successful, will be friendly toward 
the United States and rule within internationally accepted norms. The 
criticism of a more neutral approach is that it can lead to the 
election of extremists. The criticism of the selective approach is that 
it is not democracy promotion.

    Answer. The U.S. government uses a variety of tools and tactics to 
promote democracy and human rights, and we tailor our approach to the 
unique situation in each country--in every region around the world. 
Non-governmental organizations such as the National Endowment for 
Democracy and its related institutes, funded in part by the United 
States Government, play an important role in strengthening the ability 
of civil society in countries around the world to educate the public 
about basic freedoms, to hold governments accountable to their people, 
and to advocate for democratic reforms. Through the Bureau of 
Democracy, Human Rights and Labor, and the Middle East Partnership 
Initiative, we also provide funds to U.S. non-governmental 
organizations that provide support to indigenous reformers and non-
governmental organizations advocating for greater freedom and 
democracy, including in the Middle East and a broad range of Muslim 
countries.
    Through technical assistance and voter education programs, we seek 
to help ensure free and fair elections in countries throughout the 
world. We do not take a position on individual candidates, but are 
consistent in our message that we will support leaders who govern 
democratically and behave within acceptable international norms.


    Question. The State Department and USAID have been reviewing how 
funds are disbursed to non-governmental organizations (NGOs) that 
promote economic development, health, welfare, environmental protection 
and democracy in developing and transitional countries. NGOs that are 
non-profits under American tax laws are different from contractors or 
NGOs that are for-profit corporations, whether public or private in 
their legal standing. The difference between grant-making practices and 
contracting practices by the State Department and USAID create 
different financial and accountability challenges for non-profit and 
for-profit NGOs. How is the State Department and USAID reviewing this 
situation and engaging the various NGOs in the Department's rule-making 
process?

    Answer. Both the Department of State and USAID follow standard, 
federal rule-making procedures in publicizing proposed changes to 
regulations. In developing proposed changes, USAID and State policy 
experts consult to ensure consistency in policies and practices.
    The Office of the Director of Foreign Assistance, as well as 
officials from USAID and the State Department, have held numerous 
sessions with diverse members of the NGO community to discuss the 
foreign aid reforms underway. Preliminary consultation with the NGO 
community has been an important step in introducing effective and 
appropriate changes into the grant-making process.
    USAID has put in place specific outreach initiatives to its 
partners. They include an Ombudsman Partners' Day whereby the Ombudsman 
hosts a quarterly forum for dialogue with the public. The Ombudsman 
then communicates industry concerns to the Office of Acquisition and 
Assistance. In addition, USAID has fully implemented the use of the 
Federal Document Management System and employs the regulations.gov 
website for formal rulemaking. This process includes OMB review and 
opportunities for public and government-wide comment on rulemaking.


    Question. There has been a great deal of debate and discussion 
among various U.S. Government agencies and bureaus about public 
diplomacy (PD), strategic communications (SC), information operations 
(IO), and psychological operations (psyops). The Department of Defense 
is beginning to play a leading role is such discussions and is sending 
military information teams to a number of embassies. It is clear that 
American military and diplomatic representatives are at risk in many 
parts of the world because of disinformation, misinformation and 
propaganda efforts of various American enemies. Are efforts to counter 
these attacks best led by the State Department or the Department of 
Defense? How are you and ambassadors making certain that military 
information programs are integrated into a broader public diplomacy 
framework?

    Answer. The Defense Department has significant communication 
resources and is a key player in our public diplomacy strategy and 
interagency team.
    Under Secretary Hughes has made strengthening public diplomacy 
linkages between the State Department and Department of Defense a 
priority.
    In particular, she has used the pilot country project to further 
integrate State-DOD efforts in missions overseas by making them full 
partners in the planning and executing of the public diplomacy country 
strategies. DOD representatives are key members of the team that 
overseas this initiative.
    Under Secretary Hughes recognizes the value of the MIST (military 
support team) deployments and has encouraged missions to take advantage 
of this DOD support. MIST teams have made important contributions, and 
this year more than 25 MIST deployments will help our embassies 
communicate U.S. policy and publicize U.S. activities in foreign 
countries. MIST teams deploy at the request of ambassadors and work 
best when they are well integrated into the operations of the country 
team under the supervision of the embassy public affairs officers. We 
are in regular contact with the Joint Staff to coordinate MIST 
deployments, and ensure they support mission's overall public diplomacy 
goals and objectives.
    Last year Karen Hughes assigned a former ambassador to serve as her 
senior public diplomacy representative at the Defense Department, 
including Under Secretary Edelman's policy office (USD/P), the Joint 
Staff, and OSD Public Affairs. We have identified a number of areas in 
Washington and the field where closer cooperation and coordination can 
amplify USG strategic communication and public diplomacy.
    Key among these is the important role that DOD will play in the new 
Counterterrorism Communication Center (CCC), an important new 
initiative of Under Secretary Karen Hughes to fight terrorist ideology 
and propaganda. The center will provide strategic leadership and 
coordination of our efforts to win the war of ideas. She has proposed 
that a senior military officer serve as its deputy director.
    Already State and Defense are exchanging and benefiting from cross-
agency sharing of foreign media analysis, public opinion polling, and 
funded research. DOD is an major consumer of our daily media messaging 
produced by the Rapid Response Unit, and our Arabic media hub works in 
tandem with CentCom's Arab media outreach team in Dubai. We have 
established a Fusion Team that brings together State, DOD and other USG 
agencies to share information and discuss public diplomacy issues.
    We have begun to share training resources between the Foreign 
Service Institute and DINFOS (Defense Information School at Ft. Meade). 
For example, the next Public Affairs Officer at our embassy in Kabul 
will be an April 2007 graduate of the DINFOS Joint Senior Public 
Affairs Course.
    Under Secretary Hughes has also discussed with Deputy Secretary 
England a number of areas where we can tie DOD's strategic 
communication to our public diplomacy, including the development of a 
video and image database to document America's diplomacy of deeds, so 
much of which is done by our military colleagues. Our Departments' 
combined efforts, under the direction of ambassadors and in the context 
of the interagency country team, ensure that we are not only countering 
our adversaries' disinformation, misinformation and propaganda, but 
advancing America's bold vision for a peaceful, democratic future.


    Question. In the war environments of Iraq and Afghanistan, under 
specific legislative direction, the Department of Defense has assumed 
responsibility for coordinating the training of police forces. The 
Department of Defense has requested such authority worldwide. What 
would be the impact of transferring this authority from the Department 
of State to the Department of Defense in non-combat countries?

    Answer. The assignment of civilian police and military training to 
DoD in both Iraq and Afghanistan was the result of the unique 
requirement for the military to provide force protection, 
transportation, and general logistics support for such activities under 
active combat conditions.
    We appreciate the need for select new DOD authorities, coordinated 
closely with the Department of State, as an essential means of 
addressing rapidly evolving security challenges posed by, among other 
things, the GWOT. This is particularly true in environments where U.S. 
forces are present, and may include training and equipping forces that 
are performing traditional military functions.
    The Secretary has expressed support for such authorities in many 
cases, contingent upon the explicit preservation of her statutory role 
with respect to foreign assistance, through their exercise ``with the 
concurrence of the Secretary of State,'' and in practice through joint 
development procedures.
    In sum, any new authorities should be tailored toward the common 
goal of providing for closer integration of the Administration's 
foreign assistance efforts, consistent with the Secretary's 
responsibility for the overall supervision and general direction of 
U.S. foreign assistance.


    Question. How do you intend to maintain your primacy in foreign 
policy if you lose control of foreign assistance, one of the most 
important tools that you have at your disposal to define and pursue 
U.S. interests?

    Answer. I take my responsibility for the overall supervision and 
general direction of U.S. foreign assistance exceptionally seriously. 
Select new DOD authorities offer an essential means of addressing 
rapidly evolving security challenges posed by, among other things, the 
GWOT. This is particularly true in environments where U.S. forces are 
present. I support such authorities in many cases, contingent upon the 
explicit preservation of my aforementioned statutory role with respect 
to foreign assistance, through their exercise ``with the concurrence of 
the Secretary of State,'' and in some cases through joint development 
procedures. In sum, any new authorities should be tailored toward the 
common goal of providing for closer integration of the Administration's 
foreign assistance efforts, consistent with my statutory responsibility 
regarding U.S. foreign assistance.


    Question. How can the process designed by Randy Tobias, dual hatted 
as your foreign assistance director and Administrator of USAID, be made 
to include Defense Department foreign assistance?

    Answer. The leadership role of the Director of U.S. Foreign 
Assistance is intended to provide coordination and guidance to all U.S. 
foreign assistance, including foreign assistance delivered through 
other agencies and entities of the USG such as the Millennium Challenge 
Corporation and the Office of the Global AIDS Coordinator. With 
specific respect to the Defense Department, we are working on putting 
the processes in place to ensure that foreign assistance provided under 
DOD authorities advances our foreign policy goals and is included in 
and coordinated with country strategic and operational planning.


    Question. How does the President's budget and your Transformational 
Diplomacy strategy sustain and encourage regional thinking and 
cooperation? Have specific programs, funding or equipment been 
identified for that purpose? Are you planning to regularly convene 
Regional Security Initiative meeting?

    Answer. One of the strategic principles upon which the FY 2008 
budget was built was to invest in states which can serve as anchors to 
long term regional stability and prosperity. Further, the Foreign 
Assistance Framework recognizes that not all foreign assistance is or 
should be implemented on a country basis, and that some issues (e.g. 
trade capacity) are best addressed as part of a global or regional 
strategy. The Framework includes a specific category for global and 
regional initiatives defined as those activities that advance the five 
objectives, transcend a single country's borders and are addressed 
outside a country strategy, e.g. the Regional Security Initiative 
Program. The Department has convened five Regional Security Initiatives 
thus far--in Southeast Asia, the Neighbors of Iraq, the Eastern 
Mediterranean, Western Mediterranean, and East Africa--and has plans to 
convene additional RSIs during 2007. We anticipate that each of the 
RSIs will meet approximately once each quarter. In addition, the 
Department leads a Washington-based interagency process to support the 
RSIs and to ensure that program support for the initiatives generated 
by the RSIs is identified. As a result of this interagency process, the 
regional approach that the RSIs represent is also increasingly being 
reflected in the scope and format of the training and assistance 
programs that we have established. Thus, the RSIs identify regional 
challenges and propose the means for addressing those challenges and 
the interagency then uses training and assistance programs not only to 
build capacity but also to bring regional actors together, help them 
develop common policies and procedures and also, through their shared 
training, help promote regional institutional cooperation.


    Question. Except for your position on the nine-member Broadcasting 
Board of Governors (BBG), there are two vacancies, and the terms of the 
other six Governors have expired. Under the statute, Governors whose 
terms have expired may remain in office until they quit. BBG Chairman 
Ken Tomlinson has announced he will quit when replaced. Given the 
importance of public diplomacy in advancing American interests abroad 
through communications of news and information, when will the 
Administration submit to the Senate the replacements of re-nominations 
to the BBG?

    Answer. We agree with you on the importance of filling the Board 
vacancies and getting a new chairman in place. That is one reason that 
the Administration decided to fill one of the two vacancies you mention 
with the recess appointment of Mark McKinnon. Under Secretary Karen 
Hughes, who represents me on the board, has been working closely with 
the White House on these matters and we understand that the Office of 
White House Personnel is completing work on the nomination of a 
replacement for the outgoing Chairman of the BBG, as well as on 
candidates for the remaining vacant position on the board and the 
renomination of current members whose terms have expired.


    Question. The goals of USG broadcasting services have evolved since 
World War II and the Cold War. Do you think these services should 
actively promote American interests in countries in which they are 
broadcast? Or should they be considered a ``public good'' provided by 
the USG?

    Answer. We believe that U.S. Government international broadcasting 
should promote U.S. interests. In our view, this is consistent with 
BBG's statutory mandate, which states that U.S. international 
broadcasting shall ``... be consistent with the broad foreign policy 
objectives of the United States.'' (22 USC 6202 (a) (1)). The statute 
also states that U.S. international broadcasting shall include:

          . . . clear and effective presentation of the policies of the 
        United States Government and responsible discussion and opinion 
        on those policies, including editorials, broadcast by the Voice 
        of America, which present the views of the United States 
        Government. (22 USC Section 6202(b)(3))

    In this regard, the statute makes clear that my role as an ex 
officio member of the Board of Governors is to help provide policy 
information and guidance: ``Foreign policy guidance. To assist the 
Board in carrying out its functions, the Secretary of State shall 
provide information and guidance.'' (22 USC 6205 (a))
    None of these provisions is inconsistent with the requirement that 
international broadcasting deliver to its audiences ``news which is 
consistently reliable and authoritative, accurate, objective, and 
comprehensive,'' (22 USC 6202(b)(1)). Indeed, we think that by 
maintaining its credibility with its audiences as a source of objective 
news and information, U.S. international broadcasting is all the more 
effective in conveying the U.S. policy message to foreign audiences.


    Question. Last week I met with Russian Foreign Minister Lavrov who 
expressed concern that the U.S. was not interested in negotiating arms 
control and nonproliferation cooperation with Russia. He singled out 
the lack of progress in negotiations to extend the verification regime 
of the START I treaty beyond 2009. Will you please share your thoughts 
on this and outline for us the Administration's arms control strategy 
for the next two years?

    Answer. President Bush's vision is to change the relationship 
between the United States and Russia so that nuclear weapons are no 
longer the principal focus of our relationship. The Administration 
believes the overall objectives for our strategic security dialogue 
with the Russian Federation should reflect the end of the Cold War and 
an intent to pursue the goal of improving U.S.-Russia relations and 
developing a relationship based on areas of common interest.
    The START Treaty is scheduled to expire in December 2009. Neither 
we, nor the Russians want to extend START beyond 2009. The Treaty of 
Moscow, which will continue until 2012, provides for reductions 
substantially below START levels.
    In our view, simpler and less costly transparency and confidence 
building measures should replace START. These measures should be 
designed to enhance mutual confidence rather than to verify 
constraints. In this spirit, we are exploring with Russia a post-START 
arrangement based on transparency and confidence building measures. 
Under Secretary of State for Arms Control and International Security 
Affairs Robert Joseph met several times over the past few months with 
his Russian counterpart Deputy Foreign Minister Sergey Kislyak to 
discuss the post-START arrangement. At their most recent meeting on 
January 29 in Moscow, they agreed to hold experts talks to continue the 
exchanges on this subject.


    Question. The Department's FY 08 request includes a 10% cut to U.S. 
assistance for civil society, independent media, the rule of law, and 
human rights efforts in Russia. Given the assault these ideals are 
under, why would we cut these programs?
          a. Please outline the rationale that you used to reduce 
        funding for these critical social and political reforms in 
        Russia at this time?
          b. The U.S.-Russia Investment Fund proposed using funds from 
        its investment reflows to establish a foundation focused on 
        civil society and the rule of law. At a time when U.S. 
        assistance for these efforts in Russia is declining, why did 
        the Administration not make the $330 million available for 
        these important initiatives at no cost to the taxpayer?

    Answer. a. The promotion of democracy and the rule of law in Russia 
remains a top U.S. priority in our policy toward that country. Within 
the FY08 budget allocated for assistance to Russia, over half of 
funding continues to be devoted to supporting efforts to promote this 
goal--with particular focus on helping to strengthen civil society, 
democratic institutions, independent media and the rule of law.
    Our democracy programs support NGOs throughout Russia and 
especially those working to defend human rights and promote democratic 
values. They also bolster Russia's remaining independent media outlets; 
support rule of law by working with the judiciary, the defense bar and 
legal education; and help local governments become more responsive to 
the needs of citizens.
    Although the FSA budget for Russia has been reduced, U.S. support 
for Russia's democratic development will continue unabated through the 
use of funds recovered from previous activities. Specifically, the 
U.S.-Russia Investment Fund, which had been capitalized in the 1990's 
with FSA funds, will be plowing its profits into a new foundation that 
will be able to give grants to support the rule of law and the free 
flow of information in Russia. Similarly, funds recovered through the 
settlement of a civil lawsuit against a USAID contractor are being 
programmed to bolster Russian civil society groups by providing them 
with legal assistance, organizational development training, and 
opportunities to network with NGOs outside of Russia.
    b. The U.S.-Russia Investment Fund, like the Polish- and Hungarian-
American Enterprise Funds before it, was so successful that it is in a 
position to both endow a legacy foundation as well as return a portion 
of the original funding to the U.S. Treasury. The Polish and Hungarian 
funds established the precedent of returning half of the amounts 
provided by the U.S. to the U.S. Treasury. The Administration has 
applied that precedent to the Russia fund as well.
    The other half of the funds made available to TUSRIF and any 
additional proceeds from the liquidation of the funds will be used for 
the Russia legacy foundation.
    At no cost to the U.S. taxpayer, the U.S.- Russia Foundation for 
Economic Advancement and the Rule of Law will have a sizable endowment 
to advance rule of law and democratic principles in Russia.


    Question. Over the last 13 months, Russia has cut off or delayed 
oil or gas deliveries to Ukraine, Georgia, Lithuania, Latvia, and 
Belarus. These supply interruptions have impacted deliveries to other 
European states. I have proposed that NATO see the use of energy as a 
weapon as a reason to invoke Article V commitment, an attack on one as 
an attack on all.
          a. What steps does the Administration plan to take to counter 
        these worrisome developments?
          b. Do you believe NATO can play an important role in 
        responding to energy manipulation?
          c. I recently wrote to Chancellor Merkel at the onset of 
        Germany's assumption of the EU presidency urging her to make 
        trans-Atlantic energy cooperation a major focus. Please outline 
        your thinking on the role energy will play in this spring's 
        U.S.-E.U. summit.

    Answer. a. The Administration has spoken publicly and forcefully on 
many occasions about our concerns about these developments. We have 
worked in close coordination with our European allies to send a strong, 
united message to Russia that we expect it to be fully integrated into 
global energy markets as a transparent, reliable supplier of energy, 
and that it not use energy as a means to apply political and/or 
economic pressure against other countries. Energy is a global issue. 
Although the United States does not rely on Russian energy the way 
Europe does, we maintain an active dialogue with Europe on these 
issues. We are also working to uphold the commitments on energy 
security that all G8 members agreed to at the Summit in St. Petersburg 
last July. In general, we are wary of any one supplier exerting too 
much control over the market. For that reason, we are also pursuing 
conversations with European consumers to encourage them to consider 
alternative sources of gas supply, such as from Azerbaijan.
    In addition to promoting a diversification of sources of supply, we 
are encouraging our European friends and allies to diversify their 
energy mix. Greater use of nuclear power can be a clean, safe 
alternative to imported natural gas for many applications. Together 
with Europe, we are working to develop new cleaner technologies that 
will allow us to rely more on our abundant indigenous coal reserves. We 
support the efforts by the European Commission to achieve the full 
liberalization of the EU's electric and gas markets as well as to 
affect more cross-border interconnections of pipelines and cables that 
will allow energy to efficiently and securely flow from regions with 
excess supply to regions experiencing shortfalls, whether natural or 
man-made.
    b. We believe that NATO can play an important role in responding to 
these new energy challenges. As you know, the NATO communique issued 
after the Riga Summit in November included a new commitment to discuss 
energy issues in NATO, specifically to discuss ways NATO can help 
safeguard critical energy infrastructure. We will offer Russia and 
other interested partners the chance to participate in these 
discussions.
    c. The German EU Presidency and the Administration are both highly 
interested in making energy security issues a key topic for the U.S.-EU 
Summit. We are working with Germany and EU institutions to consider 
deepening existing U.S.-EU cooperation on energy technologies such as 
biofuels, energy efficiency, clean or near-zero emissions coal, and 
nuclear power, and are exploring ways to streamline our discussions on 
these topics. We are considering how to strengthen our cooperation to 
promote diversification of energy supplies and sources, such as from 
the Caspian region and Central Asia, in the case of Europe. We are also 
looking at new areas of cooperation on promoting energy security in 
third countries and working more closely with the private sector to 
accelerate trans-Atlantic development and deployment of key clean 
energy technologies.


    Question. What steps is the United States taking to support non-
Russian energy transportation routes such as a Trans-Caspian Pipeline, 
expansion of the Baku-Tbilisi-Ceyhan Pipeline, Odessa-Brody Pipeline, 
and the Nabucco Pipeline?
    Answer. On energy security, the U.S. Government has promoted 
diversification of energy supply and transport in the Eurasia region, 
focusing on promoting multiple pipelines as a centerpiece. The 
completion of the Baku-Tbilisi-Ceyhan (BTC) pipeline, which began 
operation last summer and will eventually transport more than one 
million barrels Caspian crude oil to world markets, is the crowning 
achievement of this effort thus far.
    To advance this policy, Assistant Secretary of State for Economic, 
Energy and Business Affairs Daniel S. Sullivan, Principal Deputy 
Assistant Secretary of State for South and Central Asia Steven Mann, 
and Deputy Assistant Secretary of State for European Affairs Matt Bryza 
led an inter-agency team to Kazakhstan, Azerbaijan, Turkey and Georgia 
February 4-15, concluding in Paris with an International Energy Agency 
(IEA) conference focused on developing the ``Southern Corridor'' for 
natural gas exports to Europe. The trip's purpose was to implement a 
three-pronged Eurasia energy strategy that emphasizes: (1) further 
developing Caspian energy resources, (2) competition, not 
confrontation, with Russia, and (3) engagement with Europe to further 
common interests in diversifying energy supply sources and routes. The 
team advanced U.S. interests in these three areas and generated 
momentum among companies and governments toward promoting a Southern 
Corridor. Realizing this vision in full will require sustained, high-
level attention for several years.
    The well-timed trip took advantage of a window of opportunity to 
promote a ``next phase'' of Caspian energy strategy, following 
completion of the BTC, that includes natural gas from Azerbaijan, 
Turkmenistan, and possibly Kazakhstan and Iraq, shipped via Caucasus 
pipelines into southern/central Europe; and North Caspian oil shipped 
via tanker, and later perhaps by pipeline, across the Caspian Sea to 
BTC. Senior foreign officials along the way emphasized the necessity of 
U.S. engagement and leadership; the USG team stressed that greater 
diversification bolsters regional energy security, and promotes 
sovereignty and independence in Central Asia and the Caucasus. 
Immediate next steps will focus on the Turkey-Greece Inter-Connector 
for natural gas and an oil tanker link between Kazakhstan and Baku/BTC.
    The U.S. Government remains actively engaged with Ukraine, 
particularly in terms of energy security. Most recently, U.S. 
Government officials met with a Ukrainian delegation in Washington for 
bilateral inter-agency consultations. Energy efficiency, conservation 
efforts, and application of new technologies were discussed, and State 
Department and DOE officials promoted the merits of foreign investment 
in Ukraine's energy sector. We are working to engage the EU in working 
cooperatively with us in Ukraine on increasing the efficiency and 
transparency of the Ukrainian energy sector.


    Question. Last fall, you created the new position of International 
Energy Coordinator at the State Department. It is an action similar to 
what Senator Biden and I are calling for in legislation, specifically 
in the Energy Diplomacy and Security Act.

   What funds have been requested for the activities of the 
        International Energy Coordinator? How will these funds be used?

   Does the Coordinator have authority to direct funds allocated to 
        other offices engaged in international energy activities?

   How many personnel have been allocated to work in the office of the 
        Coordinator?

    Answer. Resources for the Special Advisor to the Secretary and 
International Energy Coordinator are provided by the office of the 
Under Secretary for Economic, Energy and Agricultural Affairs. To date 
we have not requested additional funds for the activities of the 
International Energy Coordinator except for travel. The Coordinator 
travels regularly to meet with foreign officials, NGOs and the business 
community and to attend conferences and events that help further the 
Department's energy security priorities. For example, in February, the 
Coordinator traveled to Brazil with the Under Secretary for Political 
Affairs where he helped negotiate a draft memorandum with the 
Government of Brazil on biofuels cooperation.
    The Coordinator does not have the authority to direct funds 
allocated to other offices engaged in international energy activities, 
but closely works with those offices to advance the Department's and 
the President's priorities. The Coordinator is currently working on a 
project to create a fund allocating existing resources to address 
energy poverty that is to be reflected in the foreign assistance 
budget.
    We anticipate in coming weeks assigning several personnel from 
within and outside the Department to work directly with the 
Coordinator.


    Question. What funds has the State Department requested for 
international energy and environment activities? Please provide a 
break-down use of these funds by geographical region or country and 
focus of activity (e.g. Renewable energy, nuclear, greenhouse gas 
management, etc.).

    Answer. Consistent with the State Department's new foreign 
assistance framework for the FY 2008 budget request, attached is a 
chart with a breakdown of funds by country, region and global program 
in the following three program areas: modern energy services; natural 
resources and biodiversity and clean, productive environment.


    Question. How many active international energy and environment 
agreements is the United States government currently a party to? Please 
provide a breakdown by country and area of focus (e.g., renewable 
energy, nuclear cooperation, greenhouse gas management, etc.).
    Answer. The United States is a party to numerous bilateral and 
multilateral agreements that address international energy and 
environment, either directly or indirectly, and it is a participant in 
a number of bilateral arrangements regarding international energy 
cooperation.
    For example, the United States is a founding member of the 
International Energy Agency (IEA). Since its creation in 1974, the IEA 
has provided a structure for international co-operation in energy 
technology research and development (R&D) and deployment. Its purpose 
is to bring together experts in specific technologies who wish to 
address common challenges jointly and share the fruit of their efforts. 
Within this structure, there are currently over 40 active programs, 
known as the IEA Implementing Agreements. These Agreements contribute 
significantly to achieving faster technological progress and innovation 
at lower cost. Such international cooperation helps to eliminate 
technological risks and duplication of effort, while facilitating 
processes like harmonization of standards. Participants are welcome 
from OECD member and OECD nonmember countries, from the private sector 
and from international organizations. The U.S. participates in 38 of 
the 41 implementing agreements. Examples include: Advanced Fuel Cells, 
Demand-side Management, Fusion Materials, Bioenergy, Clean Coal 
Sciences, Solar Heating & Cooling, and Wind Energy Systems, Emissions 
Reductions in Combustion. The United States participates in the Energy 
Consultative Mechanism with the Government of Canada. The Department of 
State chairs this bilateral mechanism that meets once a year to discuss 
U.S.-Canadian energy integration and market issues. The United States 
also participates in the North American Energy Working Group (NAEWG) 
with Canada and Mexico. The Department of Energy chairs this trilateral 
working group as part of the Security and Prosperity Partnership. The 
group works to coordinate cross border energy issues and increase 
energy cooperation between the three countries.
    In addition, there are many agreements in the civil nuclear area, 
both at the government-to-government and at the agency level. For 
example, the United States is a party to a number of agreements 
concerning peaceful uses of atomic energy, pursuant to section 123 of 
the Atomic Energy Act of 1954, as amended. The United States has such 
agreements with Argentina, Australia, Bangladesh, Brazil, Canada, 
China, Colombia, Egypt, Indonesia, Japan, Kazakhstan, the Republic of 
Korea, Morocco, Norway, South Africa, Switzerland, Thailand and 
Ukraine, and with the International Atomic Energy Agency and with 
EURATOM. There is also such an agreement with respect to Taiwan. In 
general, these agreements provide a framework for civilian nuclear 
cooperation, including commercial nuclear trade in reactors, major 
components, nuclear materials, and reactor fuel.
    Also, the United States is a party to numerous bilateral agreements 
or arrangements on cooperation on energy initiatives, such as solar 
energy or coal technology.
    Regarding climate change, which involves both environment and 
energy, the United States is a party to the 1992 UN Framework 
Convention on Climate Change. The United States also participates 
actively in a number of international initiatives and fora that address 
various aspects of climate change, clean energy, and air pollution, 
such as the Asia Pacific Partnership on Clean Development and Climate, 
the Carbon Sequestration Leadership Forum, the Methane to Markets 
Partnership, and the International Partnership for the Hydrogen 
Economy. We also cooperate with a number of other countries on climate 
change-related projects through a number of bilateral Partnerships.
    We would be happy to provide additional information to the 
Committee, as appropriate, in response to particular inquiries.


    Question. What funds have been requested for the Global Critical 
[Energy] Infrastructure Protection Project?

    Answer. Global Critical Energy Infrastructure Protection is a key 
U.S. priority and the Department has been working both bilaterally and 
multilaterally on efforts to address it. With our G-8 partners, in 
APEC, and in the OAS, the U.S. is leading initiatives to promote 
greater recognition of the threat and propose programs to address it. 
Similarly, with U.S. encouragement, NATO is considering an initiative 
to monitor and assess energy developments that are linked to regional 
instabilities or terrorist threats.
    The U.S. is also working aggressively to address Critical Global 
Energy Infrastructure protection on a bilateral basis. The Department 
is working with experts from across the inter-agency to help key 
partners improve security measures at key installations and improve 
their own internal capabilities to protect these facilities. While the 
U.S. is aiding these efforts by providing expertise, no USG funds have 
been requested specifically for this initiative. Most of the countries 
with whom we are dealing have their own assets, and we anticipate that 
they will be both able and willing to cover the full costs of 
developing and implementing recommended security improvements.


    Question. How many personnel are to be designated to that project?

    Answer. At the moment, two individuals have been assigned to work 
full time on this project in the Office of the Coordinator for 
Counterterrorism and in the Bureau of Diplomatic Security's 
Antiterrorism Assistance program. As has been the case previously in 
this initiative, however, the Department has identified individuals in 
other agencies and other bureaus of the Department with subject matter 
expertise and utilized their skills in this project on an ``as needed'' 
basis.


    Question. What other, if any, energy infrastructure security 
programs are supported by the State Department?

    Answer. At the moment, there are no other similar programs within 
State.


    Question. What funds have been requested for U.S. support of the 
Extractive Industries Transparency Initiative?

    Answer. Our support for EITI is not a line item in our central 
budget request. However, the U.S. supports EITI as one part of our 
anticorruption and transparency strategies in a number of countries. A 
representative from the USG is a member of the EITI Board, and the USG 
provides technical assistance and bilateral financial assistance for 
EITI implementation through USAID missions in Nigeria, Peru, and DRC.


    Question. What training is undertaken by U.S. Embassy energy 
attaches? How many U.S. embassies currently have energy attaches? At 
what embassies are these officials currently posted? Does the 
Department have plans to expand energy expertise in U.S. embassies? If 
so, please describe those plans.

    Answer. Over the past ten years, the Department has facilitated the 
training of hundreds of USG employees on international energy and 
extractive industries issues. In cooperation with the Foreign Service 
Institute, the Department of the Interior's U.S. Geological Survey 
(USGS), and the Department of Energy (DOE), the Bureau of Economics, 
Energy, and Business Affairs (EEB) oversees the following curricula: 
the Resources Economics Seminar, the Coal & Power Industry Review, and 
the Oil & Gas Industry Review. The courses involve a combination of 
``classroom'' lectures and discussion as well as site visits to power 
plants, coal mines, oil rigs, industry equipment manufacturers, etc. 
The courses are designed to help participants become conversant in the 
methods, economics, technologies, and policy issues of the energy 
industry. In addition to Foreign Service Officers, enrollment in the 
courses is encouraged on the part of other government personnel (e.g. 
Foreign Commercial Service) who work to advance U.S. policy and/or 
trade and investment opportunities in these industries.
    Offered in cooperation with the Petroleum Equipment Suppliers' 
Association and the Department of Energy, the Oil & Gas Industry Review 
course presents an overview of the energy industry from the industry's 
perspective. It is designed to increase energy-reporting officers' 
knowledge of the petroleum and gas industry and international issues of 
concern to U.S. industry executives.
    The Resources Economics Seminar focuses on the economic importance 
of minerals and mining to all economies, and the critical issues of 
export dependence for many countries with economies supported by the 
mining and extractive industry sector. Geology, mineral economics, 
revenue management, corporate social responsibility, environmental 
issues, labor and human rights issues are addressed.
    The Coal & Power Industry Review course has a heavy focus on the 
environmental challenges associated with the utilization of the world's 
abundant reserves of relatively inexpensive coal to generate 
electricity. The course focuses on CO2 and criteria pollutant emissions 
control; carbon capture and storage; coal bed methane capture; 
utilization of syngas; recycling fly ash and other waste management 
issues; etc. Officers become better prepared to represent a wide range 
of USG commercial, economic and environmental issues.
    The Department of Energy has posted energy attaches in U.S. 
Missions in Beijing, Kiev, Moscow, St. Petersburg, Yekaterinburg, 
Paris, Tokyo, and Vienna. The Energy Department is planning to 
establish a position in Baghdad, as well. DOE recognizes the importance 
of greater visibility overseas through the posting of highly 
experienced and technically competent representatives who can advance 
U.S. and global energy security interests. The State Department works 
closely with DOE regularly.
    The State Department has officers in our missions in the major oil 
producing and consuming countries in the world who have energy issues 
as the central or a major part of their portfolios. Their primary 
duties are to promote U.S. energy policies, report on energy 
developments in the host country, work with the private sector on 
energy, and handle other energy-related matters. These embassies 
include those in Afghanistan, Azerbaijan, Bulgaria, Canada, China, 
Georgia, Greece, India, Iraq, Japan, Kazakhstan, Kuwait, Lithuania, 
Mexico, Nigeria, Pakistan, Russia, Saudi Arabia, Venezuela, Turkey, 
Turkmenistan, UAE, Ukraine, the United Kingdom, and the U.S. Missions 
to the OECD and the EU. Our Ambassadors, DCMs, Economic Section Chiefs, 
and other sections and agencies in the Embassy all spend considerable 
time and effort in pursuit of U.S. energy policy goals, especially in 
those countries that are major energy producers. All U.S. embassies 
have an officer whose portfolio includes energy. This is especially 
important in countries where energy poverty and high oil and gas prices 
are a major impediment to economic development.
    The Department is continuing to improve the energy expertise in our 
embassies through ongoing training, as described above, participation 
in conferences and seminars, and encouragement of the broad development 
of energy expertise in Department officers.


    Question. How many USAID country operations have energy projects? 
Is it possible to calculate the foreign aid investments we are making 
in energy projects? What restrictions, if any, exist to prevent greater 
allocation of finances for energy projects within the USAID budget?

    Answer. Under the combined State/USAID foreign assistance budget, 
twenty-two bilateral programs include energy projects, with total 
funding of $178 million. Central and regional programs will provide an 
additional $45 million for energy projects. These funds will help 
create enabling environments to encourage increased private investment 
in the energy sector and support public-private alliances that leverage 
millions more. As is the case with other sectors, the ability to 
provide greater funding for energy projects is constrained by overall 
resource levels and by the extent to which funds are committed to other 
earmarks and priorities.


    Question. What is the Administration's position on establishing 
strategic petroleum reserve coordinating mechanisms with the 
governments of China and India? What steps are being taken to 
incorporate China and India into the current International Energy 
Program, including coordination of strategic petroleum reserves?

    Answer. We have successfully pressed the International Energy 
Agency to intensify its outreach efforts toward China and India. A 
major component of the IEA's outreach is working with China and India 
on the creation and management of strategic oil reserves to protect 
against sudden supply disruptions. Chinese and Indian energy officials 
have been invited to participate in IEA discussions of strategic oil 
reserves management. Through the bilateral Strategic Economic Dialog 
with China and Economic Policy Dialogs with both countries, as well as 
through the multilateral engagement of the Asia Pacific Partnership on 
Clean Development and Climate, the APEC Energy Working Group, and 
China's own Five Party Energy Ministerial, we are encouraging China and 
India to adopt the market-oriented energy policies of the IEA member 
countries. No timeline for IEA membership has been discussed because 
China and India are not members of OECD. The IEA Governing Board has 
agreed, however, to begin inviting China and India to participate in 
selected IEA committee meetings, including of the Governing Board, as 
special observers. Chinese and Indian ministers attended the December 
2006 Governing Board meeting, for example.


    Question. What measures, if any, is the Administration taking to 
extend emergency preparedness expertise and coordinating mechanisms in 
case of energy losses for nations unable to join the International 
Energy Program? Has the Administration worked to advance this topic 
with the Governing Board of the International Energy Agency?

    Answer. The Administration has been very supportive of the 
International Energy Agency's outreach to non-member countries to 
improve those countries' energy emergency response capabilities. This 
support includes non-member country participation in the IEA's 
emergency response exercises, in-depth studies and recommendations 
regarding non-member country energy policies, and training assistance 
for non-member country officials in collection and reporting of energy 
related data.


    Question. What steps, if any, is the Administration taking to 
establish emergency preparedness arrangements with foreign governments 
in case of natural gas supply loss?

    Answer. We are working closely with many countries, particularly in 
Europe, to improve energy diversification strategies so they are less 
dependent on one or two dominant gas suppliers. We see diversifying 
away from over-reliance on a single energy supplier or a single form of 
energy as the best long-term means of enhancing energy security. We 
have not coordinated with other countries on the creation of strategic 
natural gas stocks. Since the early 1970s, we have actively coordinated 
with foreign governments on maintaining and deploying strategic oil 
reserves. We believe that the focus on oil stocks remains appropriate, 
given the more unified nature of the global oil market.


    Question. Is the Administration participating in negotiations under 
the United Nations Framework Convention on Climate Change? If so, what 
activities constitute such participation?

    Answer. The United States is a Party to the U.N. Framework 
Convention on Climate Change and participates in deliberations on all 
agenda items under this Convention. The U.S. generally takes positions 
on each UNFCCC agenda item at meetings of the Conference of the Parties 
and its subsidiary bodies, and works with other Parties to achieve 
acceptable resolutions of any issues that arise in the context of these 
agenda items.


    Question. Does the Department believe that establishment of the 
Asia-Pacific Partnership should be codified? What steps is the 
Department taking to ensure the durability of the partnership?

    Answer. The Asia-Pacific Partnership on Clean Development and 
Climate is a significant program that we have committed to implement. 
We do not see a need for it to be codified in U.S. law at this time. We 
have focused on receiving adequate funding through the appropriations 
process and in seeking authority to undertake Economic Support Fund 
(ESF) activities in China, given their importance to achieving climate 
and clean development goals.
    The durability of the Partnership will depend on our success in 
demonstrating the viability of a collaborative public-private 
partnership model for addressing these issues, and on our success in 
engaging the private sector from Partner countries. We have organized 
ourselves to maximize our potential for success. At a time when overall 
budgets are tight, the Department has allocated resources and brought 
in a strong and experienced team to oversee the work of the eight 
public-private sector task forces and of the programs that will 
implement the Partnership.
    Our success in these endeavors will of course depend greatly on 
securing full funding for the Administration's FY 2008 budget request 
of $52 million for the program. Not receiving adequate funding would 
send a strong message to partner countries and the U.S. private sector 
that this is not a U.S. government priority, and would diminish private 
sector engagement in the partnership and set back our relations with 
key partner countries.
    The extent of China and India's engagement in the Partnership over 
time will also be determined by the degree to which the USG can engage 
in cooperative programs within these countries. The Partnership is a 
significant opportunity for the United States to establish a 
successful, constructive partnership with China on issues relating to 
the nexus between environment and energy. Therefore, we have requested 
that Congress approve the use of ESF funding for China in order to 
achieve the goals of the Partnership.


    Question. The Government of the United States and the Government of 
Argentina signed and ratified a Bilateral Investment Treaty in November 
1991. Please assess Argentina's performance under this treaty.

    Answer. Fourteen ongoing International Center for Settlement of 
Investment Disputes (ICSID) cases have been filed under dispute 
resolution provisions of the U.S./Argentine BIT, with total claims in 
the range of $2.5 billion. The Government of Argentina has publicly 
announced its intention to abide by and comply with the ICSID process 
and respect its final rulings.


    Question. It is encouraging that President Lula cited the goal of 
opening the economy through trade liberalization in his inaugural 
address. Lowering barriers to international trade is an important way 
to raise productivity growth. The benefits from greater trade include 
improved access to needed capital imports and technology to raise 
productivity and improve living standards. Please assess the 
feasibility of negotiating a Bilateral Investment Treaty (BIT) between 
the United States Government (USG) and the Government of Brazil (GOB).

    Answer. Bilateral investment treaties (BITS) are important tools to 
enhance protections for U.S. investors and expand their access to 
foreign markets. BITs can also assist countries in their reform efforts 
and in their efforts to create a more welcoming investment climate. The 
Department of State and the Office of the U.S. Trade Representative 
jointly lead the U.S. Government's efforts to expand our network of 
BITs.
    We agree that a high-standard BIT with Brazil would be beneficial, 
given the size of Brazil's economy, the depth of our economic 
relationship, and the substantial and growing amount of U.S. investment 
in Brazil. However, we know from discussions with Brazilian officials 
that its executive and legislature would have reservations about 
agreeing to an investment treaty based on the high-standard provisions 
in our model BIT, particularly with respect to issues such as binding 
arbitration of investor-state disputes. State and USTR will continue to 
monitor Brazil's trade and investment policies for any change in its 
posture on a high-standard investment agreement.


    Question. What role do you see the Organization of American States 
(OAS) playing during a post Fidel Castro democratic transition in Cuba?

    Answer. The role of the OAS is pivotal to providing support as a 
democratic, transition government in Cuba commits to holding free and 
fair multi-party elections and to the principles enshrined in the 
Inter-American Democratic Charter.
    The goal of the United States is to see a democratic Cuba re-
integrated into the inter-American system under the Democratic Charter.


    Question. In the budget presented on Monday, the Administration 
proposed a cut in the Andean counter-drug initiative from $722m last 
year to $570m this year and $443m in 2008. The program supports efforts 
such as eradicating coca, the plant that is the raw material for 
cocaine, which is primarily grown in Colombia, Peru and Bolivia. It 
also supports programs to combat narco- trafficking in countries such 
as Ecuador and Panama.
    The cuts might be seen in the region as a response to the election 
of hostile governments in Ecuador and Bolivia and the failure of others 
to co-operate fully in the ``war on drugs.''
    Please explain why the cuts have been made. Do we have plans to 
clarify any misinterpretation in the region?

    Answer. The Andean Counterdrug Initiative (ACI) request for FY 2007 
was $722 million, and that level was signed into law as part of the FY 
2007 Joint Resolution for the ACI. The $569 million level for FY 2007 
was only a placeholder for ACI in the FY 2008 Congressional Budget 
Justification. It is not the FY 2007 Enacted level. Responding to 
language in the House FY 2007 appropriations bill, OMB directed a shift 
in FY 2008 of $192.5 million for alternative development programs in 
the Andes from the ACI account to ESF. When the additional ESF funds 
are taken into consideration, the reduction in the FY 2008 ACI account 
is $91.8 million or 13% from FY 2006 levels. Taking that reduction into 
account, Colombia, Peru, Bolivia, Ecuador, and Haiti still make up over 
72% of our bilateral allocations in the Western Hemisphere and remain 
the focus of our transformational diplomacy efforts. Because of 
pressure on funding on a global level--especially in the ESF account--
we had to make some very hard decisions about how to allocate funds.
    Director of Foreign Assistance Randall Tobias traveled to Ecuador 
Peru and Bolivia February 26-March 2, and addressed these issues with 
his interlocutors, assuring them that our goals of reducing social and 
economic exclusion, strengthening democratic institutions, encouraging 
social dialogue, and reversing the growth of coca cultivation and 
cocaine production remain priorities. We seek to maximize cooperation 
with the governments on counternarcotics.


    Question. It is believed that President Calderon will work to 
reestablish diplomatic ties with Cuba and Latin America's radical left 
after several years of estranged relations under President Fox. Please 
assess the effect this will have for U.S. policy interests in the 
region.

    Answer. The United States Government considers Mexico a partner in 
the hemisphere.
    President Calderon has stated he intends to reinvigorate Mexico's 
relations with Latin America. Foreign Secretary Espinosa has said 
Mexico will strive to ``normalize'' relations with Venezuela and Cuba, 
countries from which Mexico withdrew its Ambassadors within the past 
three years.
    President Calderon has declared that, while nations should be free 
to pursue their own paths of development, the path that Mexico 
considers best is one based on democracy, rule of law, a market economy 
attractive to foreign investment, and expanding equality of 
opportunity. President Calderon also declared that relations must be 
based on mutual respect.
    It is for Mexico to determine the level of diplomatic relations 
which it maintains with any country. Fostering a transition to 
democracy in Cuba and supporting democracy in the hemisphere will 
remain on our agenda of discussions with the Government of Mexico. We 
are confident that as it has been in the past, Mexico will continue to 
be a strong, positive voice within the international community on these 
issues.


    Question. The U.S.-Uruguay BIT approved by the U.S. Senate last 
September (2007) advances U.S. interests in strengthening trade and 
investment ties across Latin America. This treaty demonstrates our 
commitment to explore new and innovative economic opportunities with 
our neighbors in the hemisphere. The United States should continue to 
work closely with partners, such as Uruguay, that implement sound 
economic policies.
    The investment protections in the treaty will offer current and 
future U.S. investors in Uruguay a more stable and predictable legal 
and regulatory environment, promoting increased investment in Uruguay 
and greater two-way trade. The BIT will generate increased investment 
and expand economic growth and prosperity in Uruguay. The United States 
is Uruguay's largest trading partner, and direct investment from the 
United States was $533 million in 2004.
    34. Please explain your efforts to advance a Free Trade Agreement 
(FTA) between the United States and Uruguay. Will Uruguay be able to 
enter into an FTA with the United States without having to leave 
MERCOSUR? Are there other implications for MERCOSUR if Uruguay and the 
U.S. were to sign an agreement?

    Answer. The Uruguayans have indicated they are interested in 
pursuing a deeper economic relationship with the United States, and we 
have welcomed that interest, as they have been consistent advocates for 
and defenders of liberal economic integration, democracy, and human 
freedom in a region where we are focused on consolidating and 
strengthening these shared values. In January 2007, the U.S. and 
Uruguay signed a Trade and Investment Framework Agreement (TIFA), which 
we will use bilaterally to reduce trade barriers and to make progress 
on areas such as agriculture, intellectual property rights, and e-
commerce.
    At this point in time, it is very difficult to speculate about the 
implications that a potential FTA with the U.S. would have on Uruguay's 
standing in Mercosur, or how it would affect the Mercosur group in 
general.


    Question. DoD recently briefed the Committee on its intent to 
establish an Africa Combatant Command--AFRICOM. The briefing indicated 
that this new COCOM would be in a new mold that incorporates elements 
of other agencies.

   Where does State Department stand on a regional Africa command? 
        What would be the ideal parameters of such a command from a 
        foreign policy standpoint?

   What role did State and USAID play in formulating the concept or 
        what it a purely DoD initiative? Will State and USAID 
        participate in any planning and development as the concept 
        moves forward?

   Is there any funding in the President's budget for FY 2008 to 
        support State and USAID involvement in a new Combatant Command?


    Answer. The Department of State strongly supports the establishment 
of the Africa Command (AFRICOM). The growing strategic, political and 
economic importance of Africa to the United States merits a separate 
military command dedicated to managing our military relationships with 
African states and regional organizations. While retaining the 
traditional attributes of a combatant command, AFRICOM also will 
provide an interagency platform for Department of Defense efforts to 
support other USG agencies in implementing U.S. security policies and 
strategies. These would include such areas as humanitarian assistance 
and disaster relief, security assistance, building partnership 
capacity, civic action, security sector reform and military to military 
activities. No new authorities will be created and State's regional 
assistant secretary will remain the lead on African security policy. 
AFRICOM would not be a substitute for our diplomatic and development 
assistance activities, but an important augmentation to them.
    AFRICOM will have a unique structure, including the assignment of a 
Senior Foreign Service Officer as Deputy Commander for Civil Military 
Programs, who will serve alongside the Deputy Commander for Military 
Operations. We anticipate that other positions within the Command will 
also be filled from State, USAID and other agencies in order to help 
provide better coordination of our activities.
    The Department of State and USAID have been intimately involved in 
this process since its initiation. A former ambassador served as Deputy 
Executive Director of the Implementation Planning Team, and was joined 
by a number of other officers from the Bureaus of African Affairs, 
Political-Military Affairs and Population, Migration and Refugee 
Affairs, as well as the Office of the Coordinator for Reconstruction 
and Stability. We will also participate in the work of the Transition 
Team.
    Funding for State's participation in AFRICOM will come from our 
current resources.


    Question. In the past 12 months, East Africa has become a top 
security and diplomatic priority. The State and Defense Departments are 
presumably working together to provide a coherent and effective policy.

   In what areas is State taking the lead and in what areas is DoD 
        taking the lead?

   How does the President's budget for 2007 and 2008, as well as your 
        program of transformational diplomacy, ensure that State is 
        capable of fulfilling its role in this region?

   What has State done to empower and enable our embassies to respond 
        to the myriad demands of elements of our own government, as 
        well as other actors, in the Horn of Africa?

    Answer. Security and stability in East Africa is a top U.S. 
priority and the relevant Departments and Agencies of the United States 
are working together closely to advance our interests and to make the 
region safer, more stable, and more prosperous. The State Department 
continues to take the lead in coordinating our foreign policy and in 
our diplomatic engagement with the broad array of partners and 
stakeholders in the region. The Department of Defense leads in 
military-to-military relations with our partners in the region and in 
implementing our military assistance activities. State, Defense and 
other agencies are committed to taking all necessary and coordinated 
action to respond to the terrorist threats to U.S. interests in the 
region, utilizing tools appropriate to the threat. The U.S. Agency for 
International Development is taking the lead in implementing the vast 
range of foreign and humanitarian assistance to the region. These 
varied activities are all closely coordinated through constant inter-
agency engagement in Washington and in our Embassies in the field.
    We have revised our approach to foreign assistance to enhance our 
transformational diplomacy goals. This effort will better prepare the 
State Department and our Embassies to meet the challenges in the region 
by more closely allying foreign assistance to U.S. foreign policy 
objectives. The President's budget reflects the resources to leverage 
our diplomatic engagement throughout the region in a holistic way to 
take advantage of the openings that exist to best advance our 
objectives. These objectives include: enhancing security and stability 
in the region, improving governance capacity, building democratic 
institutions, transforming African economies, breaking the cycles of 
drought and famine, and responding to the humanitarian needs of 
vulnerable populations.
    While increased aid levels will help advance our goals, ultimately, 
our people are our greatest resource. Through our global repositioning 
process, we have cross-analyzed our human resources with our policy 
objectives. The result has been a net increase in the abilities of our 
embassies in the East Africa region to take advantage of opportunities 
and respond to the demands of the United States Government. The 
Department's plan to establish American Presence Posts in Mombasa and 
Zanzibar, and the expansion of our Somalia Affairs Section in the U.S. 
Embassy in Nairobi from a single Somalia watcher to a six-person 
section, supported by others temporarily assigned, are prime examples 
of this.
    While government agencies have significantly increased the level of 
staff members visiting or temporarily assigned to the East Africa 
region to respond to developments, the State Department has been 
uncompromising in protecting the authorities of our Chiefs of Mission 
in the field. By maintaining control over the universe of interagency 
demands on Mission personnel and resources, our Ambassadors remain able 
to balance the competing demands of reporting, visits, implementation 
of assistance and exchanges, and conducting due diligence monitoring to 
ensure that the government and tax payers receive the optimal service 
and responsiveness from the finite resources available.
    I look forward to the partnership of Congress to ensure that we 
have the resources to advance our common interests.


    Question. Darfur remains a calamity without any apparent resolution 
in the near-term. The President's Special Envoy for Darfur, Andrew 
Natsios, has coordinated the U.S. effort to respond to the humanitarian 
and human rights catastrophe in Darfur since late 2006. He has 
indicated to the Committee that U.S. patience has nearly run out.

   How is Khartoum meeting any U.S. diplomatic expectations with 
        regard to Darfur, the Comprehensive Peace Agreement, counter-
        terrorism, international cooperation?

   Is the threat of a ``Plan B,'' suggested by the Special Envoy in 
        December regarding U.S. policy on Darfur, viable? Is it clear 
        to Khartoum?

   What new diplomatic efforts have been made to improve international 
        cooperation in halting the violence in Darfur and delivering 
        humanitarian assistance in the region?

   Is the President's Special Envoy for Darfur also empowered to 
        coordinate the interlocking elements of USG policies dealing 
        with Chad, Central African Republic, Southern Sudan, and 
        Uganda?

    Answer. The USG and others in the international community are 
firmly committed to doing all we can to help achieve peace throughout 
Sudan. We continue to push for the full implementation of both the 
Comprehensive Peace Agreement (CPA), which ended the 22-year civil war 
between the North and the South, and we are vigorously supporting 
efforts to broaden support for the Darfur Peace Agreement (DPA). Since 
the signing of the CPA and despite the tragic death of Sudan People's 
Liberation Movement (SPLM) leader John Garang, Sudan has made progress 
towards laying the foundation for lasting peace and reconciliation in 
the South. The Sudanese government has also begun to share oil revenue 
with the Government of South Sudan (GOBS) in accordance with the CPA, 
and armed militia groups from both sides of the conflict have begun the 
process of redeployment, demobilization, and integration into Joint 
Integrated Units. However, the CPA remains vulnerable. Progress must be 
made in key areas of the CPA, such as resolution of the North/South 
boundary dispute and full and transparent operation of the National 
Petroleum Commission (NPC). The border dispute remains entirely 
unresolved. The NPC, though its internal regulations have reportedly 
been agreed upon by the GOBS and NCP representatives, is not performing 
its oversight and review function of the oil industry.
    With respect to Darfur, despite of the May 2006 signing of the 
Darfur Peace Agreement by the Government of Sudan (GoS) and Sudan 
Liberation Army (SLA) Minawi faction, the conflict continues and the 
government in Khartoum continues to play a significant role in the 
continuation and even escalation of violence in Darfur through direct 
attacks by security forces on non-signatory rebel groups and civilians 
and support of the government-aligned Janjaweed. Ceasefire violations 
and attacks on humanitarian workers have been perpetrated by all sides 
since the signing of the peace agreement. In August 2006, the 
Government of Sudan launched a major military offensive in Darfur 
against non-signatory rebel groups. Darfur witnessed an increase in 
violence during the second half of 2006, with non-signatory rebel 
groups fighting amongst themselves, against the SLA (Minawi) group, and 
against government and Janjaweed forces, resulting in an unknown number 
of civilian casualties. Humanitarian and human rights conditions in 
Darfur continue to deteriorate, posing a serious challenge to the 
United Nations (UN), the African Union (AU) and non-governmental 
organizations (NGOs)' delivery of life-saving humanitarian assistance; 
some humanitarian groups, including the International Committee for the 
Red Cross (ICRC) are threatening to pull out of Darfur unless security 
is established and frequent attacks on civilians and rebels in Darfur 
stop. Recently, the GoS was involved in the assault and arrest of 
humanitarian workers; in addition to arbitrary expulsion and harassment 
of humanitarian workers, the GoS continues to use administrative 
measures to impede humanitarian assistance including denying permits to 
workers, and delaying land use authorizations which in turn delayed UN 
camp construction for internally displaced persons (IDPs).
    The GoS has recently been disruptive of the political process that 
can bring peace to Darfur. It has contributed to the splintering of DPA 
non-signatories into different sub factions and has frequently bombed 
proposed venues for a non-signatory commanders' conference aimed at 
discussing unification of the rebels and adoption of the DPA. The USG 
has condemned the bombings and has strongly urged the GoS to observe 
the cease fire agreement.
    President Bashir continues to publicly reject deployment of UN 
forces to Darfur despite agreeing to the implementation of the Addis 
Ababa framework in a December 23, 2006 letter to former UN Secretary-
General Kofi Annan. We want to hold him to his word to carry out an 
independent investigation of the human rights situation in Darfur, the 
UN Human Rights Council (UNHRC) decided in December 2006 to send a 
fact-finding mission to the region. President Bashir had previously 
pledged to support this effort, but in mid-February he publicly 
announced that Sudan would not grant entry to the Human Rights Council 
(HRC) Assessment Team. The USG has echoed UN Secretary-General Ban Ki-
moon's disappointment in this declaration and urges Khartoum to 
cooperate in granting the HRC Assessment Team visas.
    The Government of Sudan was added to the U.S. list of state 
sponsors of terrorism in 1993. However, the United States and GoS 
entered into a bilateral dialogue on counter-terrorism in May 2000. GoS 
has provided concrete cooperation against international terrorism since 
the September 11, 2001 terrorism strikes on New York and Washington. 
The GoS, for example, recently detained an individual suspected of 
planning an attack on UN facilities in Sudan.
    The USG continues to engage diplomatically with the Sudanese 
government to urge for its cooperation in peaceful resolution of the 
crisis in Darfur. We have made clear to the Sudanese government that we 
are prepared to use stronger measures in the event that the GoS 
continues to defy the will of the international community. We will 
continue to discuss ``Plan B'' options with our European partners. 
Taking stronger measures is viable, and the GoS understands this.
    In a continued effort to look for peaceful resolution to the Darfur 
crisis, the UN Special Envoy to Darfur Jan Eliasson and AU Envoy to 
Darfur Salim Salim recently facilitated a meeting of the Government of 
Sudan and non-signatories to the DPA. The USG fully supports the new 
UN/AU-led initiative to bring together non-signatories of the Darfur 
Peace Agreement and broaden support for the DPA. We are also working 
with the UN and our international partners to accelerate implementation 
of the Addis Ababa framework and to mobilize potential Troop 
Contributing Countries (TCCs) to contribute to a stronger Darfur 
peacekeeping mission.
    Meanwhile, the USG is providing life-saving, humanitarian support 
to the people of Darfur through international organizations such as the 
United Nations High Commissioner for Refugees (UNHCR), Office for the 
Coordination of Humanitarian Affairs (OCHA), and ICRC as well as NGOs. 
These organizations have been working under dangerous security 
conditions since the beginning of the conflict, and particularly since 
mid 2006 when they have become explicitly targeted by belligerents on 
all sides. This has left many humanitarian organizations with the 
choice of either pulling out of Darfur altogether or reducing staff to 
minimal capacity.
    We are pressing for more concerted and effective multilateral 
pressure on Khartoum, particularly with those countries that continue 
to provide diplomatic support for Khartoum or that supply its military 
with the arms used in Darfur.
    We are deeply concerned about the regional aspects of the Darfur 
conflict and its impact on Chad and the Central African Republic (CAR). 
The Chad/Sudan border remains one of the most dangerous and 
inaccessible places for humanitarian workers. Violence has caused 
massive displacements with over 230,000 refugees crossing into Chad 
since the beginning of the conflict in 2003. Additionally, there are 
20,000 Chadian refugees in Darfur and 50,000 CAR refugees in southern 
Chad.
    The President's Special Envoy to Sudan covers all of Sudan, 
including North, South, East and Darfur. However, as the nature of the 
Sudan conflict is regional, he coordinates closely with USG officials 
responsible for relations with neighboring, affected countries. The 
Special Envoy has traveled to Sudan and Chad to address the need for 
these two countries to cease hostilities and work together in support 
of regional stability. We support development of a UN deployment to the 
border region of Chad, CAR, and Darfur to halt the spread of violence 
and protect civilians. The U.S. Special Envoy has also visited critical 
locations in Sudan to promote a re-invigoration of the CPA.
    The Lord's Resistance Army (LRA) had been operating out of southern 
Sudan with clandestine support from Khartoum for several years, but is 
no longer supported by the GoS. This armed group remains a threat to 
the fragile CPA. The GOSS, recognizing that it was in their interest to 
attempt to resolve the conflict, tried to mediate a peace agreement 
between the LRA and the Government of Uganda (GOU). Formal negotiations 
commenced in Juba in July 2006. Though both parties signed a Cessation 
of Hostilities (COH) agreement in August 2006 identifying areas where 
the LRA could assemble for the negotiations without fear of being 
attacked by the Ugandan People's Defense Forces (UPDF), there has been 
little tangible progress toward ending the conflict. While LRA attacks 
in both southern Sudan and northern Uganda have declined significantly, 
largely because most of the LRA have relocated to eastern Congo, 
renewed violence remains a threat. Still, the LRA continues to stall 
the talks, most recently with demands for a change of venue and a halt 
to all UPDF activity in southern Sudan, and to date has not shown any 
serious intent to seek a peaceful solution to the insurgency.

    Question. You have asked for a $6 million increase for the OIG. The 
budget justification is somewhat ambiguous: ``As resources permit, OIG 
will conduct work related to programs and operations in Iraq and 
Afghanistan.'' What is your intent in terms of auditing in Iraq and 
Afghanistan?

    Answer. If OIG receives adequate funding through the FY 2007 
supplemental request, its intention is to open a Middle East regional 
office to provide oversight for major Department programs in 
Afghanistan, Iraq, and other regional crisis/post-conflict areas. The 
office would also meet OIG's need for an on-the-ground presence at 
Embassy Kabul, where auditors, inspectors, and investigators would 
serve as an expert resource for strengthening oversight and management 
controls and as a deterrent to waste, fraud, and abuse. OIG staff from 
the regional office would rotate through Afghanistan. The regional 
office also would increase coordination and the capacity for joint 
interagency jobs with DoD OIG, USAID OIG, SIGIR, and others in South 
Central Asia and the Middle East. Given the substantial investment of 
Department programs and resources in the area, a regional OIG presence 
is prudent and would reduce overall risk and support costs.
    The regional office would allow OIG to conduct oversight of 
programs and operations in Afghanistan and Iraq through a dedicated 
program of audits, inspections, management reviews, surveys, and 
related activities. Potential oversight activities to be carried out by 
the regional staff could include additional oversight of Embassy 
Baghdad NEC security and construction, such as reviewing the 
competitiveness of contract awards for construction and determining 
whether the Department adequately monitored the contracts to ensure 
compliance with the contracts and contract modification deliverables, 
and reviewing the adequacy of Embassy Baghdad's emergency evacuation 
plan. In Afghanistan, potential activities include reviews of rule-of-
law, refugee, and security programs, and coordination and communication 
with Provincial Reconstruction Teams. In addition, OIG auditors and 
inspectors would assess how the Department's portion of the $721 
million Afghanistan supplemental funding is being used for contracts, 
grants, and joint interagency programs, including whether these 
resources are used economically and efficiently to achieve intended 
goals and objectives in support of U.S. policy in Afghanistan and the 
Middle East, and whether the results are consistent with U.S. laws, 
regulations, and good business practices.
    OIG's Middle East efforts would be directed more toward Afghanistan 
as long as SIGIR remains the primary funded oversight body in Iraq. If 
Congress should decide to direct those funds to OIG, then OIG believes 
it could provide appropriate oversight in Iraq. The Middle East 
Regional Office would provide a foundation for future transition from 
SIGIR.


    Question. As you know, Congress has insisted that SIGIR continue 
operations because State has not sought to develop the capacity to 
handle the necessary oversight and audit functions for Iraq programs. 
Are you satisfied with the level of oversight of State's operations in 
Iraq?

    Answer. Over the fiscal years 2004-2006, SIGIR has received funding 
of approximately $100 million for oversight in Iraq, while OIG has 
received approximately $3 million for oversight in both Afghanistan and 
Iraq. The 2007 supplemental request presently being considered would 
provide $35 million for SIGIR, while the supplemental request submitted 
by the Department did not include any funding for OIG. Accordingly, the 
vast majority of oversight of State Department operations in Iraq to 
date has been provided by SIGIR. Nevertheless, if adequate resources 
were provided to it, OIG is confident it could provide an appropriate 
level of oversight of State's operations in Iraq.


    Question. With the new F structure, how will oversight and auditing 
of foreign assistance programs be divided between the OIG and the 
USAID's IG?

    Answer. The new F structure is not intended to change the duties 
and responsibilities of the OIGs. The Department's OIG and USAID's OIG 
will continue to focus on programs and operations managed/implemented 
by their respective establishments. Where there is overlapping 
jurisdiction, the IGs will continue to coordinate to avoid duplication 
of effort and ensure effective oversight.


    Question. In last year's budget, you asked for $479 million in ESF 
to fund Iraq operations and programs. How much of that funding do you 
expect to receive as part of the regular '07 budget coming out of the 
``CR'' process?

    Answer. As part of the strategy to help Iraq transition to self-
reliance, we requested $778 million for programs in Iraq as part of the 
FY07 budget. Because only $61 million was appropriated in the FY06 base 
budget, we are severely limited in FY07 funding under a Continuing 
Resolution (CR). At the current $61 million level, USG success in Iraq 
would be greatly jeopardized. Programs critical to create jobs, reform 
the economy, promote democracy, and stabilize the country would be 
adversely impacted, as would important humanitarian activities such as 
demining and assistance to refugees/displaced persons.
    As a result, I am currently examining whether to re-allocate FY07 
CR funding for programs in Iraq, although I have not yet made a final 
decision. Given overall cuts in the CR, any increase in funding for 
Iraq over FY06 base levels will have to come at the expense of other 
programs.


    Question. We had testimony in January from General McCaffrey who 
stated we should program $10 billion a year for Iraq economic support. 
What is your estimate of how much is needed?

    Answer. There are several estimates of how much it will cost to 
completely rebuild Iraq's economy and critical infrastructure. In a 
very quick study done in 2003 in preparation for the Madrid Donors' 
conference, the World Bank for example estimated this total to be 
between $50 and $80 billion over five years. The Iraqi Government has 
recently estimated that it may need to spend up to $100 billion on 
reconstruction and development.
    The goal of our assistance programs has never been to meet all of 
Iraq's needs but rather to provide help in key areas so that Iraq can 
begin meeting its own needs. The President has made clear our 
commitment to helping the Iraqis stand up, not just on the security 
front but also on political and economic issues. The $20.9 billion in 
IRRF assistance helped kick start the Iraqi economy, while the $1.6 
billion the FY06 supplemental focused on programs to increase Iraqi 
capacity as well as to stabilize key parts of the country. We have 
carefully constructed our foreign assistance requests for the FY07 
Supplemental and the FY08 budgets to build on previous programs and 
accelerate Iraq's ability to meet its own needs.
    In that regard, we do not believe it would be appropriate to try to 
meet all of Iraq's developmental requirements. Rather, we are focused 
on the most essential tasks to complete Iraq's transition to self-
sufficiency. Significant tasks remain, including the need to improve 
the capacity of key Iraqi ministries, train local governments and 
strengthen Iraq's democracy. It is also important to help Iraq in the 
short-term to stabilize major cities by creating jobs and businesses 
and providing financing for small and medium companies.


    Question. What is the total of your request for Iraq economic 
support in the `07 supplemental, the regular budget, and the emergency 
'08 spending?

    Answer. The table below shows the President's budget requests for 
foreign assistance in Economic Support Funds (ESF); International 
Narcotics and Law Enforcement (INCLE); Non-Proliferation, Anti-
Terrorism, Demining and Related (NADR); Education and Cultural Exchange 
(ECE); Migration and Refugee Assistance (MRA); International Disaster 
and Famine Assistance (IDFA); and International Military Educational 
Training (IMET) and the Treasury Department's International Affairs 
Technical Assistance (IATA).
    The Total ESF request is $2,072 million in the FY07 Supplemental 
request; $298 million in the FY08 Budget request; and $772 million in 
the FY08 Global War on Terror (GWOT) Costs request.

                              President's Budget Requests for Iraq Economic Support
----------------------------------------------------------------------------------------------------------------
                                                                    FY 2007     FY 2007     FY 2008     FY 2008
               Item  ($ in thousands)                  Account      Request      Supp.      Request   GWOT Costs
----------------------------------------------------------------------------------------------------------------
Security Track:                                                           --      $1,254        $118        $390
  Provincial Reconstruction Team Projects..........         ESF           --         720          60         100
  Local Governance Program.........................         ESF           --         100          33          65
  Community Stabilization..........................         ESF           --         384          25         155
  Community Action Program.........................         ESF           --          50          --          --
  Infrastructure Security..........................         ESF           --          --          --          70
----------------------------------------------------------------------------------------------------------------
Economic Track:                                                          283         100          92         134
  Operations, Maintenance and Training for Critical         ESF          154          --          --         134
   USG-funded infrastructure.......................
  Provincial Economic Growth: Agriculture, Micro-           ESF          122         100          70          --
   Finance, etc....................................
  Secondary and Higher Ed..........................         ESF           --          --          15          --
  Education and Cultural Exchange..................           ECE          7          --           7          --
----------------------------------------------------------------------------------------------------------------
Political Track:                                                         495         988         191         442
  National Capacity Development....................         ESF           --         180          25         230
  Policy, Subsidy, Legal and Regulatory Reform.....         ESF          115         110          22          --
  Treasury Department Assistance...................        IATA           --           3          --          --
  Democracy and Civil Society......................         ESF           63         428          50          --
  Criminal Justice/Rule of Law.....................          INCLE       255         200          76         159
  Regime Crimes Liaison Office.....................         ESF           24          --          --          18
  Non-Proliferation, Anti-Terrorism and Demining...        NADR           17           7          16          --
  Assistance for Refugees and Internally Displaced     MRA/IFDA           20          60          --          35
   Persons.........................................
  International Military Education and Training....        IMET            1          --           2          --
================================================================================================================
    TOTAL..........................................                     $778      $2,342        $401        $966
----------------------------------------------------------------------------------------------------------------



    Question. Some have questioned the need to put more U.S. money into 
Iraq on the economic assistance side. You have asked for $773 in ESF in 
the 2007 supplemental. The Iraqis are running a budget surplus near $10 
billion. How will these monies be used?

    Answer. Beginning in FY `06, we have shifted the emphasis of our 
assistance away from large reconstruction projects towards programs 
designed to increase Iraqi capacity to govern at the national and local 
level. Continued U.S. assistance is vital to establish firmly the roots 
of democratic and representative governance, to support moderate 
political forces, to continue economic reforms, and to establish 
competent and representative government. It is a critical component of 
the President's ``New Way Forward'' strategy to bring stability to 
Baghdad and the rest of Iraq.
    Our FY '07 Supplemental is designed as part of a joint strategy 
with the Iraqi government to help improve its ability to meet the basic 
needs of the Iraqi people. However, the Iraqi government must also do 
its part to invest in its own economic development and to follow 
through on our joint strategy. The Government of Iraq is committed to 
spending $10 billion this year to help create jobs and further national 
reconciliation. However, Iraq faces major challenges in designing and 
executing its capital budget. Iraq has available assets, the product of 
last year's under spent budget and profits from higher than anticipated 
oil prices, but they do not have the mechanisms to spend them--
especially with the speed necessary for post-kinetic stabilization in 
Baghdad and Anbar.
    There are several obstacles to better budget execution, including 
technical problems, such as the lack of the ability to obligate money 
for multi-year projects, and a lack of training and equipment to 
process the transactions. The Iraqis are taking steps to address this 
problem, such as draft 2007 budget provisions that permit the Ministry 
of Finance to reallocate funding from any Ministry that is unable to 
spend it promptly. If the USG does not continue to provide assistance 
to the Iraqi government, the Iraqis will not be able to develop the 
mechanisms they need to effectively spend their own budget. While we 
cannot spend their money for them, we must help them get on the path to 
self-sufficiency.
    Additionally, to help the Iraqi government improve budget execution 
and take on more responsibility for Iraq's own economic future, I have 
appointed Ambassador Tim Carney as the new Coordinator for Economic 
Transition. Ambassador Carney is now in Baghdad helping the Government 
of Iraq meet its financial responsibilities, specifically on budget 
execution, job creation, and capital investment projects.


    Question. Will State be implementing an FMS program for Iraq this 
year? If not, why not?

    Answer. The Multinational Security Transition Command-Iraq (MNSTC-
I) and the U.S. Embassy are working with the Government of Iraq to move 
towards a traditional bilateral security assistance relationship. A 
critical part of this transition is Iraqi participation in the Foreign 
Military Sales (FMS) system which began in earnest in 2006 when the 
Iraqis committed over $2.34 billion of Iraqi national funds to support 
procurement of equipment for the Iraqi armed forces. Examples of the 
Iraqi FMS program for 2006 include the procurement of a $250 million 
logistic support package in September and the purchase of 522 High 
Mobility Multipurpose Wheeled Vehicles (HMMWV), light armored vehicles, 
utility and cargo trucks for an estimated cost of $463 million in 
December.


    Question. Do we or other entities (WFP, Australia) continue to 
provide advisors to the Ministry of Trade on the Public Distribution 
System for food rations in Iraq? Please provide for the record an 
assessment of whether that system is flexible enough to allow IDPs 
access to their rations once they have been forced from their homes of 
record?

    Answer. Neither the USG nor other entities directly advise the GoI 
on the Public Distribution System (PDS). As part of Iraq's Stand-By 
Arrangement (SBA) with the IMF, the GoI has agreed to phase out the PDS 
and replace it with a targeted, means-tested system to protect Iraq's 
most vulnerable citizens. We have provided the GoI with a comprehensive 
analysis of the cost of the PDS and recommendations for how to 
eliminate this system. We support the GoI's efforts to phase out the 
PDS. The Iraq Reconstruction and Management Office (IRMO) has an 
officer at the Ministry of Trade who monitors the PDS to make sure that 
food is getting to the various parts of Iraq. Also, the U.S. Department 
of Agriculture has an officer in Iraq who monitors food imports, 
including for the PDS.
    In 2003 under the CPA, the Ministry of Trade promulgated a rule 
stating that anyone could register to receive their PDS benefits at a 
new location as long as they had their ration card. However, there are 
reports that the pre-2003 practice of de-registering at one's former 
food distribution point and registering at the food distribution point 
in one's new neighborhood is now being re-instituted. It is not certain 
that the GoI is redirecting food from areas with net population losses 
to areas with net population gains to ensure adequate supplies.


    Question. How many Iraq positions does State anticipate paying for 
in 2007? Please provide a complete breakdown by Department.

    Answer. The Department of State has requested funds to pay the 
expenses of its personnel in Iraq, including basic salaries, Iraq-
specific allowances, benefits, and other expenses. In addition, the 
Department has requested funding to reimburse other federal agencies 
for the costs of civilian personnel who serve as part of the new 
Provincial Reconstruction Teams (PRTs), to include contractors.
    The specific number of positions to be filled by, and consequently 
the amount to be reimbursed to, all participating federal agencies will 
not be known until final staffing details are settled. DoD will pay 
salary costs for the initial DoD staffing for the PRT surge, 
anticipated to include 129 positions for a period not to exceed 12 
months. Based on their participation in current PRT programs, other 
agencies including USAID and the Departments of Agriculture, Energy, 
Justice, and Homeland Security are expected to contribute personnel to 
the new PRTs. The Department of State will reimburse these agencies for 
the salary and other expenses of these personnel, to the extent funds 
are provided to the Department of State for this purpose. The total 
number of civilian federal employees and contractors from all agencies 
will be approximately 320.


    Question. The Department of Defense has been asked by the 
Department of State to provide interim staffing for PRT's in Iraq for a 
9-12 month period. The request asks for 9 civil affairs officers in the 
first phase (in place by 31 March), and 111 in the second phase (in 
place April-August). The list includes:


   10 civil affairs officers (captains and majors)

   10 bilingual cultural advisors

   19 government development specialists

   8 economists

   11 rule of law advisors

   7 agri-business specialists

   9 veterinarians

   18 city managers/city engineering specialists

   18 business development specialists

   8 public health advisors

   11 industrial development specialists


    When will State request additional monies to fund such positions 
within its own structure? What are other cabinet secretaries asking for 
in their budgets for Iraq positions? Why are there not increases in 
USAID's request to account for such needs?
    Answer. The request by the State Department to the Department of 
Defense asks for 10 civil affairs officers and 10 bilingual cultural 
advisors in the first phase as part of the core teams (in place by 31 
March), and another 109 sector specialists from DoD in the second phase 
(in place April-August). The updated list is as follows:


   10 civil affairs officers (captains and majors)

   10 bilingual cultural advisors

   20 government development specialists

   8 economists

   8 rule of law advisors

   7 agri-business specialists

   10 veterinarians

   17 city managers/city engineering specialists

   21 business development specialists

   7 public health advisors

   11 industrial development specialists


    The State Department is requesting $414 million in Supplemental 
funding to cover the PRT civilian surge, especially Phase III 
deployments and the backfill of the 109 DoD specialists deploying in 
Phase II. These funds are critical for the State Department to 
effectively complement the military's surge effort that will create a 
security environment enabling us to strengthen Iraqi self reliance 
through political and economic development support. The State 
Department will reprogram current funds to provide its portion of the 
Phase II surge of civilian specialists (32 specialists in addition to 
DoD's 109). We will recruit these specialists from civilian government 
agencies where possible, but most will come from the private sector 
where such specialists are generally found. Supplemental operations 
funding will permit the State Department to reimburse other agencies 
for their support of the civilian surge. In the FY07 Supplemental, the 
State Department has requested significant program funding support to 
continue critical USAID programs: Community Action Program ($50 
million), Local Governance Program ($100 million) and the Community 
Stabilization Program ($384 million). The existing PRTs already 
coordinate these programs with USAID and the ten new embedded PRTs will 
do the same. The Administration also requested $720 million in funds 
for PRT programs in the FY07 Supplemental.


    Question. Is there any change of strategy on the part of the 
Department of State that corresponds with our new military strategy in 
Iraq? Secretary Kissinger last week made reference to a grand strategy 
that this troop surge must fit into. How would you articulate such a 
strategy and how do new plans--military, diplomatic, and reconstruction 
on the ground--fit in?

    Answer. Our military and civilian strategies in Iraq go hand-in-
hand. There are five core principles underlying our joint strategy for 
Iraq.
    First, the government of Iraq is in the lead. Success will not be 
dependent only on U.S. resolve and effort, but also on the commitment 
and performance of the Iraqi government.
    Second, we will support the government of Iraq's efforts to 
stabilize the country, bolster the economy, and achieve national 
reconciliation. The Iraqis are in the lead, but they require our help 
in certain critical areas.
    Third, we will decentralize and diversify our civilian presence and 
assistance to the Iraqi people. While we will continue to work closely 
with the central government in Baghdad, we will reach beyond the 
International Zone to help local communities and leaders transition to 
self-sufficiency. The Provincial Reconstruction Teams will be essential 
to this outreach.
    Fourth, we will channel targeted assistance to those Iraqi 
leaders--regardless of party or sectarian affiliation--who reject 
violence and pursue their agendas through peaceful, democratic means. 
We must isolate extremists and help empower moderates throughout the 
country.
    Fifth, we will engage with our regional friends and allies to try 
and strengthen support for the Government of Iraq. Iraq cannot emerge 
from its current predicament without the help of its neighbors.
    We will apply these principles on three critical fronts--security, 
economic, and political--all of which are inextricably linked to the 
others.
    The Department of State is contributing to this effort by expanding 
our present close coordination with our military counterparts in and 
outside of Baghdad, and with the Iraqi government to capitalize on 
security improvements by creating jobs and promoting economic 
revitalization. There must be the fullest possible civilian-military 
unity of effort if we are to be successful.
    To that end, we will immediately deploy greater resources alongside 
our military in Baghdad and Anbar. The Defense Department and the 
Department of State signed a Memorandum of Agreement February 22 that 
has codified in detail the joint military-civilian mission of the PRTs.
    The centerpiece of this effort will be our expansion of our 
Provincial Reconstruction Teams. We will double our PRTs from 10 to 20, 
adding more than 300 new personnel. We will expand our PRTs in three 
phases--with the first phase set to be complete by the end of March--to 
complement our enhanced military efforts.
    PRTs will target both civilian and military resources, including 
foreign assistance, against a common strategic plan to sustain 
stability, promote economic growth and foster Iraqi self-sufficiency 
where we have made security gains.


    Question. The Broadcasting Board of Governors budget request for 
fiscal year 2008 renews additional funding for Radio Free Europe/Radio 
Liberty broadcasts to Iran, to expand news and information programming 
for Radio Farda, and the Radio Farda web site. Can you provide for us a 
breakdown for what was spent last year and what will be spent this year 
across the entirety of the Federal Government for broadcasting to Iran?

    Answer. BBG's FY 2006 budget for Iran broadcasts was $17.3 million, 
of which $10.2 million was for VOA Persian TV and $7.1 million for 
Radio Farda.
    BBG's FY 2007 estimate for BBG Iran broadcasts was $16.6 million of 
which $9.5 million is for VOA Persian TV and $7.1 million is for Radio 
Farda.
    In addition, BBG received $36.1 million in funding from the FY 2006 
Emergency Supplemental for broadcasting to Iran. This included $13.8 
million for one-time infrastructure costs for VOA Persian TV and $7.6 
million for programming. It also included $12 million for Radio Farda 
medium wave transmission upgrades, as well as $2.7 million for Internet 
web site upgrades, increased regional coverage, and FM radio 
broadcasting.
    The State Department has begun to invest economic support and 
democracy funds in projects promoting independent media for 
broadcasting into Iran. We would be happy to brief you on these 
programs separately, if there is interest.


    Question. I appreciated John Negroponte's statement at his recent 
hearing about the Law of the Sea Convention and its importance for U.S. 
national security interests. Does the Administration continue to favor 
prompt Senate action on the Convention?

    Answer. Yes. We would like to see the Senate approve the Convention 
as soon as possible in this Congress. The Convention advances the full 
range of our diverse interests in the oceans. As the world's pre-
eminent naval power, we have a vital national security interest in the 
ability to navigate freely and fly over the oceans. As a major trading 
power, we have a strong interest in ensuring the free flow of 
commercial navigation. As a country with one of the longest coastlines, 
we have an economic interest in offshore resources, as well as economic 
and recreational interests in protecting the health of our coastal 
waters from sources of pollution. We are also a world leader in marine 
scientific research. The Convention serves and protects U.S. interests 
in all these areas as a matter of treaty law.
    As further indication of the Administration's support for the 
Treaty, I have attached the letter that National Security Adviser 
Stephen Hadley wrote to Chairman Biden on February 8, 2007. As his 
letter attests, the President believes, and many member of this 
Administration have stated, that the Law of the Sea Convention protects 
and advances the national security, economic, and environmental 
interests of the United States.

                                   The White House,
                                          Washington, D.C.,
                                                  February 8, 2007.
Hon. Joseph R. Biden, Jr., Chairman,
U.S. Senate Committee on Foreign Relations,
Washington, D.C. 20510.


    Dear Mr. Chairman: Recognizing the historic bipartisan support for 
the Law of the Sea Convention, I anticipate our shared interest in 
moving it forward. As the President believes, and many members of this 
Administration and others have stated, the Convention protects and 
advances the national security, economic, and environmental interests 
of the United States. In particular, the Convention supports 
navigational rights critical to military operations and essential to 
the formulation and implementation of the President's National Security 
Strategy, as well as the National Strategy for Maritime Security. I 
appreciate your efforts as Chairman in bringing this important 
Convention to the Senate for consideration and look forward to its 
approval as early as possible during the 110th Congress.
            Sincerely,
      Stephen J. Hadley, Assistant to the President
                             for National Security Affairs.


    Question. Directorate of Defense Trade Controls officials recently 
briefed Committee staff on a new policy regarding how license 
applications for Australia will be handled by the Directorate. It would 
provide that certain license applications involving Australia would not 
be referred (staffed) to other agencies. It would be based on 
regulatory treatment currently extended to Canada in Part 126.5 of the 
International Traffic in Arms Regulations (22 CFR 120-130).
    What is the history of this policy decision, and which parts of the 
interagency were involved in its formulation?

    Answer. In December 2002, the United States and Australia concluded 
negotiations on an agreement that would allow most categories of 
unclassified U.S. defense items to be exported to Australia without a 
license. The agreement and license waiver have not been implemented, 
however, because of Congressional concerns. Subsequently, in an ongoing 
dialogue on defense export control policy, the USG asked the Government 
of Australia (GOA) to propose areas of concrete cooperation within 
existing U.S. law and regulations. The GOA proposed several ideas, one 
of which was expedited licensing review for exports that would have 
qualified for the license exemption, although a license or agreement 
would still be required. The State Department then consulted with the 
Department of Defense (the Defense Technology Security Administration) 
at the Assistant Secretary and Under Secretary levels, which resulted 
in agreement on the Expedited License Review (ELR) process for 
Australia.


    Question. Directorate of Defense Trade Controls officials recently 
briefed Committee staff on a new policy regarding how license 
applications for Australia will be handled by the Directorate. It would 
provide that certain license applications involving Australia would not 
be referred (staffed) to other agencies. It would be based on 
regulatory treatment currently extended to Canada in Part 126.5 of the 
International Traffic in Arms Regulations (22 CFR 120-130).
    Without regard to any other licensing policies, such as those 
involving license requests to support allied operations and 
capabilities in Iraq or Afghanistan, why are no regulatory amendments 
necessary for this policy on referrals?

    Answer. Section 126.15 of the ITAR already provides for an 
expedited review of license requests for Australia, as required by 
section 1225, P. L. 108-375. Without any requirement for regulatory 
amendment, approximately 70% of all applications for the export of U.S. 
defense articles and services to Australia and other countries are 
reviewed by the State Department's Directorate of Defense Trade 
Controls without staffing to other agencies.


    Question. Directorate of Defense Trade Controls officials recently 
briefed Committee staff on a new policy regarding how license 
applications for Australia will be handled by the Directorate. It would 
provide that certain license applications involving Australia would not 
be referred (staffed) to other agencies. It would be based on 
regulatory treatment currently extended to Canada in Part 126.5 of the 
International Traffic in Arms Regulations (22 CFR 120-130).
    It is our understanding that this policy would be limited to 
license requests for defense articles, related technical data, and 
defense services currently covered by the exemption in Part 126.5, i.e. 
that referrals will not be required for articles to which the Canadian 
exemption from the requirement for a license applies (licenses would be 
required, but not referred). Please provide a copy of the licensing 
guidance that will implement this policy, with particular regard to 
each part of 126.5 ((a)-(d)).

    Answer. The detailed implementation of the Expedited Licensing 
Review initiative is still under development. The State Department will 
provide Congressional committees a copy of the written guidance to 
licensing officers when it is issued.


    Question. UN peacekeeping missions have been cut by some $360 
million from last year's funding estimates.

   Do these missions--all of which were created with support of the 
        United States, which could have vetoed any one--now cost less?

   If the Department is fully funded at the Administration's FY08 
        request, will we be in arrears, or will all our bills be paid 
        in full?

   Prior to FY07, was the United States in arrears in peacekeeping? 
        Assuming the Continuing Resolution funds SIPA at the FY06 
        1eve1, will any additional arrears accrue?

   Are we currently in arrears with the UN regarding peacekeeping?

   Please also provide a list of any other major contributors (those 
        who pay up to 5%) or P5 members who are in arrears.


    Answer. The President's budget includes a request for $1.107 
billion for contributions to UN peacekeeping activities in FY 2008. The 
exact requirements for UN peacekeeping funds for future years cannot be 
predicted, because the size and cost of UN peacekeeping missions depend 
on Security Council decisions based on conditions on the ground and 
General Assembly review of the financial implications associated with 
those decisions. Within the constraints of the President's overall 
budget, our 2008 request is based on our estimate of the requirements 
that takes into account such relevant factors as uncertainties about 
the future size of missions as well as the UN assessment rate and the 
25% rate cap consistent with current law. The U.S. uses regular reviews 
to explore whether missions can be downsized or eliminated, and will 
continue to work with our partners and the UN to identify cost savings 
wherever possible. The request for FY 2008 reflects assumptions that we 
will be able to reduce costs of many missions while maintaining the 
UN's essential role in peacekeeping activities.
    The request is intended to cover 25% of the estimated costs of UN 
operations during the fiscal year. The amount requested for FY 2008 is 
not intended to cover the cost of prior year arrears or the amount of 
our bills from the UN that exceeds the legislatively mandated 25% cap. 
Thus, the UN would consider the U.S. to be in arrears at the end of FY 
2008. Assuming that the budget request is sufficient to pay 25% of the 
UN's peacekeeping costs in FY 2008, the U.S. would accumulate at least 
an additional $45 million in arrears during this period because of the 
difference between our assessed share of approximately 26% and the 
legislatively mandated 25% cap.
    Yes, the United States was in arrears for peacekeeping prior to FY 
2007. The United States fell deeply into arrears for peacekeeping in 
the 1990s, primarily due to the difference between our assessed share 
of peacekeeping expenses and the 25% cap on such payments. Although the 
cap was raised and full funding was provided by the Congress to cover 
bills received between FY 2001 and FY 2005, shortfalls in funding and 
the effect of the cap have resulted in new arrears since the end of FY 
2005. The UN does not distinguish between arrears that relate to the 
1990s and more recent arrears. The UN considers the U.S. to have more 
than $500 million in arrears, mainly from the 1990s and due mainly to 
the difference between the peacekeeping assessment rates and the 
legislatively mandated 25% cap. Looking at the more recent period, the 
United States ended FY 2006 with approximately $119 million in new 
arrears that had accumulated since FY 2005. This amount consisted of 
$65 million that we were unable to pay because of the legislative cap 
and an additional $54 million resulting from billings that exceeded the 
appropriated FY 2006 level and were subsequently paid with FY 2007 
funds.
    Based on the very welcome inclusion in the FY 2007 full year 
Continuing Resolution of the President's request level for CIPA funding 
of $1.135 billion, we will be able to pay most of our assessed share of 
UN peacekeeping operations carried out during the fiscal year to the 
extent they were foreseen during preparation of the President's FY 2007 
budget. However, these funds will neither cover the unanticipated 
assessed costs of expanding the UN peacekeeping mission in Lebanon 
(LTNIFIL), for which the President has requested $184 million in FY 
2007 supplemental funds, nor the costs of establishing a new UN Mission 
in Timor-Leste (UNMIT), for which the President has requested an 
additional $16 million in FY 2007 supplemental funds. If the Congress 
approves this supplemental request for a total of $200 million, we will 
be able to reduce the amount of additional arrears likely to accrue in 
FY 2007. Nevertheless, in the absence of legislative relief from the 
25% cap, we would expect cumulative arrears due to the legislatively 
mandated cap to reach about $140 million by the end of FY 07. We will 
also need to defer payment of some bills received in the fourth quarter 
of FY 07 until receipt of new funds in FY 08.
    Yes, we are currently in arrears for peacekeeping. Although we were 
able to pay a portion of FY 2006 arrears with funds received under the 
FY 07 Continuing Resolution, we were unable to pay $65 million in 
arrears from FY 2005 and FY 2006 that relate to the legislatively 
mandated 25% cap. Moreover, based on the assessments received to date 
in FY 2007, we have accumulated an additional $37 million in bills that 
we are legally prohibited from paying because of the 25% cap. Thus, our 
current arrears accumulated from FY 2005 to FY 2007 amount to 
approximately $102 million.
    We have not yet received the UN's final report on the status of 
contributions by all UN Member States through the end of 2006. However, 
none of the other major contributors or P5 members have historically 
accumulated substantial arrears for peacekeeping assessments. China 
carried arrears of approximately $40 million in 2006.


    Question. Does the Administration support a permanent lifting of 
the 25% peacekeeping cap? If so, is the cap lift included in the 
Department's proposed draft legislation for this year?

    Answer. The Administration supports legislation that would allow us 
to pay our UN peacekeeping bills at the rate assessed by the UN.
    It is noteworthy in this context that the U.S. assessed share of UN 
peacekeeping which was over 30% in the 1990s, has continued to fall. 
The rate was nearly 27% for 2006, is just over 26% for 2007, and will 
be slightly under 26% for the years 2008-2009.
    The Administration has proposed in the FY 2008 budget request that 
the cap be lifted to 27.1% from calendar year 2005 through 2008. The 
Administration also submitted an authorization request for FY 2006 and 
2007 that called for an upward adjustment to the assessment cap. 
However, the Congress did not provide this authority. The 
Administration is currently developing its authorization proposals for 
fiscal years 2008 and 2009 and this provision will again be considered 
for submission to the Congress.


    Question. If the level of funding for the CIO account for FY07 is 
held at FY061evels, what will be the shortfall for the United Nations 
Regular Budget? Prior to this, was the United States in arrears on UN 
Regular Budget funding? Was any money that could have made up this 
shortfall included in the FY07 Supplemental Requests?

    Answer. The amount of the calendar year 2006 U.S. assessed 
contribution to the United Nations is $422.7 million. The Department 
anticipates going into arrears in its payment of this assessed 
contribution. The precise amount depends on a decision on allocation of 
the $130 million funding shortfall in the Contributions to 
International Organizations account, which is the source of funding for 
U.S. assessed contributions to the UN and forty-four other 
international organizations. The U.S. has not been in arrears in its 
payments to the UN Regular Budget since the 1990s.
    No funding was included in the Department's FY07 Supplemental 
Request to cover the shortfall in the CIO account appropriation for FY 
2007. At the time that the request was submitted, Congress had not yet 
taken final action on the President's FY 2007 request, which was $117 
million more than the amount eventually appropriated. The amount of the 
shortfall has grown to the current estimate of $130 million, due to 
exchange rate losses that have occurred since submission of the 
President's request.


    Question. Extensive wait times of more than 30 days for visa 
appointments are becoming chronic in many of our posts in Latin 
America. I also understand that our Ambassador to India was required to 
assign officers from the Political, Economic, Public Diplomacy, and 
Management offices to assist in visa interviews in order to clear up 
backlogs that were causing interview appointment delays up to six 
months. Will the Department be able to reduce these backlogs by 
shifting consular positions from other posts to these high demand 
embassies or does the Department simply need more bodies and more 
windows to conduct interviews? If the latter, how many more FTEs does 
the Department believe it needs, and at what cost? If facilities need 
to be upgraded, at what cost?

    Answer. The Department is funding additional positions to meet the 
projected demand for visas, but the number of entry level positions 
needed exceeds the Department's ability to hire enough officers. The 
Bureau of Consular Affairs (CA), in coordination with the Director 
General's office, is exploring alternate methods of using existing 
resources to meet growing staffing concerns. For example, some posts 
are experimenting with the use of shifts in order to address visa 
demand.
    Consular work requires a larger percentage of entry-level officers 
than do other types of Foreign Service work. The ability to fund 
sufficient annual entry-level intake is vital to the Department's 
ability to meet the explosive growth in visa demand. Dropping intake to 
that sufficient only to meet attrition will not permit adequate 
consular staffing in the field.
    CA has just completed a review of global consular operations to 
evaluate the balance between demand for consular services and current 
staffing levels. The review confirmed explosive demand in some regions, 
as well as reduced demand in others. We are taking steps to ensure 
worldwide coverage using the finite pool of available officers. In 
fact, CA has recently announced the details of a Consular Repositioning 
Initiative.
    Over the next three fiscal years, we anticipate that 32 consular 
positions will be shifted from lower volume posts (most of which are in 
Europe) to those where workload demand has increased (Mexico, Brazil, 
China, and India, among others). Shifting existing consular positions 
rather than creating new FTEs creates significant cost savings for the 
Department, and CA anticipates close to $7 million in savings by 
pursuing this strategy. CA does plan, and has budgeted for, the 
creation of an additional 24 positions in FY 2007 on top of our 
repositioning initiative to address burgeoning consular demand, 
bringing to 56 the total new officer positions slated for our high 
demand posts. We have earmarked funding in our proposed FY 2008 budget 
for the creation of an additional 20 positions should workload demand 
require it. Consular officer positions are funded by the Machine 
Readable Visa (MRV) fee and other consular fees, and we anticipate 
sufficient collection of fees to fund these new positions.
    Increasing long-term staffing could require significant changes to 
planned facility construction or renovation, which falls under the 
purview of the Bureau of Overseas Buildings Operations (OBO). Most of 
the posts gaining positions, however, are receiving only one new 
officer. While this will require planning to accommodate, these 
relatively minor staffing adjustments should not require new 
construction or major renovations.
    Our larger consular operations, especially those that have 
experienced significant recent increases in demand, will receive a 
larger number of officers. Consular operations in India, China, Mexico, 
Brazil, and Venezuela will face significant growth, and these increases 
will have a major impact on each post's management practices and/or 
space requirements. All of the posts designated to receive more than 
one new position either are on OBO's Long-Range Overseas Buildings Plan 
(LROBP), have been designated as a target for OBO renovation, or have 
the capacity to absorb the proposed increase.
    CA is working closely with OBO to ensure that the facilities 
requirements of increased consular staffing are taken into account. 
Given the rapid pace of change in visa demand, the Department needs to 
work to find a way to make the facility changes for consular sections 
more rapidly and flexibly, without undermining the discipline, 
transparency, and accountability of the LROBP process.
    The Department's recent efforts in India provide an excellent 
example of how well we can marshal our financial and personnel 
resources to meet urgent demands. By May 2007, CA will have provided a 
total of 53 TDYers to India posts, supplementing the internal non-
consular personnel who have assisted the consular sections in 
processing visa cases on a temporary basis. In addition, OBO provided 
quick turnaround on small-scale renovation projects that allowed 
consular sections to improve their efficiency. Wait times across India 
have dropped to below 15 days.


    Question. I understand that the Discover America Partnership has 
proposed the creation of an Exit Fee for departing international 
travelers along the lines of similar fees in Australia, Japan and the 
UK. Such fees could be used to fund additional FTEs and facility 
upgrades. Is this a proposal that the Department should consider? Would 
you expect the administration to support such a fee?

    Answer. The Discover America Partnership has proposed that visitors 
departing the United States pay an exit fee, which would be used to 
fund part of the State Department's operations. It would be useful to 
discuss within the Administration and with the Congress how the funds 
would be collected and disbursed, and any possible effects on other 
Department funding streams.


    Question. On at least three occasions, President Bush called 
ratification of the IAEA Additional Protocol a high priority. The 
Senate ratified the treaty in 2003, but implementing legislation was 
necessary before it could go into effect. After a number of years of 
hard work, the Committee overcame numerous bureaucratic and 
parliamentary obstacles and convinced the House to pass this 
legislation at the end of last year. Why hasn't the U.S. deposited its 
instrument of ratification and when do you expect this to occur?

    Answer. We welcome Congressional action on the implementing 
legislation; however, the text of the legislation approved by the 
Congress and enacted by the President differed in several respects from 
both the Administration's proposed legislation submitted in 2003 (S-
1837 from the 108' Congress), and the bill that you introduced last 
summer. In providing its advice and consent to ratification for the 
U.S. Additional Protocol, the United States Senate placed several 
conditions which were binding on the President. First, the President 
must make a certification to Congress that the United States shall 
promulgate all necessary regulations and that those regulations will be 
in force no later than 180 days after the deposit of the instrument of 
ratification. Second, the President must certify that managed access 
provisions in Articles 1(c) and 7 will be implemented in accordance 
with necessary and appropriate interagency guidance and regulations. 
The Administration will need to ensure that its internal guidance for 
implementing the Additional Protocol, as well as Agency rules and 
regulations, are consistent with the text of the enacted legislation 
and that we can fulfill all our obligations under the Additional 
Protocol, the enacted legislation, and other Senate conditions 
contained in the Senate's resolution of ratification for the Additional 
Protocol.


    Question. In November, I visited the International Atomic Energy 
Agency in Vienna. While there, I toured the laboratory where nuclear 
samples collected during an IAEA inspection are analyzed to determine 
if a country is illegally pursuing nuclear weapons. Unfortunately the 
lab's aging equipment and dangerous working conditions severely hamper 
the important work done there, and threaten to shut down a critical 
nonproliferation facility. Equally disturbing, the world's premiere 
nuclear watch dog is hampered by a number of personnel policies that 
prevent it from retaining key safeguards expertise.


   What steps does the Administration plan to take to rectify these 
        serious problems?

   What portion of the fiscal year 2008 budget request is devoted to 
        addressing IAEA safeguards technology issues, including at the 
        IAEA safeguards analytical laboratory?

    Answer. The IAEA requires efficient, effective and state of the art 
technological, methodological, information and communication 
infrastructure in support of its verification regime. This 
infrastructure includes the development, acquisition, improvement, 
enhancement or availability of: verification equipment and 
instrumentation; analytical techniques and methodologies; safeguards 
concepts and approaches; information and communication technology 
capabilities; and capabilities for collection, analysis and evaluation 
of safeguards-relevant information acquired from commercial satellite 
imagery. Some of this equipment is provided for out of the regular 
budget; however, the IAEA must rely on voluntary contributions from 
donor states to purchase other equipment and services to carry out its 
verification function, particularly when the regular budget is 
constrained.
    The United States values the work of the Safeguards Analytical 
Laboratory (SAL) at Seibersdorf, Austria, and realizes that there is 
need for future renovation and/or construction, including the purchase 
of new equipment. Preliminary analysis has concluded that there are no 
serious building infrastructure concerns that would require the 
construction of a new laboratory; however, as buildings age, repairs 
and modifications are required. In particular, SAL will need repairs to 
its ventilation system; the installation of a fire protection system; 
and an upgrade to its site security. Moreover, the IAEA has alerted 
Member States in budget documents that it needs to purchase two mass 
spectrometers for SAL, which together will cost approximately $5M, as 
well as improve its capacity to collect and analyze commercial 
satellite imagery. These items, as well as several others, are core 
needs of the Agency and are unfunded in the Agency's regular budget. 
The IAEA has requested 600,000 euros (roughly $800,000) in voluntary 
contributions for sample analysis in 2008.
    The U.S. contributes to IAEA safeguards through its regular budget 
assessment and through our voluntary contribution. Over 70% of the 
Agency's Safeguards Development and Support subprogram (projected to be 
about Euro 39M in 2008) of its regular budget will go toward safeguards 
technology issues. The U. S. rate of assessment for the regular budget 
is 25%. The U.S. voluntary contribution for this year is not yet 
finalized, but in past years our voluntary contribution contained 
approximately $15-20M devoted to safeguards technology issues, mostly 
through the U.S. Program of Technical Assistance (POTAS) to the IAEA.
    Finally, as noted in the question above, forced rotation of 
personnel required by IAEA personnel policy has caused a negative 
impact on safeguards analyses. We are encouraging the IAEA to exempt 
key SAL personnel from this policy.


    Question. In 2005 at the G8 Summit in Gleneagles, Scotland, the 
Administration, along with the other Members of the G8, agreed to 
utilize such market incentives as public-private partnerships and 
advanced market commitments (AMCs) to encourage the private sector to 
invest in research and development of vaccines and other medicines to 
combat diseases specific to the developing world. In Rome this week, 
Italy, Canada, the UK, and Norway pledged to fund a pilot AMC for 
pneumococcal vaccines. The U.S. is not participating in this pilot AMC. 
The U.S. originally supported the AMC concept and was instrumental in 
negotiations leading up to this pilot program. Why is the U.S. not 
participating?

    Answer. We have closely followed the development of an Advance 
Market Commitment pilot to accelerate supply of a next generation 
pneumococcal vaccine to meet needs in developing countries. The United 
States participated in several technical meetings aimed at designing 
the initiative.
    However, given budgetary constraints, our existing commitment to 
maintain support for the supply and delivery of currently-available 
life-saving vaccines, and some remaining concerns regarding the 
untested nature of this financing mechanism, we do not plan to 
participate financially in this AMC at this time.
    The United States--both the USG and private donors--provides 
significant assistance to global immunization and vaccine development 
efforts. The United States also spends more than any other country on 
health research and development. For example, the National Institutes 
of Health spend $1.5 billion annually for vaccine-related research, not 
including the over $500 million spent by NIH on HIV/AIDS vaccine work. 
This research benefits people around the world.
    Given this extensive U.S. financial support for vaccines and global 
health, the USG recognizes the benefits of the development of an 
effective pneumococcal conjugate vaccine.


    Question. Given the lack of progress toward peace in Sri Lanka, 
what additional steps will the State Department take to support peace 
in that country?

    Answer. We are deeply concerned about the lack of progress toward 
peace in Sri Lanka. While we support the Sri Lankan Government in its 
struggle against the Liberation Tigers of Tamil Eelam, a designated 
Foreign Terrorist Organization, we believe that peace cannot be 
achieved militarily and a lasting solution to the conflict requires a 
negotiated political settlement.
    For these reasons, our vigorous diplomacy with the Sri Lankan 
Government has focused on the importance of the Government presenting 
as soon as possible a credible proposal for devolution of power that 
addresses the legitimate grievances of Sri Lanka's Tamil and other 
minority populations. We also continue to press the Sri Lankan 
Government to respect human rights and civil liberties, and to 
thoroughly investigate allegations of human rights abuses. Given our 
deep concerns about the human rights situation, I have nominated former 
Assistant Secretary of Population, Refugees and Migrations Affairs, 
Arthur Dewey, as a member of the Independent, International Group of 
Eminent Persons, a group which is working with the Government's human 
rights Commission of Inquiry to ensure investigations into reported 
human rights violations meet international standards.
    In addition to our bilateral diplomatic efforts, we continue to 
coordinate with the international community, especially India and the 
Co-Chairs of the Tokyo Donors Conference (the United States, Japan, 
Norway, and the European Union). On February 21, Assistant Secretary of 
State for South and Central Asian Affairs Richard A. Boucher held a 
conference call in which the Co-Chairs agreed to continue to coordinate 
efforts to press the Sri Lankan Government on human rights and 
devolution. Norway, in particular, continues to play a key role as 
facilitator of the peace process, and we strongly support the 
Norwegians' sustained leadership in the international effort to advance 
peace in Sri Lanka.


                               __________


            Responses to Additional Questions Submitted by 
                    Senator Boxer to Secretary Rice

    Question. Secretary Rice, how will the new State Department 
Coordinator for Iraq Reconstruction, Ambassador Tim Carney, work to 
ensure that these mistakes are not repeated?

    Answer. The U.S. Government has taken decisive action to respond to 
the concerns identified in SIGIR's audit of the Basrah Children's 
Hospital (BCH). Management of the BCH project has been transferred to 
the Gulf Region Division of the U.S. Army Corps of Engineers (GRD), 
which has extensive experience in Iraq. GRD has contracted directly 
with a local construction firm to complete the project. Procedures have 
been put in place to maintain control of project work and cost. These 
include:


   Quarterly assessment of cost to complete;

   A project cost and schedule tracking mechanism;

   Direct payment to the sub-contractors; and

   Establishment of a Special Project Office that includes personnel 
        from the Basrah office of the Ministry of Health (MoH) and 
        Project HOPE.


    Ambassador Carney is working closely with Iraqi officials to ensure 
that Iraq's considerable resources are brought to bear on the task of 
rebuilding Iraq. One of the issues on which he will focus is helping 
the Iraqis better execute their budgets, particularly on capital 
spending for investments to improve essential services and promote 
economic development. Ambassador Carney also will help Iraq meet its 
commitments under the International Compact with Iraq. Ambassador 
Carney's primary focus will be on liaising with Iraqi officials on 
expenditure of Iraqi funds.


    Question. I understand that the State Department is resisting a 
request by the GAO to have a permanent presence in Iraq. Will you help 
facilitate such a presence?

    Answer. We welcome the work and recommendations of the GAO and 
fully support short, focused temporary duty (TDY) trips by GAO staff to 
Iraq. We have supported fourteen audits by the GAO of activities in 
Iraq over the past three years.
    GAO's most recent request is for a three-month TDY visit by three 
GAO personnel, each of whom would require lodging, extensive support 
services, security, computer access, and other administrative support. 
GAO has signaled that this would be followed by at least one subsequent 
team for another three months.
    Given logistical constraints and the current extraordinary security 
situation, the Embassy must carefully review all requests for official 
visits to Iraq, regardless of agency. Each person deployed to Baghdad 
by GAO personnel would displace an existing individual serving an 
essential role within the Embassy. The long-term deployment of GAO 
staff to Baghdad would diminish our ability to carry out critical 
missions. We have thus determined that longer-term TDY visits by GAO 
personnel are not supportable.
    After a thorough review, we determined that approval of a two-week 
TDY visit by GAO staff was appropriate given the combination of very 
limited resources and security issues.


    Question. I have heard concerns from my constituents in recent 
weeks about a possible military confrontation with Iran. It is clear 
that the Iraq war is a primary reason for the rise in Iranian influence 
in the Middle East. Former Secretary of State Madeleine Albright 
testified last week urging this very committee to ``ask detailed 
questions about every aspect of the Administration's intentions towards 
Iran and to demand credible answers.''
    So Secretary Rice, in the interest of congressional oversight and 
the American people, what lines of communication are open with Iran to 
prevent an inadvertent escalation to war?

    Answer. Since 1980, the government of Switzerland, acting through 
its embassy in Tehran, has served as our Protecting Power for U.S. 
interests in Iran. The U.S. and Iranian governments are able to 
exchange messages including those on de-confliction of military 
activities via the Swiss embassies in Washington and Tehran.
    Over the past couple of years, the U.S. Government also has 
authorized Ambassador Khalilzad in Baghdad to establish an open channel 
to the Iranian Government to discuss Iraq-related security matters. 
This channel however was never active. Ambassador Khalilzad had several 
exchanges with Iranian officials on an Iraq-related security matter at 
the March 2007 Baghdad Neighbors conference. Secretary Rice plans to 
take part in any follow-on Neighbors ministerial meetings, presumably 
Iranian Foreign Minister Mottaki will also participate alongside all 
the invited Foreign Ministers and the Secretary.
    Secretary Rice made a historic offer on May 31, 2006, to join her 
P5+1 colleagues in direct discussions with Iran regarding the nuclear 
and other issues ``at any place and at any time,'' provided Iran fully 
and verifiably suspends its enrichment-related and reprocessing 
activities. This avenue represents the best opportunity for Iran and 
the United States to begin addressing the serous issues on the regional 
agenda.

                                 <all>

      

</pre></body></html>
